<html>
<title> - THE SITUATION IN AFGHANISTAN</title>
<body><pre>[Senate Hearing 112-569]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-569

 
                      THE SITUATION IN AFGHANISTAN

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2012

                               __________

         Printed for the use of the Committee on Armed Services




        Available via the World Wide Web: http://www.fdsys.gov/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
76-272                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="adcaddc2edced8ded9c5c8c1dd83cec2c083">[email&#160;protected]</a>  


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

                 Ann E. Sauer, Minority Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                      The Situation in Afghanistan

                             march 22, 2012

                                                                   Page

Miller, Hon. James N., Jr., Acting Under Secretary of Defense for 
  Policy.........................................................     8
Allen, Gen. John R., USMC, Commander, International Security 
  Assistance Force, and Commander, U.S. Forces Afghanistan.......    13

                                 (iii)


                      THE SITUATION IN AFGHANISTAN

                              ----------                              


                        THURSDAY, MARCH 22, 2012

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Nelson, Webb, McCaskill, Udall, Hagan, Begich, Manchin, 
Shaheen, Gillibrand, Blumenthal, McCain, Inhofe, Sessions, 
Chambliss, Wicker, Brown, Ayotte, Collins, Graham, and Cornyn.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Peter K. Levine, general 
counsel; William G.P. Monahan, counsel; Michael J. Noblet, 
professional staff member; and William K. Sutey, professional 
staff member.
    Minority staff members present: Ann E. Sauer, minority 
staff director; Adam J. Barker, professional staff member; 
Christian D. Brose, professional staff member; and Richard F. 
Walsh, minority counsel.
    Staff assistants present: Jennifer R. Knowles, Hannah I. 
Lloyd, and Brian F. Sebold.
    Committee members' assistants present: Vance Serchuk, 
assistant to Senator Lieberman; Carolyn Chuhta and Elyse Wasch, 
assistants to Senator Reed; Nick Ikeda, assistant to Senator 
Akaka; Ryan Ehly, assistant to Senator Nelson; Gordon Peterson, 
assistant to Senator Webb; Stephen Hedger, assistant to Senator 
McCaskill; Lindsay Kavanaugh, assistant to Senator Begich; Mara 
Boggs, assistant to Senator Manchin; Chad Kreikemeier, 
assistant to Senator Shaheen; Elana Broitman, assistant to 
Senator Gillibrand; Ethan Saxon, assistant to Senator 
Blumenthal; Anthony Lazarski, assistant to Senator Inhofe; 
Lenwood Landrum, assistant to Senator Sessions; Clyde Taylor 
IV, assistant to Senator Chambliss; Joseph Lai, assistant to 
Senator Wicker; Charles Prosch, assistant to Senator Brown; 
Brent Bombach, assistant to Senator Portman; Brad Bowman, 
assistant to Senator Ayotte; Ryan Kaldahl, assistant to Senator 
Collins; Sergio Sarkany, assistant to Senator Graham; Dave 
Hanke, assistant to Senator Cornyn; and Joshua Hodges, 
assistant to Senator Vitter.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to receive testimony on the progress of the 
campaign in Afghanistan. Our witnesses are Dr. Jim Miller, 
Acting Under Secretary of Defense for Policy, and General John 
Allen, Commander of the 50-country International Security 
Assistance Force (ISAF) and Commander, U.S. Forces-Afghanistan. 
A warm welcome and thanks to you both.
    I'm going to interrupt this hearing at this moment to take 
care of some nominations because we have a quorum present. I'll 
ask the committee to consider a list of 246 pending military 
nominations. They've all been before the committee the required 
length of time. Is there a motion to favorably report the 246 
military nominations?
    Senator McCain. So moved.
    Chairman Levin. Is there a second?
    Senator Sessions. Second.
    Chairman Levin. All in favor say aye. [Chorus of ayes.]
    Opposed, nay. [No response.]
    The motion is carried.
    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
Which are Proposed for the Committee's Consideration on March 22, 2012.
    1. LTG Thomas P. Bostick, USA, to be lieutenant general and Chief 
of Engineers/Commanding General, U.S. Army Corps of Engineers 
(Reference No. 403).
    2. Col. Peter R. Masciola, ANG, to be brigadier general (Reference 
No. 1007).
    3. BG Michael X. Garrett, USA, to be major general (Reference No. 
1144).
    4. In the Army there is 1 appointment to the grade of lieutenant 
colonel (Richard M. Scott) (Reference No. 1166).
    5. BG Mark A. Ediger, USAF to be major general (Reference No. 
1207).
    6. In the Army, there are 28 appointments to the grade of major 
general (list begins with Robert P. Ashley, Jr.) (Reference No. 1210).
    7. In the Marine Corps, there is one appointment to the grade of 
major (William J. Wrightington) (Reference No. 1282).
    8. In the Marine Corps, there is one appointment to the grade of 
lieutenant colonel (Mark A. Mitchell) (Reference No. 1288).
    9. In the Marine Corps, there are two appointments to the grade of 
lieutenant colonel (list begins with Robert F. Emminger) (Reference No. 
1295).
    10. In the Marine Corps Reserve, there are 73 appointments to the 
grade of colonel (list begins with Paul H. Atterbury) (Reference No. 
1333).
    11. LTG Janet C. Wolfenbarger, USAF, to be general and Commander, 
Air Force Materiel Command (Reference No. 1356).
    12. BG Craig A. Bugno, USAR, to be major general (Reference No. 
1357).
    13. In the Army, there are 53 appointments to the grade of major 
(list begins with Keith J. Andrews) (Reference No. 1364).
    14. In the Air Force Reserve, there are five appointments to the 
grade of brigadier general (list begins with Ondra L. Berry) (Reference 
No. 1384).
    15. In the Air Force Reserve, there are five5 appointments to the 
grade of major general (list begins with Steven A. Cray) (Reference No. 
1385).
    16. In the Air Force, there are 25 appointments to the grade of 
major general (list begins with David W. Allvin) (Reference No. 1386).
    17. In the Army Reserve, there are two appointments to the grade of 
colonel (list begins with Dwight Y. Shen) (Reference No. 1396).
    18. In the Air Force Reserve, there are 23 appointments to the 
grade of brigadier general (list begins with Steven M. Balser) 
(Reference No. 1411).
    19. LTG Clyde D. Moore II, USAF, to be lieutenant general and 
Commander, Air Force Life Cycle Management Center, Air Force Materiel 
Command (Reference No. 1412).
    20. In the Air Force, there are two appointments to the grade of 
colonel and below (list begins with Matthew R. Gee) (Reference No. 
1415).
    21. In the Army, there is one appointment to the grade of major 
(Shane T. Taylor) (Reference No. 1417).
    22. In the Army, there are three appointments to the grade of 
lieutenant colonel and below (list begins with Patricia A. Loveless) 
(Reference No. 1418).
    23. In the Army, there is one appointment to the grade of major 
(Robert S. Taylor) (Reference No. 1419).
    24. In the Army, there is one appointment to the grade of major 
(Casey D. Shuff) (Reference No. 1420).
    25. In the Navy, there are three appointments to the grade of 
lieutenant commander (list begins with Jay R. Friedman) (Reference No. 
1422).
    26. In the Navy, there is one appointment to the grade of 
lieutenant commander (Steven J. Porter) (Reference No. 1423).
    27. Col. Douglas D. Delozier, ANG, to be brigadier general 
(Reference No. 1427).
    28. MG David D. Halverson, USA, to be lieutenant general and Deputy 
Commanding General/Chief of Staff, US Army Training and Doctrine 
Command (Reference No. 1443).
    29. In the Air Force, there are three appointments to the grade of 
lieutenant colonel and below (list begins with Kerry L. Lewis) 
(Reference No. 1444).
    30. In the Army Reserve, there are three appointments to the grade 
of colonel (list begins with John B. Hill) (Reference No. 1445).
    Total: 246.

    Chairman Levin. Our troops in Afghanistan are being asked 
to perform demanding and often dangerous missions and they're 
carrying them out superbly and professionally. General Allen, 
on behalf of the committee, please pass along our unwavering 
support for our military men and women serving with you in 
Afghanistan, our gratitude for their courageous and dedicated 
service and the support of their families.
    Talking about families, I know that you have with you this 
morning, General, your wife, Kathy Allen, and your daughter, 
Bobbi Allen. I hope I had their names correct. I temporarily 
had them mixed up a little earlier this morning. I'm not sure 
if I need forgiveness from either one of them, but in any event 
we're delighted that they're here.
    General Allen. Thank you, Senator.
    Chairman Levin. The success of our mission in Afghanistan 
depends on building the capacity of Afghan security forces to 
take the lead for security in their country. U.S.-Afghan 
partnering has been critical to the mission at all levels, from 
North Atlantic Treaty Organization (NATO) training missions to 
partnering with units in the field and on up to advisors in the 
ministries of defense and interior. That partnership has been 
tested by the disturbing events of the last few weeks, 
including the violence following the unintentional and the very 
regrettable burning of Korans at a U.S. military base. The 
tragic and incomprehensible killing of 16 Afghan civilians in 
Kandahar Province, apparently by a U.S. soldier, has further 
strained the relationship between the United States and 
Afghanistan.
    Last week, President Obama and President Karzai reaffirmed 
their common commitment to completing the process of transition 
in Afghanistan. In a coordinated press statement, the two 
presidents reiterated their support for the approach agreed 
upon at the 2010 NATO summit in Lisbon, which calls for Afghan 
security forces to assume ``full responsibility'' for security 
across the country by the end of 2014.
    This morning, I want to focus on another part of that 
jointly issued statement. President Obama and President Karzai 
both said in that coordinated press statement that they share 
the goal of building capable Afghan security forces so that 
Afghans are increasingly in charge of their own security--and; 
``with the lead for combat operations shifting to Afghan 
forces, with U.S. forces in support, in 2013.''
    General Allen assured me in a discussion in my office that 
NATO's planned transfer of full responsibility for security 
across Afghanistan in 2014 always assumed shifting the lead in 
combat operations to Afghans in all five so-called tranches or 
areas of Afghanistan by 2013. That's good news to me. I say 
good news because it has always been my belief that success in 
Afghanistan depends on building the capacity of the Afghan army 
and police so that Afghans are in the lead in providing 
security for their own country, not ISAF forces, and to ensure 
that that happens by continuing to reduce our forces.
    The Afghans want their own forces providing for their own 
security. That's what we heard when we met with village elders 
at their council meeting in Helmand Province 2\1/2\ years ago. 
When I asked how long U.S. forces should stay, one elder told 
me: Only long enough to train our security forces and then 
leave. After that you will be welcome to visit us, not as 
soldiers, but as guests.
    So I hope our witnesses will explain in some detail this 
morning how the 2013 and 2014 dates are in sync, as well as how 
the process of phased transition, agreed to by all at Lisbon, 
will unfold over the coming months and years.
    General Allen, I hope that you will explain what that 
transition to an Afghan lead will look like and how 
transitioning to Afghan lead in the final part of Afghanistan 
can occur in 2013 when the transition is not to be completed 
until 2014.
    In addition, we need to know what this transition means for 
the mission of U.S. and coalition forces. Secretary Panetta has 
said that as Afghanistan security forces assume the lead for 
security, ISAF forces will move to a ``support, advise, and 
assist role,'' although ISAF forces will remain ``fully combat 
capable.'' It appears that, even though Afghan security forces 
will be in the lead starting in 2013 throughout Afghanistan, 
U.S. and coalition forces may still be participating in combat 
operations with Afghan forces in parts of Afghanistan while the 
transition process continues to completion in 2014.
    I also understand that the plan after 2014 is for the 
Afghan security forces to still receive coalition support in 
key enablers, such as logistics, airlift, and intelligence 
support, and U.S. Special Operations Forces (SOF) will likely 
be partnered with their Afghan counterparts in conducting 
counterterrorism operations.
    We also need to know what the transition process means for 
the pace of U.S. troop reductions in Afghanistan. Last June, 
President Obama said that after the 33,000-troop U.S. surge 
force was brought home by the end of this summer, that U.S. 
troop levels would continue to draw down, this is the 
President's quote, ``at a steady pace.'' Yet the fiscal year 
2013 defense budget for overseas contingency operations is 
based on an assumption of 68,000 U.S. troops remaining in 
Afghanistan throughout the 2013 fiscal year.
    So we'll be asking you whether you support continuing to 
draw down U.S. forces at a steady pace, as the President said, 
after the 68,000-troop level is reached by September, and we'd 
also like to know when you expect to make your recommendation, 
General, on post-surge reductions in U.S. forces in Afghanistan 
starting after September of this year.
    Given the importance of having capable Afghan National 
Security Forces (ANSF) take over the security lead throughout 
Afghanistan, I was surprised and I was concerned about news 
accounts of a U.S. proposal to reduce the size of the Afghan 
forces by a third after 2014, apparently based on questions of 
the affordability of sustaining a larger Afghan force. 
According to a Wall Street Journal article last month, the 
United States has proposed reducing the size of the Afghan 
security forces from 352,000 in 2012 to 230,000 after 2014. 
That article cited Lieutenant General Bolger, the head of the 
NATO Training Mission in Afghanistan, as saying that this 
proposal is based in part on ``what the international community 
will provide'' financially.
    I believe that our commanders should be providing their 
military advice based on what they believe the Afghan security 
forces will need to successfully maintain security, not based 
on their guess about affordability 2 years down the road. In my 
view, it is cost effective to sustain a larger Afghan security 
force when compared to the costs in billions of dollars and the 
lives of our military men and women of having U.S. and 
coalition forces maintain security in Afghanistan. It may be 
penny-wise, but it would be pound-foolish to put at risk the 
hard-fought gains that our coalition partners and the Afghans 
have achieved, rather than support an Afghan security force 
that is right-sized to provide security for the Afghan people 
and to prevent a Taliban return to power.
    Our relationship with Afghanistan will continue beyond 
completion of the security transition in 2014. The strategic 
partnership agreement being negotiated between the United 
States and Afghanistan will play an important role in defining 
the shape of that bilateral relationship. The recent memorandum 
of understanding (MOU) on detention operations signed by 
General Allen and Afghan Defense Minister Wardak has addressed 
one of the main obstacles to concluding the strategic 
partnership agreement.
    Another controversial issue in those strategic partnership 
talks is the conduct of night raids by coalition and Afghan 
forces. Afghan officials have repeatedly called for an end to 
night raids, alleging that such operations are disruptive to 
Afghan lives and lead to civilian casualties. But what is often 
ignored here in the United States and in Afghanistan is that 
Afghan soldiers participate in all night raid operations.
    In December, General Allen issued an ISAF tactical 
directive on night operations designed to ``minimize the 
disruption and the concern caused by night operations to law-
abiding Afghan citizens.'' That directive clearly stated that 
all coalition night operations are partnered operations, 
``carried out alongside specially trained Afghan soldiers and 
policemen, who are increasingly taking on responsibility for 
the command and control of night operations, with a view to 
transitioning this responsibility to them entirely as their 
capacity develops.''
    It directs, the same directive, that the Afghan security 
forces on night raids should be encouraged to take the lead, 
should be the first to make contact with local Afghans in their 
homes, and be the first force seen and heard by local 
villagers. Searches are always to be conducted by Afghan 
security forces when available and female personnel are always 
to be used for searching women and children.
    As General Allen's directive states, ``Successful 
transition will be characterized by our Afghan partners taking 
increasing responsibility for the planning and command and 
control of these night operations.''
    I would appreciate our witnesses sharing with this 
committee the facts relative to the conduct of night raids and 
the ongoing talks to reach an understanding on those 
operations. I understand that resolving this issue could help 
clear the way for concluding a strategic partnership agreement 
by the NATO Chicago summit in May.
    Many challenges remain in Afghanistan and should not be 
understated. Much will depend on countering the cross-border 
threat from insurgents finding refuge in safe havens on 
Pakistan's territory, including dealing with the threat from 
the Haqqani network; on possible progress in reconciliation 
talks with the Taliban. Much is going to depend on the Karzai 
Government improving the delivery of services and economic 
development, taking on corruption, providing increased 
transparency, and on the conduct of credible provincial and 
national elections.
    Despite all the challenges, our troops' morale remains high 
and they want to see this mission through to completion and 
success. They deserve our support and they have our support.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    Let me thank our witnesses for appearing before us this 
morning and for their continued service to our Nation. I 
appreciate Dr. Miller lending his expertise for this important 
hearing, and I obviously especially want to recognize General 
Allen, who might be the only witness before this committee 
whose congressional testimony qualifies as rest and relaxation 
from his day job.
    I know that General Allen would be the first to say that 
what inspires him to get up every morning and keep fighting 
hard each day and long into the night is the selfless example 
set by the troops he leads. I know that much of the recent news 
from Afghanistan has been discouraging and that has only 
increased the desire of a war-weary public to end our mission 
there.
    However, none of this changes the vital U.S. national 
security interests that are at stake in Afghanistan, nor does 
it mean the war is lost. It is not. There is still a realistic 
path to success if the right decisions are made in the coming 
months.
    The painful lesson we learned on September 11, 2001, 
remains as true today as then: What happens in Afghanistan has 
a direct impact on our safety here at home. If we quit 
Afghanistan again, as we did in the 1990s, and abandon the 
millions of Afghans who have risked everything to be our allies 
in the hopes of succeeding together, the consequences will be 
disastrous for us both.
    It does not have to be this way. Our troops have made 
significant military progress on the ground in Afghanistan. 
Four years ago southern Afghanistan was overrun by the Taliban 
and our coalition lacked both the resources and the strategy 
necessary to break the momentum. Today the situation has 
reversed. Similarly, our effort to build the ANSF has been 
completely overhauled. The result is growing numbers of Afghan 
units that are capable of leading the fight. The few Afghan 
soldiers who turned their weapons on our troops should not 
obscure the larger fact that hundreds of thousands of Afghans 
are fighting every day as our faithful allies in a common fight 
against al Qaeda and the Taliban and these Afghan patriots are 
being wounded and killed in far greater numbers than our 
forces.
    This should give us hope that our common goal of an 
Afghanistan that can secure and govern itself remains 
achievable over time. To sustain this fragile process, it's 
critical that President Obama resist the short-sighted calls 
for additional troop reductions, which are a guarantee of 
failure. Our forces are currently slated to drawn down to 
68,000 by September, a faster pace than our military commanders 
recommended, which has significantly increased the risk for our 
mission. At a minimum, there should be a pause after September 
to assess the impact of the drawdown. It would be much better 
to maintain the 68,000 forces through next year's fighting 
season, probably longer.
    At the strategic level, our efforts continue to be 
undermined by the perception that the United States will 
abandon Afghanistan once again. This creates incentives for the 
Taliban to keep fighting, for the Pakistan army to hedge its 
bets by supporting the Taliban, and for our Afghan allies to 
make counterproductive decisions based on fears of what a post-
American future will bring.
    We must reverse this dynamic, and the best way to do so is 
by concluding a strong strategic partnership agreement with 
Afghanistan, which would serve as a concrete basis for a long-
term political, economic, and military relationship. Just 2 
weeks ago, one of the two major obstacles to this agreement was 
resolved as the U.S. and Afghan Governments reached an 
understanding on a timetable for handing over detention 
operations. This provides reason for optimism that a similar 
resolution can be found to gradually transfer the lead for so-
called night raids to Afghan forces. In fact, this transition 
is already occurring in practice.
    With these two issues resolved, the strategic partnership 
agreement could provide a framework for an enduring U.S. 
military commitment to Afghanistan beyond 2014, including joint 
operating facilities and long-term support for the more than 
350,000 ANSF that are necessary to secure the country. This 
plan should also include an enduring presence of SOFs to 
continue counterterrorism cooperation with our Afghan partners. 
Such an agreement would encourage our allies to make similar 
long-term commitments.
    This is the right way to set the conditions under which our 
forces can responsibly draw down and hand the lead to the 
Afghans. The strategic partnership would make clear to the 
Taliban that they cannot wait us out and win on the 
battlefield, thus fostering real reconciliation on favorable 
terms to the Afghan Government and to us. It would demonstrate 
to Pakistan's army that continued support for the Taliban is a 
losing bet and will only leave Islamabad more isolated and less 
secure. It would give Afghan leaders the reassurance to fight 
corruption and govern better. In short, this agreement can 
change the entire narrative in Afghanistan and the region from 
imminent international abandonment to enduring international 
commitment.
    All of this is achievable if the right decisions are made 
in the months ahead. Far from being unsalvageable or not worth 
the effort, as many now fear, this war is still ours to win. 
After all we have given, after all the precious lives we have 
lost, and with all the vital interests we have at stake, now is 
not the time to quit. It is the time to recommit ourselves to 
being successful. We owe nothing less to the tens of thousands 
of Americans who are risking their lives every day for this 
mission and for us.
    I thank you, Mr. Chairman.
    I thank the witnesses.
    Chairman Levin. Thank you so much, Senator McCain.
    Dr. Miller, we're delighted to have you with us today. You 
are our Acting Under Secretary of Defense for Policy and we 
call now upon you. Dr. Miller.

STATEMENT OF HON. JAMES N. MILLER, JR., ACTING UNDER SECRETARY 
                     OF DEFENSE FOR POLICY

    Dr. Miller. Thank you, Mr. Chairman. Chairman Levin, 
Senator McCain, members of the committee: Thank you for 
inviting me to testify today. I am pleased and honored to be 
here with our outstanding commander in Afghanistan, General 
John Allen.
    The United States' vital objectives in Afghanistan remain 
to deny safe haven to al Qaeda and to deny the Taliban the 
ability to overthrow the Afghan Government. This administration 
is committed to meeting these core objectives and, while we 
have faced and will face serious challenges, our strategy is 
succeeding. Our counterterrorism efforts against al Qaeda have 
been extremely successful. Although the job is not finished, 
there is no doubt that we have severely degraded al Qaeda's 
capacity. As a result of the surge launched in 2009, we have 
broken and reversed the Taliban's momentum, and the ANSF are 
increasingly capable and increasingly in the lead.
    Mr. Chairman, our forces are performing extremely well, as 
I saw firsthand in a trip to Afghanistan that I took 2 weeks 
ago. We are well into a process of transition to ANSF 
leadership, as we agreed at the 2010 NATO summit. In fact, 
today almost 50 percent of Afghans live in areas that have 
begun the transition process to ANSF lead.
    Mr. Chairman, as you noted, as an interim milestone at some 
point in 2013 the ANSF will be in the lead for providing 
security across Afghanistan. U.S. and coalition forces will be 
in a support role, which will take a number of forms. This 
includes U.S. and coalition forces partnered with Afghan units, 
as is already occurring in a number of places today, and it 
will also include, for example, the smaller footprint 
associated with U.S. and coalition forces in a train, advise, 
and assist role.
    By the end of 2014, the ANSF will be responsible for the 
security of their country. By that time, U.S. and coalition 
forces will have moved to a much smaller presence, focused on 
counterterrorism and on training, advising, and assisting 
Afghan forces.
    Mr. Chairman and members of the committee, there is no 
doubt that the Afghanistan war has been a tough fight, and the 
last several weeks have been particularly difficult. The 
inappropriate handling of Korans and religious material at 
Bagram Air Base was an error that, while unintentional, sent 
precisely the wrong signal. This unfortunate act stands in 
stark contrast to the many years during which U.S. forces have 
demonstrated deep respect for the religious practices of the 
Afghan people.
    Even more recently, the Afghans and we have had to respond 
to the horrific killings of 16 Afghan civilians in Panjwai 
District, Kandahar. The Department of Defense (DOD) is 
conducting a full investigation of this senseless act. A 
suspect is now in custody at Fort Leavenworth, KS. Justice will 
be done and any one responsible will be held accountable.
    We've also been challenged by attacks by Afghan personnel 
against U.S. and coalition partners, the so-called green-on-
blue attacks. We will have to work through these incidents and 
through these challenges, as President Obama and Secretary 
Panetta have discussed over the last week with President 
Karzai.
    But it is critical that these tragic occurrences not blind 
us to the significant progress that we have made. From 2010 to 
2011, enemy-initiated attacks in Afghanistan were down 9 
percent. This trend has continued in 2012. For January and 
February of this year, enemy-initiated attacks are down a 
further 22 percent from 2011 levels for those same months.
    In October 2008, there were only 140,000 Afghans in the 
ANSF. Today there are approximately 330,000, and we expect to 
reach our goal of 352,000 Afghans in the ANSF ahead of the 
October 2012 target date. Today almost 90 percent of coalition 
operations in Afghanistan are carried out in partnership with 
the ANSF, and the ANSF is in the lead for more than 40 percent 
of operations.
    As Chairman Levin and Senator McCain mentioned, we are 
negotiating a strategic partnership between the United States 
and Afghanistan that will frame our enduring relationship. This 
strategic partnership will demonstrate that we learned the 
lessons from 1989, when our abrupt departure left our friends 
confused and our enemies emboldened.
    In partnership with President Karzai and the Afghan 
Government, we recently completed a crucial milestone when 
General Allen co-signed a MOU on detention operations with 
Defense Minister Wardak. As you noted, we are also working with 
the Afghans on a MOU on night operations, or special 
operations, which when completed will further strengthen our 
partnership. Concluding a strategic partnership will send a 
clear signal that the United States remains committed to Afghan 
security. Such an assurance must and will continue beyond our 
planned transition in 2014. As President Obama said in his 
State of the Union address, ``We will build an enduring 
partnership with Afghanistan so that it is never again a source 
of attacks against America.''
    The need for a long-term commitment extends also to 
coalition partners. As NATO Secretary General Rasmussen said in 
December, ``Our commitment does not end with transition. We 
will finish the job to help create a secure Afghanistan for our 
shared security.''
    Achieving a durable peace in Afghanistan over time will 
require some form of reconciliation among Afghans. It is by no 
means certain that this reconciliation efforts will bear fruit 
in the near term, but it is very much in our interest to try. 
As Secretary Clinton has said, any negotiated outcome with the 
insurgents must meet our unambiguous red lines for 
reconciliation. Insurgents must renounce violence, they must 
break all ties with al Qaeda, and they must abide by the 
constitution of Afghanistan.
    Success in Afghanistan depends on the support of 
Afghanistan's neighbors, particularly Pakistan. Like 
Afghanistan's other neighbors, Pakistan has legitimate 
interests that must be understood and addressed. Pakistan also 
has responsibilities. Most importantly, it needs to take steps 
to ensure that militant and extremist groups cannot continue to 
find safe haven in Pakistani territory. Pakistan has powerful 
incentives to do so. In 2011, some 2,000 attacks in Pakistan 
resulted in about 2,400 deaths, mostly from improvised 
explosive devices (IEDs).
    Mr. Chairman and members of the committee, thank you again 
for the opportunity to testify here today. We embarked on this 
fight more than a decade ago to ensure that the terrorist 
network that struck in New York, in Washington, DC, and in the 
skies over Pennsylvania would never again be able to use 
Afghanistan as their sanctuary. Thanks to the great courage and 
skill of the U.S. Armed Forces and civilian personnel, our 
coalition partners, and our Afghan partners, our strategy is 
working.
    While success in war is never guaranteed, we are on a path 
to meet our objectives, to deny safe haven to al Qaeda, and 
deny the Taliban the ability to overthrow the Afghan 
Government.
    I would like to conclude by thanking the committee for your 
continued support of our effort in Afghanistan and your strong 
support for the great men and women of the U.S. Armed Forces. 
Thank you and I look forward to your questions.
    [The prepared statement of Dr. Miller follows:]

               Prepared Statement by Dr. James N. Miller

    Chairman Levin, Ranking Member McCain, and members of the 
committee, thank you for inviting me to testify today on a matter of 
vital importance to the United States: the present status and future 
course of our military engagement in Afghanistan.
    I welcome the opportunity to discuss both the progress we are 
making and the challenges that we face. I am especially pleased to be 
here with the outstanding Commander of the International Security 
Assistance Force, and of U.S. Forces in Afghanistan, General John 
Allen.
    The United States' objectives in Afghanistan remains to deny safe 
havens to al Qaeda, and to deny the Taliban the ability to overthrow 
the Afghan Government.
    This administration is firmly committed to meeting these core 
objectives in Afghanistan. In the past several years--due to the 
dedication and sacrifice of our forces, our coalition partners, and the 
Afghan people--we have made enormous strides.

        <bullet> Our counterterrorism efforts against al Qaeda have 
        been extremely successful. Although the job is not finished, we 
        have severely degraded al Qaeda's capacity.
        <bullet> As a result of the surge launched in 2009, we have 
        broken and reversed Taliban momentum.
        <bullet> The ANSF are increasingly capable, and increasingly in 
        the lead. We have begun the transition to Afghan security 
        responsibility, which is to be completed by December 2014.

    The Afghanistan war has been a tough fight. The last several weeks 
have been particularly tough. We have seen some in the United States, 
and indeed some in Afghanistan, question whether we are on the right 
path. We will have to work through the difficulties, and talk through 
the issues, as President Obama and Secretary Panetta did last week with 
President Karzai.
    Members of the committee, our forces are performing extremely well, 
as I've seen firsthand during a week-long trip to Afghanistan that 
finished less than 2 weeks ago. U.S., coalition, and Afghan forces are 
working shohna ba shohna, or ``shoulder-to-shoulder,'' reversing the 
Taliban's momentum and building the capacity of the ANSF.
    As a result of these shared efforts, we are well into a process of 
transition to ANSF leadership, as agreed at the 2010 NATO Lisbon 
Summit. In fact, today, approximately 50 percent of Afghans live in 
areas that have begun the transition process.
    As an interim milestone, at some point in 2013, the ANSF will be in 
the lead for providing security across Afghanistan. U.S. and coalition 
forces will be in a support role. This support will take a number of 
forms, including U.S. and coalition units partnering with Afghan units, 
and the smaller footprint associated with a ``train, advise, and 
assist'' role.
    By the end of 2014, the transition of security leadership will be 
complete, and Afghans will be fully responsible for the security of 
Afghanistan. U.S. and coalition forces will have moved to a much 
smaller presence focused on counterterrorism, and on training, 
advising, and assisting Afghan forces. Of course, remaining U.S. forces 
will be fully combat-capable.
    Despite continued progress on transition and in the overall 
campaign, some recent incidents have tested the relationships that we 
have worked so hard to build over the past decade with the Government 
and people of Afghanistan.
    The inappropriate handling of Qurans at Bagram Airbase was an error 
that--while unintentional--sent precisely the wrong signal. This 
unfortunate act stands in stark contrast to the many years during which 
U.S. forces have demonstrated deep respect for the religious practices 
of the Afghan people.
    Even more recently, our Nations have had to respond to the horrific 
killings of 16 Afghan civilians, including 9 children, in Panjwai 
District, Kandahar. The Department of Defense is conducting a full 
investigation of this senseless act of violence. A suspect is now in 
custody at the Joint Regional Confinement Facility-Midwest at Fort 
Leavenworth, KS. Justice will be done, and any responsible will be held 
appropriately accountable.
    We have also been challenged by attacks by Afghan personnel against 
their U.S. and coalition partners, so-called ``Green on Blue'' attacks. 
These include the shooting of two American officers at the Interior 
Ministry in Kabul on February 25, allegedly by an Afghan police 
officer. With the help of U.S. and coalition forces, the Afghans are 
working to improve security and counter-intelligence in order to 
prevent such attacks. General Allen has also directed a number of steps 
to improve force protection.
    Working shoulder-to-shoulder with our Afghan partners is essential 
to our mission success. What's more, our experience to date also 
suggests that sustaining close relationships with the ANSF may reduce 
the likelihood of these horrible and unacceptable ``Green on Blue'' 
attacks.
    It is critical that the tragic occurrences of the last few weeks 
not blind us to the very significant progress and real momentum we have 
seen in Afghanistan. From 2010 to 2011, enemy-initiated attacks were 
down 9 percent across Afghanistan. This trend has continued in 2012. 
For January and February of this year, enemy-initiated attacks are down 
22 percent from the comparable period in 2011.
    Our surge forces, in Regional Command South and Regional Command 
Southwest, have made tremendous progress. Previous battlegrounds, such 
as Sangin and Marjah, are now policed by Afghans. By the end of this 
September, the final U.S. ``surge'' forces will return home, and U.S. 
forces will be reduced from a peak of 101,000, to 68,000.
    While the surge of U.S. forces has played a major role in improving 
the security situation, improvements to the quantity and quality of the 
Afghan National Security Forces have been critically important.
    Building an effective ASNF is crucial to success in Afghanistan, 
and we are making good progress. To get a sense of how far we have come 
in the last several years, in October 2008, there were only 140,000 
Afghans in the ANSF. Today, there are approximately 330,000--nearly 
two-and-a-half times as many. We are nearing our October 2012 goal of 
352,000 Afghan soldiers and national police in uniform--and we expect 
to reach that goal well before October.
    The quality of the ANSF is vitally important. While there is much 
more work ahead, we are seeing some good signs. For example, Afghan 
National Army attrition rates have improved from over 3 percent per 
month to less than 2 percent, although they are still short of the goal 
of no more than 1.4 percent per month. The Afghan National Police has 
done better than its target attrition rate of no more than 1.4 percent 
for the last several months.
    We are seeing the results of this improvement where it counts 
most--on the ground. Afghan forces continue to take charge and lead 
operations to secure their country. Almost 90 percent of coalition 
operations in Afghanistan are now carried out in partnership with the 
ANSF. The ANSF is the lead for more than 40 percent of operations. 
These figures will continue to grow.
    Afghan troops gave their lives protecting Americans on numerous 
occasions during the recent protests. The performance of the Afghan 
forces under this enormous stress is a clear indicator of how far the 
ANSF have come.
    As we transition to Afghan lead on security, we are also working to 
conclude a Strategic Partnership that will provide a long-term 
framework for the enduring relationship we hope to achieve beyond the 
completion of transition at the end of 2014. Concluding a U.S.-
Afghanistan Strategic Partnership will send a clear signal to the 
Afghan people, to the Taliban, and to the region that the United States 
remains committed to Afghan security and to regional peace and 
stability. As President Obama said here at the Capitol in his State of 
the Union address in January, ``[W]e will build an enduring partnership 
with Afghanistan, so that it is never again a source of attacks against 
America.''
    This Strategic Partnership will reinforce the sovereignty of 
Afghanistan and address our shared national security concerns. 
Completing and implementing this Strategic Partnership will avoid the 
mistake of 1989, when our abrupt departure left our friends confused 
and our enemies emboldened.
    In partnership with President Karzai and the Afghan Government, we 
recently completed a crucial milestone in our transition to Afghan 
lead, when General Allen co-signed a memorandum of understanding on 
detention operations with Afghan Defense Minister Wardak. Under this 
memorandum of understanding, both countries will work to transfer 
detention facilities in Afghanistan to Afghan control over the next 6 
months, under guidelines designed to ensure an orderly and secure 
handoff of responsibility.
    We are also working with the Afghans on a memorandum of 
understanding on ``special operations,'' which when completed will 
further reinforce Afghan sovereignty and strengthen the partnership 
between our two nations.
    The importance of a long-term commitment extends to coalition 
partners. At the NATO Summit in Lisbon in 2010, the United States, our 
allies and partners, and Afghanistan agreed to support an Afghan-led 
transition process. At the upcoming NATO summit in Chicago, we will 
discuss the next phase of transition, including shifting from primarily 
a combat to a support role in 2013, in advance of Afghans taking full 
responsibility for their own security in 2014.
    As a part of NATO Summit transition discussions in Chicago, leaders 
will also discuss how we can support sustainable and sufficient Afghan 
National Security Forces for Afghanistan's future, and how we can 
further strengthen the NATO-Afghanistan partnership beyond 2014. As 
NATO Secretary General Rasmussen put it in December 2011, ``[O]ur 
commitment does not end with transition . . . We will finish the job to 
help create a secure Afghanistan--for our shared security.''
    Achieving long-term stability in Afghanistan will require some form 
of reconciliation among Afghans. This is why the administration--with 
eyes wide open--supports responsible efforts toward a political 
settlement to the Afghan conflict. I would like to thank Ambassador 
Grossman for all of his hard work to help open the door, so that 
Afghans can talk to Afghans about the future of their country. As 
Secretary Clinton has said, the necessary outcomes of any negotiation 
are that insurgents must: (1) renounce violence; (2) break all ties 
with al Qaeda; and (3) abide by the constitution of Afghanistan, 
especially the guarantees for the rights of women and minorities.
    Achievable, sustainable success in Afghanistan will depend on the 
participation and support of Afghanistan's neighbors, especially 
Pakistan. Like Afghanistan's other neighbors, Pakistan has legitimate 
interests that should be understood and addressed. But Pakistan also 
has responsibilities, including respecting Afghan sovereignty and 
working with the Afghan Government to foster regional stability. Most 
importantly, Pakistan needs to take decisive steps to ensure that 
militant and extremist groups cannot continue to find safe haven in, or 
conduct attacks from, Pakistan's territory.
    Members of the committee, thank you for the opportunity to testify 
here today with General Allen. This has been a long and difficult war. 
We embarked on this fight a decade ago to ensure that the terrorist 
networks that struck in New York; in Washington, DC; and in the skies 
over Pennsylvania on September 11, 2001 would never again be able to 
use Afghanistan as their sanctuary and training ground.
    Thanks to the great courage and skill of the U.S. Armed Forces and 
civilian personnel, our coalition partners, and our Afghan partners, 
our strategy is working. While success in war is never guaranteed, we 
are on a path to meet our objectives to deny safe haven to al Qaeda, 
and to deny the Taliban the ability to overthrow the Afghan Government.
    We are moving intelligently and purposefully toward the day, in the 
near future, when Afghans once again are in full control of their own 
security, and able to define their own national destiny as a peaceful, 
stable member of the community of nations.
    I would like to conclude by thanking the committee for your strong 
continued support of our effort in Afghanistan, and of the great men 
and women of the U.S. Armed Forces.
    Thank you, and I look forward to your questions.

    Chairman Levin. Thank you so much, Dr. Miller.
    General Allen.

STATEMENT OF GEN. JOHN R. ALLEN, USMC, COMMANDER, INTERNATIONAL 
     SECURITY ASSISTANCE FORCE, AND COMMANDER, U.S. FORCES 
                          AFGHANISTAN

    General Allen. Chairman Levin, Senator McCain, 
distinguished members of the committee: Thank you for this 
opportunity to appear before you today to discuss our 
operations in Afghanistan. It is a pleasure to be here with my 
friend, Dr. Jim Miller, who is the Acting Under Secretary of 
Defense for Policy. It has been a pleasure for me to get to 
know him over the last several weeks as he has been a very 
important ally of mine in helping to explain some of the policy 
issues with which we deal on a daily basis.
    Let me begin by expressing my sincere gratitude to all of 
you for the support you provide to our men and women in uniform 
every day. That they are well-equipped, well-trained, and well-
led is a great testament to the efforts of this committee and 
to the work of this Congress. So on behalf of those troops, on 
behalf of their families, thank you for all that you have done 
for them.
    In the past 8 months, I have walked the ground of 
Afghanistan with many of those troops. Along with my friend and 
partner, Ambassador Ryan Crocker, and my NATO compatriot Senior 
Civilian Representative Ambassador Sir Simon Guess, I have met 
with the leaders of most of the 49 other nations serving 
alongside us in ISAF. All through this I have been in close 
consultation with Afghan civilian and military leadership, most 
of whom have been enmeshed in this country's conflicts from the 
Soviet era, to the civil war, to the darkness of the Taliban, 
through the 10-years-plus of this conflict, enmeshed in this 
conflict for well over 30 years, and I've gotten to know them 
all quite well.
    From those experiences, I can tell you unequivocally three 
things. First, we remain on track to ensure that Afghanistan 
will no longer be a safe haven for al Qaeda and will no longer 
be terrorized by the Taliban.
    Second, as a coalition, the largest in recent history, we 
are well along in our progress to meet our 2010 Lisbon summit 
commitments to transition security lead to the ANSF by December 
2014.
    Third, our troops know the difference that they're making 
every day and the enemy feels that difference every day.
    Now, to be sure, the last couple months have been trying. 
In the wake of the revelations that American troops had 
mishandled religious texts, to include the Koran, protests, 
some of them violent, occurred in several, but only a few, of 
the regions across Afghanistan. 32 Afghans lost their lives in 
these riots and even more were hurt. Just since the 1st of 
January, the coalition has lost 61 brave troops in action from 
6 different nations, and 13 of them were killed at the hands of 
what appears to have been Afghan security forces, some of whom 
were motivated, we believe, in part by the mishandling of 
religious materials. Just as tragic, we're now investigating 
what appears to be the murder of 16 innocent Afghan civilians 
at the hands of a U.S. servicemember.
    Each of these events is heart-wrenching and my thoughts and 
my prayers go out to all those affected by this violence, 
coalition and Afghan alike. But I assure you the relationship 
between the coalition and the Afghan security forces remains 
strong.
    Just 2 weeks ago, I was in Helmand Province visiting with 
marines and with local Afghan commanders in the wake of the 
Koran-burning incident, when the violence was at its peak. A 
young marine near Marjah said he and his unit were told about 
the demonstrations by their Afghan counterparts. The Afghan 
troops told them: ``Let us patrol outside the wire for a couple 
of days; we have this for you.'' Understanding the gravity of 
the risk the Afghans had assumed for them, the marine 
continued: Our Afghan brothers were trying to protect us.
    This one statement spoken by a young marine conveyed the 
power of this brotherhood in arms forged in battle over the 
years. It speaks to the trust we have built with the Afghans 
and to the shock absorbency of this relationship.
    Yet we know there is much hard and deadly work yet to be 
done. But the progress is real and, importantly, it's 
sustainable. We have severely degraded the insurgency. As one 
Afghan commander told me in the south in the latter part of 
2011, ``This time around the Taliban was the away team.''
    On top of that success and as a result of our recent winter 
operations, we have seriously degraded the Taliban's ability to 
mount a major spring offensive of their own. This spring 
they'll come back to find many of their caches empty, their 
former strongholds untenable, and many of their foot soldiers 
absent or unwilling to join the fight.
    Indeed, in Kandahar back in December, 50 former Talibs 
decided to formally reintegrate back into Afghan society. When 
asked why they laid down their arms, they complained of the 
unrelenting pressure they were under. They said they found 
themselves up against capable Afghan forces in greater numbers 
and with greater frequency, and while they were willing to 
fight foreigners, they were unwilling to fight their Afghan 
brothers, especially Afghans who fought back with courage and 
skill because of the training that we had provided them.
    The training we provide them is critical to our mission. 
Throughout history, insurgencies have seldom been defeated by 
foreign forces. Instead, they have been ultimately beaten by 
indigenous forces. So in the long run our goals can only be 
achieved and then secured by Afghan forces. Transition, then, 
is the linchpin of our strategy, not merely the way out.
    During the last 12 months, the ANSF have expanded from 
276,000 to more than 330,000, and they will reach their full 
surge strength ahead of the scheduled deadline in October. The 
expansion and the professionalization of the ANSF allows us to 
recover the remaining 23,000 U.S. surge troops by this fall, 
enables us to continue to pressure the Taliban to reconcile, 
and makes possible security transition to Afghans in accordance 
with our Lisbon summit commitments and on time.
    Security conditions remain very good in areas that have 
transitioned thus far, from Kabul in the east to Herat in the 
west, from Mazar-e Sharif in the north to Lashkar Gah in the 
south. Later this year, ANSF are expected to assume the 
security lead for two-thirds or possibly more of the Afghan 
population.
    As the potential unifying influence in Afghanistan, the 
Afghan forces are better than we thought they were to be. 
Importantly, they're better than they thought they could be. As 
they move to the fore, they're gaining more and more confidence 
and they're gaining more and more capability. In the past 5 
months, 89 percent of the total conventional operations were 
partnered with both conventional and Afghan forces, and 42 
percent of those operations had Afghans in the lead.
    Over the next 2 years, coalition forces will remain combat 
ready, but increasingly focused on security force assistance 
and supporting Afghan combat operations. Afghan leadership then 
is simply key. I could tell you the Afghans want to lead and 
they want the responsibility that comes with it. In fact, for 
the first time our joint coalition--Afghan operational campaign 
plan from January 2012 to June 2013 was conceived and developed 
and planned with Afghans in the lead. They are truly emerging 
as the real defeat mechanism of this insurgency, and 
increasingly as an emblem of national unity. This is essential 
to the long-term security of Afghanistan.
    But none of us harbor illusions. We know that we face long-
term challenges as well. We know that al Qaeda and other 
extremist networks, the same networks that kill Afghan and 
coalition troops every day, still operate with impunity across 
the border in Pakistan. We know that the Taliban remains a 
resilient and determined enemy and that many of them will try 
to regain their lost ground this spring through assassination, 
intimidation, high profile attacks, and the emplacement of 
IEDs. We know that Iran continues to support the insurgency and 
fuels the flames of violence. We know that corruption still 
robs Afghan citizens of their faith in their government and 
that poor governance itself often advances insurgent messages.
    This campaign has been long. It has been difficult and it 
has been costly. There have been setbacks, to be sure, and 
we're experiencing them now, and there will be more setbacks 
ahead. I wish I could tell you that this war was simple, that 
progress could be easily measured. But that's not the way of 
counterinsurgencies. They are fraught with successes and 
setbacks, which can exist in the same space and the same time. 
But each must be seen in the larger context of the overall 
campaign, and I believe that that campaign is on track. We are 
making a difference. I know this and our troops know this.
    I'd like to take just another moment of your time today, 
Mr. Chairman, distinguished members, to end where I began this 
morning, with our troops and the thousands and thousands of 
American and coalition partners that are bearing the weight of 
this conflict, and to remember that there will be a number that 
will never return to their families. I ask you to please know 
this, that they are central to my every decision and to every 
word that I speak before this committee.
    One of them, a young marine who was laid to rest last 
Tuesday at Arlington Cemetery, was a hero. He knew what he 
stood for and he knew his mission. He knew the risks and he 
knew he might have to give his life for this cause for which we 
fight. So Sergeant William Stacey prepared a letter for his 
family, to be read in the event of his death, and in it he 
said:

          ``There will be a child who will live because men 
        left the security they enjoyed in their home country to 
        come to his. And this child will learn in new schools 
        that have been built, and he will walk his streets not 
        worried about whether or not his leaders' henchmen will 
        come and kidnap him. And he will grow into a fine man, 
        who will pursue every opportunity his heart could 
        desire. And he will have the gift of freedom, which I 
        have enjoyed for so long. And if my life buys the 
        safety of a child who will one day change the world, 
        then I know that it was all worth it.''

    Mr. Chairman, I can only add that I am confident that 
Americans are safer today because of the sacrifices of the 
magnificent men and women in uniform, our servicemembers, 
represented in this letter by Sergeant Stacey. I am confident 
that we will prevail in this endeavor.
    I want to thank you again for this opportunity to appear 
before you today, for the extraordinary support of this 
committee, support that you provide every day to the young men 
and women of our Armed Forces, whom I am so privileged and 
honored to lead. I look forward to answering your questions.
    Thank you, Mr. Chairman.
    [The prepared statement of General Allen follows:]

             Prepared Statement by Gen. John R. Allen, USMC

    Chairman Levin, Senator McCain, distinguished members of the 
committee, thank you for the opportunity to appear before you today to 
discuss our operations in Afghanistan.
    Let me begin by expressing my gratitude to all of you for the 
support you provide our men and women in uniform. That they are well-
equipped, well-trained, and well-led is a great testament to the 
efforts of this committee and to the work of this Congress. On behalf 
of those troops and their families, I thank you for that.
    In the past 8 months, I have walked the ground of Afghanistan with 
many of those troops. Along with my friend and partner, Ambassador Ryan 
Crocker, and my NATO compatriot, Senior Civilian Representative 
Ambassador Sir Simon Gass, I have met with leaders of most of the 49 
other nations serving alongside us. All through this, I have been in 
close consultation with Afghan civilian and military leadership, most 
of whom have been enmeshed in their country's conflict for over 3 
decades.
    From all of this, I can tell you, unequivocally, three things: 
First, we remain on track to ensure that Afghanistan will no longer be 
a safe haven for al Qaeda and will no longer be terrorized by the 
Taliban. Second, as a coalition--the largest in recent history--we are 
well along in our progress to meet our 2010 Lisbon commitments, to 
Transition security lead to the Afghan National Security Forces by 
December 2014. Third, our troops know the difference they are making 
and the enemy feels it every day.
    To be sure, the last couple months have been trying. In the wake of 
the revelations that American troops had mishandled religious texts, to 
include the Quran, protests--some of them violent--occurred in several, 
but only a few, regions across Afghanistan. Thirty-two Afghans lost 
their lives in those riots; even more were hurt. Just since the first 
ofJanuary, the coalition has lost 60 brave troops in action, from 6 
different nations. Thirteen of them were killed at the hands of what 
appear to have been Afghan security forces, some of whom who were 
motivated, we believe, in part by the mishandling of religious 
materials. Just as tragic, we are now investigating what appears to be 
the murder of 16 innocent Afghan civilians at the hands of a U.S. 
servicemember. Each of these events is heart wrenching, and my thoughts 
and prayers go out to all those affected by the violence--coalition and 
Afghan alike.
    But I assure you, the relationship between the coalition and the 
Afghan security forces remains strong. Just 2 weeks ago, I was down in 
Helmand Province, visiting with marines and with local Afghan 
commanders--in the wake of the Quran burning incident when violence was 
at its peak. A young marine near Marjeh said he and his unit were told 
about the demonstrations by their Afghan counterparts. The Afghan 
troops told them, ``Let us patrol outside the wire for a couple days. 
We have this for you.'' Understanding the gravity of the risk the 
Afghans had assumed for them, the marine continued, ``Our Afghan 
brothers were trying to protect us.'' This one statement, spoken by a 
young marine, conveys the power of this brotherhood-in-arms forged in 
battle. It speaks to the trust we have built with the Afghans and to 
the shock absorbency in this relationship.
    We know there is much hard and deadly work to do. But the progress 
is real, and, importantly, it's sustainable. We have severely degraded 
the insurgency. As one Afghan commander told me in the South in the 
latter part of 2011, ``This time around, the Taliban was the away 
team.'' On top of that success, as a result of our recent winter 
operations, we have seriously degraded the Taliban's ability to mount a 
major spring offensive of their own. This spring, they will come back 
to find many of their caches empty, their former strongholds untenable, 
and a good many of their foot soldiers absent or unwilling to join the 
fight.
    In Kandahar, back in December, 50 former Talibs decided to formally 
reintegrate back into Afghan society. When asked why they lay down 
their arms, they complained of the unrelenting pressure they were 
under. They said they found themselves up against capable Afghan forces 
in greater numbers and with greater frequency. While they were willing 
to fight foreigners, they were unwilling to fight their Afghan 
brothers--especially Afghans who fought back with courage and skill, 
because of the training we had provided to them. The training we 
provide to them is a critical part of our mission.
    Throughout history, insurgencies have seldom been defeated by 
foreign forces. Instead, they have been ultimately beaten by indigenous 
forces. In the long run, our goals can only be achieved and then 
secured by Afghan forces. Transition, then, is the linchpin of our 
strategy, not merely the ``way out.''
    During the last 12 months, the Afghan security forces have expanded 
from 276,000 to 330,000. They will reach their full surge strength 
ahead of the scheduled deadline in October. The expansion and 
professionalization of Afghan security forces allow us to recover the 
remaining 23,000 U.S. surge troops by this fall, enable us to continue 
to pressure the Taliban to reconcile, and make possible security 
Transition to the Afghans in accordance with our Lisbon commitments and 
on time.
    Security conditions remain very good in areas that have 
transitioned thus far from Kabul in the east to Herat in the west; from 
Mazar-e Sharif in the north to Lashkar Gah in the south; and later this 
year, Afghan security forces are expected to assume the security lead 
for two-thirds, or possibly more, of the Afghan people. As the 
potential unifying influence in Afghanistan, the Afghan forces are 
better than we thought, and they're better than they thought they would 
be. As they move to the fore, they are gaining more and more 
confidence, and they are gaining more and more capability. In the past 
5 months, 89 percent of the total conventional operations were 
partnered with both coalition and Afghan forces, and 42 percent were 
Afghan-led. Over the next 2 years, coalition forces will remain combat-
ready, but increasingly focused on Security Force Assistance missions.
    Afghan leadership simply is key. I can tell you the Afghans want 
this responsibility. In fact, for the very first time, our joint 
coalition-Afghan operational campaign plan for January 2012 through 
June 2013 was conceived, developed, and planned with Afghans in the 
lead. They are truly emerging as the real defeat mechanism of this 
insurgency and increasingly as an emblem of national unity and this is 
essential for the long-term security of Afghanistan.
    None of us harbor illusions. We know that we face long-term 
challenges as well. We know that al Qaeda and other extremist 
networks--the very same networks that kill Afghan and coalition troops 
every day--still operate with impunity across the border in Pakistan. 
We know the Taliban remain a resilient and determined enemy, and that 
many of them will try to regain their lost ground this spring, through 
assassination, intimidation, high-profile attacks, and the emplacement 
of IEDs. We know that Iran continues to support the insurgency and 
fuels the flames of violence. We know that corruption still robs Afghan 
citizens of their faith in their government and that poor governance 
itself often advances insurgent messages.
    This campaign has been long. It has been difficult, and it has been 
costly. There have been setbacks, to be sure, we're experiencing them 
now, and there will be more setbacks ahead.
    I wish I could tell you that this war was simple, and that progress 
could be easily measured. But that's not the way of 
counterinsurgencies. They are fraught with success and setbacks, which 
can exist in the same space and time, but each must be seen in the 
larger context of the overall campaign, and I believe that the campaign 
is on track. We are making a difference. I know this, and our troops 
know this.
    I'd like to take just another moment of your time today, Mr. 
Chairman, to end where I began this morning, with our troops, the 
thousands of Americans and coalition partners that are bearing the 
weight of this conflict, and those that will never return to their 
families. Know this, they weigh on my every decision and my every word 
to this committee.
    One of them, a young marine, was laid to rest last Tuesday in 
Arlington Cemetery. He was a hero, he knew what he stood for, and he 
knew his mission. He knew the risks. He knew he might have to give his 
life for this cause for which we fight--so Sergeant William Stacey 
prepared a letter for his family--to be read in the event of his death. 
In it, he said:

           . . . there will be a child who will live because men left 
        the security they enjoyed in their home country to come to his. 
        And this child will learn in the new schools that have been 
        built. He will walk his streets not worried about whether or 
        not his leader's henchmen are going to come and kidnap him. He 
        will grow into a fine man who will pursue every opportunity his 
        heart could desire. He will have the gift of freedom, which I 
        have enjoyed for so long. If my life buys the safety of a child 
        who will one day change this world, then I know that it was all 
        worth it. . . .

    Mr. Chairman, I can only add that I am confident that Americans are 
safer because of servicemembers like Sergeant Stacey, and I am 
confident that we will prevail in this endeavor. Thank you, again, for 
this opportunity today . . . and for the extraordinary support you and 
the committee provide every day to the young men and women I am so 
privileged to lead.

    Chairman Levin. Thank you, General Allen, for your 
powerful, your clear, your moving statement. Thank you for 
reading Sergeant Stacey's letter to us. It has the kind of 
powerful effect and immediate effect that I wish every American 
could be privileged to hear.
    Let's do a 7-minute round. We have votes at 12:30 p.m. and 
we should be able to get in a first round for everybody.
    General, let me start with you. Did you support the 
President's decision to draw down the 33,000 U.S. surge force 
by the end of this summer, and do you still support that 
decision?
    General Allen. Mr. Chairman, I was on record in doing so 
before and I do still.
    Chairman Levin. Is that reduction on pace? In other words, 
are we on track to withdraw the remaining 23,000 troops of that 
33,000 surge force by the end of September?
    General Allen. Mr. Chairman, I'll make the final decision 
shortly. I'll submit my plan to the chain of command, to the 
Chairman of the Joint Chiefs of Staff and to the Secretary of 
Defense. But I believe that that plan will leave us on track 
and on pace to recover those surge forces.
    Chairman Levin. Now, you recently said, General, that you 
intend to wait until after the withdrawal of the surge forces 
in September to evaluate the situation on the ground in 
Afghanistan, and then some time before the end of 2012 you 
would make your recommendations relative to the pace of further 
reductions.
    Can I ask you whether or not that was your idea, to wait 
until after the removal of the 33,000 surge force before you 
would make that recommendation?
    General Allen. That was a result of a conversation with the 
chain of command, sir.
    Chairman Levin. Is it an idea that you think is the wise 
idea?
    General Allen. I do, Mr. Chairman. I think it's exactly the 
best way ultimately to identify the state of the insurgency, 
the state of the full ISAF force, to include the U.S. force, 
but also to evaluate the operational requirements for 2013, in 
order to make a comprehensive recommendation.
    Chairman Levin. Does that timetable mean that it would be 
some time in the last, say, 3 months of this year that you 
would make that recommendation?
    General Allen. I believe so, sir.
    Chairman Levin. President Obama and President Karzai in 
their coordinated statement last week committed themselves to 
two key dates. One is the 2014 date which was agreed to at 
Lisbon for when Afghan security forces would have full 
responsibility for security throughout Afghanistan; then the 
2013 date, when the lead for combat operations will shift to 
Afghan forces, with U.S. forces in support.
    Is the 2013 timeframe for transitioning the lead for combat 
operations, is that consistent with the Lisbon plan for 
completing the transition or for Afghans having full 
responsibility for security throughout Afghanistan?
    General Allen. Mr. Chairman, the Lisbon summit envisaged 
that there would be several tranches of the geography of 
Afghanistan that would transition over time. Ultimately, we 
determined that it would be five tranches. The first is in 
transition now. The second has just begun implementation. We're 
in the process of deliberating on the third. We anticipate that 
the fifth and final tranche of transition will be announced by 
President Karzai probably in the summer of 2013, with 
implementation to begin at some point thereafter. That 
generally is 30 to 45 days thereafter.
    Technically per the Lisbon summit, when the fifth tranche 
of transition ultimately begins implementation ANSF are in the 
lead for security across the country. That is a process which 
will continue, that leadership, assisted by the ISAF forces, 
assisted in differing ways based on the geography and the enemy 
threat, out to the end of 2014, sir. I hope that answers your 
question.
    Chairman Levin. So that 2013 being in the lead is 
consistent with the 2014 date for having full responsibility; 
is that correct?
    General Allen. It is, Mr. Chairman.
    Chairman Levin. All right.
    Now, according to a Wall Street Journal article, the United 
States has proposed reducing the size of the ANSF from the 
352,000 end strength goal for this year to 230,000 after 2014, 
partly to reduce the costs of sustaining the Afghan forces. 
Lieutenant General Dan Bolger, head of our training mission in 
Afghanistan, is cited as saying the proposal is based on what 
the international community will provide financially.
    As I said in my opening comments, I believe it's cost-
effective to sustain a larger Afghan security force when 
compared to the costs, and that is a cost in both dollars and 
lives. Now, it seems to me, General, given the fact that you 
and our military leaders agree the key to success of our 
mission in Afghanistan is the transition of responsibility for 
the security of the Afghan people to the Afghan security 
forces--and by the way, it's a position which I wholeheartedly 
believed in right from the beginning, and your statement today, 
your eloquent statement about transition being the linchpin of 
our strategy, not merely the way out, is a very succinct and 
very strong way of stating that.
    But given the fact that transition to a strong Afghan 
security force is the key to success of this mission, why does 
it make sense to talk about reducing the size of the Afghan 
army by a third? Have you participated in those deliberations, 
and have you concluded that we should see the reduction of the 
Afghan force by one third?
    General Allen. Mr. Chairman, of course the number 352,000 
is a surge force. It was always intended that it would be a 
temporary number. So the recovery of that surge force would 
occur at some point in the future.
    The study which was undertaken was to look out to the year 
2017 and look at the various potential intelligence realities 
that the ANSF could face potentially. That series of studies 
created a number of different force structures which we 
believed had varying levels of capability based on the most 
likely potential enemy scenarios.
    Of those scenarios, the one which we thought was sufficient 
in capability, which was the most important initial finding, 
was one that had the correct balance of both Afghan National 
Police (ANP), a Minister of Interior (MOI) presence, and an 
Afghan National Army (ANA) presence. That force is about 
230,000. But there are a number of different options and we're 
continuing to evaluate what those options might be, all the way 
from the current force, the 352,000 force, which will continue 
to exist for several years once we have fielded it, down to a 
force that was smaller than 230,000, which probably doesn't 
have the right capabilities, the right combination of 
capabilities.
    We thought that the 230,000 force, which is a target 
number--it is not a specific objective at this time; it is a 
target number--was the right target, given what we think will 
be the potential enemy scenario for 2017, sir.
    Chairman Levin. So there's been no decision to reduce the 
Afghan force below the 350,000?
    General Allen. I think the decision ultimately will come 
both from the U.S. side and in consultation----
    Chairman Levin. But we haven't decided that it should be 
reduced from the 350,000?
    General Allen. I don't believe we have, sir. I know that 
there are considerations--it's not a decision solely for the 
United States.
    Chairman Levin. But have we decided that it is our position 
that it should be reduced?
    General Allen. It is our position that ultimately that 
force should be reduced below 352,000, sir.
    Chairman Levin. But we haven't decided to what level?
    General Allen. Not to a specific number to my knowledge.
    Chairman Levin. I would hope that that would be carefully 
done and not be dependent upon the financial issues.
    General Allen. Sir, that's a very important point and, very 
importantly to this, we will be continuing to monitor the 
quality metrics of the ANSF as it builds to a full 352,000 and 
is fully fielded. Those quality metrics will also be 
accompanied by a consistent evaluation of the security 
environment as well.
    That security environment will be ultimately the key 
indicator of whether that drawdown should ultimately occur. So 
it'll be conditions-based. I submit those metrics every 6 
months, and starting with the next set of metrics we'll begin 
that process of evaluating what we think the scenario will be 
in the post-2014 period and evaluating the conditions 
ultimately for the drawdown.
    But for now, sir, there is an expectation that we will draw 
the 352,000 force down to a number that we think fits generally 
the security environment for the post-2014 period.
    Chairman Levin. If conditions indicate that 350,000 is the 
right number or 325,000 is the right number, that's what you're 
going to recommend?
    General Allen. Yes, sir. That's my hope. But at this 
juncture, again based on the study, based on the intelligence 
scenarios on which we ran the analysis, at this point 231,000 
to 236,000 looks about the right number in combination of army 
and police capabilities.
    Chairman Levin. Senator McCain.
    Senator McCain. I sure would be interested in seeing those 
studies that bring it down to 231,000 or 236,000, General, 
because then they would contradict every study that's been done 
in the past. So either past studies were flawed and inaccurate 
or the present study is flawed and inaccurate.
    But it all fits into the scenario that concerns many of us, 
and that is that the news is dominated by how fast we can draw 
down and how much we will draw down and when we will draw down. 
We don't hear any more commitments to victory. We don't hear 
any more commitments to success.
    It shouldn't surprise you or anybody, General, when 
President Karzai exhibits some of the behavior that he does, 
that the Taliban feel that they can wait us out, that the 
Pakistanis continue to support the Haqqani network and continue 
to hedge their bets, because all they hear about, General, is 
withdrawals and pace of withdrawal. They know what's on the 
front page of the New York Times, which says ``Debate within 
the administration about the pace of drawdown.'' Not achieving 
goals and then drawing down, but how rapidly we can draw down.
    So I'm also interested in the fact that you can't make a 
decision on force levels in 2013 until the end of 2012. Is that 
what you're telling this committee?
    General Allen. What I'm telling you, Senator, is that after 
withdrawing 23,000 troops, the drawdown, after moving through--
after conducting operations during the fighting season, in the 
aftermath of that I need to be able to evaluate whether that 
force structure at 68,000 plus about 40,000 ISAF forces will be 
the kinds of combinations of forces, plus the progress that has 
been made with the ANSF, in combination to handle what I think 
will be the operational environment of 2013.
    Senator McCain. So basically you have no opinion here at 
the end of March 2012 as to what our military presence would be 
in 2013?
    General Allen. My opinion at this particular juncture, but 
it's not my----
    Senator McCain. What is your opinion at this particular 
juncture?
    General Allen. My opinion is that we will need significant 
combat power in 2013, sir.
    Senator McCain. Like 68,000?
    General Allen. 68,000 is a good going-in number, sir. But I 
owe the President some analysis on that.
    Senator McCain. In response to the chairman's question 
about you supported the past reductions in forces that have 
been made, you supported those decisions. Didn't you also say 
that it increased the risk?
    General Allen. I did, sir.
    Senator McCain. So does it surprise you when President 
Karzai starts looking at a situation where the United States 
leaves the neighborhood? Does it surprise you when the Inter-
Services Intelligence (ISI) continues their support of the 
Taliban and killing Americans, when we are sounding an 
uncertain trumpet, General?
    General Allen. Sir, there may be an uncertain trumpet out 
there. Much of the coverage has not been helpful to this 
process. But I'm very clear that I believe we will be 
successful in this campaign.
    Senator McCain. I do too, militarily.
    The strategic partnership agreement is close to being 
concluded?
    General Allen. We have not begun the final negotiations on 
the strategic partnership agreement yet, sir. We think it is 
close.
    Senator McCain. Thank you. I'd like to especially thank the 
administration for their efforts in this, but I would also like 
to thank my two colleagues, Senator Lieberman and Senator 
Graham, in their consistent efforts to get this done. There is 
no American that knows more about the detainee issue than 
Senator Graham does, and I am very grateful for his continued 
participation in the whole detainee issue and Senator 
Lieberman's consistent and many times unpopular position on 
this issue.
    The strategic partnership agreement it seems to me is more 
important than just an agreement about detentions and about 
night raids. It means that there is a commitment on the part of 
the United States to remain present in force in Afghanistan for 
the foreseeable future. Do you view it as having that degree of 
importance?
    General Allen. It may be one of the most important outcomes 
of the recent years of this conflict.
    Senator McCain. So you and Ambassador Crocker are working 
very hard on that?
    General Allen. We are, Senator. We are working very hard.
    Senator McCain. Dr. Miller, do you share that view?
    Dr. Miller. Senator McCain, yes, I do. I think it is 
critically important to reach the strategic partnership. The 
President has stated clearly that we have an enduring 
commitment to Afghanistan and the strategic partnership will be 
a concrete substantiation of that. There will be a lot of work 
to do after that, but it's a critical milestone.
    Senator McCain. You are encouraged by recent progress?
    Dr. Miller. Yes, sir. Understanding the tumultuous last 
couple of months that we've seen, with the events we've just 
talked about, I am very encouraged by recent progress. I was 
encouraged by the progress I saw on the ground when I was there 
2 weeks ago.
    Senator McCain. General Allen, do you believe that the two 
remaining major obstacles to success in Afghanistan are 
corruption in the Karzai Government and continued sanctuary and 
support for the Taliban by Pakistan?
    General Allen. Sir, may I hear that again, please?
    Senator McCain. The two remaining major obstacles to 
success in Afghanistan, the corruption issue in the Karzai 
Government and the Pakistani sanctuary and ISI assistance to 
the Taliban?
    General Allen. I do.
    Senator McCain. Have you seen any change in that, in those 
two major obstacles?
    General Allen. Sir, I think we've done good work with the 
Afghan Government of late. There have been a number of 
initiatives in partnership with President Karzai and his 
government. He has appointed a presidential executive 
commission headed by Minister of Finance Zazhilwal to partner 
with ISAF and with the international community on the issues of 
reclaiming borders, inland customs depots, and airports. That's 
an important move.
    Senator McCain. Have you seen any change in the ISI 
relationship with the Taliban and the Haququani network?
    General Allen. I have not, sir.
    Senator McCain. General, the American people are war-weary. 
Public opinion polls show that most Americans want out of 
Afghanistan and an end to this decade-long conflict, more than 
a decade, and more than a thousand lives. If you had a chance 
to speak to the American people about what's at stake here and 
your view of this conflict, what would you say to them?
    General Allen. The first thing I would do, Senator, is to 
thank them for their incredible support to the men and women 
and to the campaign and to our Services who have come together 
in Afghanistan to accomplish the mission, which is to deny al 
Qaeda safe havens and to deny the Taliban the opportunity to 
overthrow the Government of Afghanistan. I would thank them for 
that. That's the first thing I would say.
    I would say to them that the investment in this campaign by 
the United States and its 49 coalition partners has been to 
shape that insurgency and build an ANSF capability which could 
ultimately take over the campaign, the counterinsurgency 
campaign, to become the defeat mechanism of the enemy. That's 
happening. That transition is occurring.
    I would point to that as an example of the success, as an 
example of the successful outcome of the investment that has 
been made by this country and the other countries of the 
coalition, ultimately to deny the Taliban the opportunity to 
ever overthrow this government again and to permit Afghanistan 
to sink once again into the darkness of the Taliban, which 
could permit it ultimately to welcome al Qaeda back into 
Afghanistan. They have made no effort to separate themselves 
from al Qaeda. If that were to happen, Afghanistan could once 
again become a launching pad for international terrorism.
    I think the progress that has been made at the societal 
level, the progress that has been made within the ANSF to push 
back the momentum of the Taliban and to deny al Qaeda safe 
havens has been remarkable, and it has come from the sacrifices 
of the population of this country and the other 49 states that 
are part of ISAF. I would thank them for that sacrifice, sir.
    Senator McCain. I thank you, General, and I hope that the 
American people could hear those words exactly as you 
articulated them.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Reed is next.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, Dr. Miller, for your thoughtful testimony. 
General Allen, thank you for your extraordinary service, you 
and your family. Thank you also for one of the most compelling 
statements that I've ever heard here, which reflects sincerely 
your profound appreciation of, and dedication to, the men and 
women you lead. Thank you very much.
    General Allen. Thank you, sir.
    Senator Reed. I'm going to oversimplify, I think, what your 
operational challenges are, but they seem to be two in my mind. 
First, is to be able to embed NATO advisors with Afghani forces 
as they take the lead; and second, to be able to operate 24/7, 
in fact, to be able to particularly operate in the evening, at 
night, when we have tactical and technical advantages. Both of 
those issues have been shaken by incidents and by some of the 
discussions of the last few weeks.
    First, with respect to the night raids, there has been some 
discussion of authorizing raids through Afghani judicial 
procedures and warrants, which to me would seriously impede 
your ability, NATO's ability and the Afghan military forces' 
ability, to operate. Is that something that's being seriously 
considered, and would it effectively undermine our ability to 
operate?
    General Allen. Senator, it's my intention, with respect to 
the outcome of those negotiations for that MOU on night 
operations, that we not impede the contributions that those 
night operations make every single day in the battle space.
    Just as we are accomplishing transition in other areas, it 
is appropriate as time goes on and as Afghans take over greater 
lead in security operations, that we would acknowledge the 
Afghan constitution in that process as well. As you recall, in 
Iraq we ultimately went to a warrant-based system. That system 
was successful, but it was successful because we were able to 
streamline the judicial process in ways that supported the 
operations rather than impeded the operations.
    Sir, we're just beginning the negotiations in this regard 
and, as you might imagine, they're pretty sensitive at this 
point. But I assure you that we will get this right, we won't 
get it fast, and the outcome will be night operations that 
continue to contribute to this campaign, with Afghans deeply in 
the process, which is appropriate ultimately to the march 
towards sovereignty that we have undertaken, sir.
    Senator Reed. Let me just, for a bit of context: Is it 
accurate to say that the Haqqani network, the Taliban, operate 
frequently at night, conduct attacks against NATO operations at 
night, in fact, would not be inhibited by the potential 
imposition? Does that happen today?
    General Allen. The Haqqanis are operating 24 hours a day. 
Night operations are particularly valuable in neutralizing 
their networks and the other networks that we encounter--al 
Qaeda, the HIG, the Commander Zero Group, Taliban.
    Senator Reed. Let me turn to the other issue, embedding 
American forces, NATO forces rather, more precisely, NATO 
forces. Particularly after the Panjwai incident, has that given 
you cause to rethink how you do this? Not only in terms of the 
safety of NATO personnel, but the receptiveness of the Afghan 
security forces and local populations to small groups of NATO 
personnel operating with battalions and companies of the ANA?
    General Allen. It clearly is a potential challenge, 
Senator. You are correct in how you phrase that question. I'm 
going to watch this very closely. We've taken a lot of 
measures, obviously, to reduce what are known as green-on-blue 
attacks. I can go into greater detail about that should you 
desire. But it is something over which I'm significantly 
concerned. We're going to watch it very closely.
    I take heart in the success of the Afghan local police 
(ALP) as potentially a model and an indicator of how this will 
unfold, because across Afghanistan there are multiple tens of 
ALP garrisons in which our special operators are embedded 
across the country. In all of those--and there are well over 
12,000 local police--there has yet to be an attack on any one 
of our Green Berets, SEALs, or Marines.
    So if it is done right--and I believe we will do this 
correctly, obviously--I think that we can continue the process 
of embedding our security force assistance platforms and our 
advisors into these formations, undertaking the measures for 
protection that we now have underway, sir.
    Senator Reed. Thank you.
    Dr. Miller, Senator McCain in asking General Allen about 
some of the major challenges ahead, including corruption and 
other factors which might be generally put under the category 
of governance, raises a fundamental issue, which is we could 
have tactical success on the ground, but if the governance has 
failed then most experts, most commentators, suggest that in 
the end we will not be successful.
    One of the tensions in Afghanistan historically and in the 
last 10 years has been between a central government and 
decentralized traditions, et cetera. Are you exploring ways in 
which, without profound constitutional changes, that the 
government could be more effectively decentralized, i.e., that 
the Afghans can decide to more effectively decentralize? 
Because again from my perspective that might be one way to 
facilitate more effective governance or at least to accept the 
reality on the ground of what's happening.
    Any comments?
    Dr. Miller. Senator Reed, let me answer in two parts. The 
first is to say that the central government, the Kabul 
Government, is going to remain critical to the success of 
Afghanistan over time, and that the work that is underway and 
needs to continue to deal with minimizing corruption and 
providing stronger institutions will be vital. Sir, as you 
indicated and as Senator McCain indicated, there is much work 
to do, and we will continue to work on institution-building. 
That's true from DOD and also increasingly true from other 
agencies as we look to strengthen them over time.
    Sir, at the same time, the second point would be that what 
I observed when I was there 2 weeks ago was the importance of 
district-level and sometimes village-level leadership, the 
elders of the village, the role of the mosque, and the 
important role for districts and provinces of the governors and 
chiefs of police. So I think that what we're looking at for 
success is a model that includes a strong government in Kabul, 
where corruption is brought down over time, and it has 
resources that are able to provide not just for its own 
protection, but provide in part an avenue of resources back 
down to the local levels, and at the same time continue to 
build that from the grassroots, if you will, at the village and 
district level, build strong governance.
    Sir, I think it's not an either/or. I think it's a both.
    Senator Reed. Thank you very much.
    Thank you, gentlemen. My time has expired.
    Senator Lieberman [presiding]. Thanks, Senator Reed.
    Next is Senator Chambliss.
    Senator Chambliss. Thank you, Senator Lieberman.
    Gentlemen, first of all thanks for your service. General 
Allen, particularly, you picked up right where General Petraeus 
left off, and we thank you for that, the kind of leadership 
that you provided over there. Please express to those troops 
that serve under you how much we appreciate their service.
    General Allen. I will do that, sir. Thank you.
    Senator Chambliss. Just following up on what Senator Reed 
was talking about with respect to night raids, having been in 
Afghanistan a number of times, having visited with some of 
those troops, particularly Afghan troops, who are carrying out 
those night raids in a very professional way and in a way which 
has minimized even the risk of civilian casualties, it's a 
pretty important part of our process as we move towards 
ultimately achieving the victory there.
    I'm really concerned about this potential shift to a 
warrant-based approach. General Allen, my question to you is, 
will that shift increase the possibility of civilian casualties 
and our ability to fix and finish the target?
    General Allen. An important question, sir. I believe, 
Senator, that if we do this right it will not impede either the 
operations nor will it increase civilian casualties. As I 
presume you understand, we are at about 2,400 operations, 
special operations a year. This last year we had about 2,200 
night operations. Of those 2,200 or so night operations, in 90 
percent of them we didn't fire a shot. On more than 50 percent 
of them, we got the targeted individual, and in 30 percent more 
we got the next associate of that individual as well. So 83 
percent roughly of the night operations, we got either the 
primary target or an associate.
    In all of those night operations, even with the 10 percent 
where we fired a shot, there was less than 1.5 percent civilian 
casualties. Now, I don't diminish any civilian casualties by 
reducing it to a percentage point. Every one of those is 
tragic. But after 9,200 night operations, 27 people were killed 
or wounded in night operations. That would argue for the power 
of night operations preserving life and reducing civilian 
casualties in all other kinds of operations than necessarily 
being a risk of creating additional civilian casualties. That's 
in my mind, sir, as we go through the process of negotiating an 
outcome for the ``Afghanization,'' if you will, of night 
operations.
    Senator Chambliss. Those are very impressive statistics 
and, unfortunately, they're not reported in the Afghan press. 
They seem to only highlight the negative aspects, which, as you 
just stated, are very, very few.
    With regard to Afghan-Taliban reconciliation, the 
administration has made a conscious decision to overtly seek 
reconciliation with the Taliban, and part of that action on the 
part of the administration has been to offer up five Guantanamo 
Bay detainees who are Taliban, who have been identified by the 
Taliban themselves as the five that they would like to have 
released as a show of good faith, according to the 
administration, that the United States is serious about 
negotiations regarding reconciliation.
    Personally, I am offended by any negotiations with 
terrorists who are killing our men and women. But besides that, 
I am really offended that there would be some conversation 
about releasing five of the meanest, nastiest killers in the 
world to the Taliban as a show of good faith, particularly to 
have them housed in a country where our experience has not been 
very good in their retaining the individuals that have been 
previously released to them.
    I understand that the negotiations now, Dr. Miller, have 
moved to DOD from the Department of State (DOS). I think that's 
a wise decision. I understand also from comments made by 
Secretary Panetta yesterday that these transfers are now on 
hold because, as some of us suspected, now the administration 
does not have confidence that the Qatar Government is going to 
be capable of living up to the requirements and conditions that 
we put on them for these five individuals.
    My question to both of you is, do you think that the 
release of these five individuals to the Taliban, even under 
the conditions that are being discussed, is a wise move when 
you consider the rate of recidivism, that we know now to be 
about 27 percent, and when we particularly know that these are 
five leaders of the Taliban who have previously been declared 
to be too dangerous to be released and are likely to reenter 
the fight?
    Dr. Miller, I'd like your comments, please.
    Dr. Miller. Senator Chambliss, DOD and Secretary Panetta 
support the process of reconciliation or efforts to support an 
Afghan-led reconciliation. We are doing that with eyes wide 
open and understanding, understanding the nature of the 
individuals that are involved, working closely with DOS and 
others to see how we can assist the Afghans.
    Let me say explicitly, sir, that no decisions have been 
made on the possible transfer of detainees. The law requires 
the Secretary of Defense, with the concurrence of the Secretary 
of State, to certify to Congress that the necessary security 
measures and assurances are in place before any transfer can 
occur. We are in absolute agreement that these assurances must 
be in place before anything can go forward. But as I said, no 
decision to do so has been taken.
    Senator Chambliss. General Allen, do you have any comment 
on that issue?
    General Allen. I think as long, sir, as the Secretary, in 
accordance with law, as Dr. Miller said, can certify that they 
will not become recidivists, there is the break potentially on 
the process, and I support the Secretary's view in that regard, 
sir.
    Senator Chambliss. General Allen, in previous hearings you 
have noted that one of the greatest shortages you saw in our 
fight in Afghanistan was in ``air asset support, both rotary 
and fixed wing, and an increased requirement for intelligence, 
surveillance, and reconnaissance (ISR) platforms equipped with 
signals intelligence and full motion video.'' You also remarked 
that intelligence analysts and associated systems were also 
necessary to properly exploit the data collected.
    Do you believe that since we last had a conversation about 
this that you are getting the kind of support from DOD and the 
Intelligence Community in terms of prioritizing and acquiring 
those assets?
    General Allen. I think we are in better shape than we were 
before, Senator, and we're very grateful actually for that 
support. General Mattis and DOD and of course, the resources 
that have been made available through the Air Force and from 
Congress, have helped to improve that situation, sir, to 
include even the arrival of hyper-spectral capabilities in 
theater has been very helpful to us, and that arrival is most 
welcome.
    Senator Chambliss. Thanks again for your commitment and for 
the commitment of your family.
    General Allen. Thank you, sir.
    Senator Lieberman. Thanks, Senator Chambliss.
    I'm privileged to be occupying the chair while Senator 
Levin had to go to the floor. I just take the liberty to say 
very briefly that I share Senator Chambliss's concern about 
these five detainees. I appreciate the reassurance that you've 
given on the Secretary's behalf. Personally, I know that the 
Taliban has apparently said in these negotiations this is the 
way to build trust. I think it's much too, much too soon to 
give up five of these detainees. There are other things we 
ought to do before we get to that point to build up the trust. 
Frankly, I don't know how Secretary Panetta could ever certify 
that these five would not be recidivists. So personally, I hope 
he never does.
    Senator Ben Nelson.
    Senator Nelson. Thank you, Mr. Chairman. Thank you, General 
Allen and Secretary Miller, for your testimony today, for being 
here. General Allen, please take our appreciation back to the 
men and women in uniform and the civilians there working 
together to help solve a very, very challenging problem that we 
all face.
    One of the things that we've struggled with as a country 
and as individuals and as government and military is trying to 
outline progress and put it into a metric program to understand 
whether we're 25 percent toward our goal or 50 percent, because 
it's too easy to talk about winning or losing. Unless there's 
some definition and some metric associated with that, one 
person's success is another person's loss.
    So we established some time ago the benchmarks in 
Afghanistan, and I'm interested in both of your analyses here 
of our efforts in achieving those benchmarks. Last October, the 
report on progress towards security and stability in 
Afghanistan revealed that, of the Afghan army units assessed, 
only 36 percent were effective independently or with purely 
advisory support, and that likewise only 44 percent of the 
Afghan police assessed were similarly effective.
    Could you give us your at least a benchmark thought about 
how that direction is going? Are we going from 36 percent to 40 
or 50 percent for army and up from 44 percent with the Afghan 
police?
    General Allen. Sir, let me offer you a couple of comments 
here, but I would like to take back the question so I can give 
you a level of specificity that your question deserves. In 
January 2011 there were 155 ratable kandaks, battalion-sized 
units, in Afghanistan. 101 of those were rated as effective 
with advisors or effective with assistance. None of them was 
rated as independent at that point with advisors.
    A year later, there are 168 kandak-sized units, battalion-
sized units, and we've gone from 101 to 127 that have been 
rated in the top 3, and 11 that have been rated independent 
with advisors. So in just a year there has been significant 
improvement.
    It's not a linear improvement. It's really an improvement 
that gains capability over time in a non-linear way. There have 
been similar improvements with the police as well. But let me 
take back that question and make sure I get back to you with a 
level of specificity that it deserves, sir.
    [The information referred to follows:]

    The operational effectiveness of both the Afghan National Army 
(ANA) and the Afghan National Police (ANP) continues to improve. In the 
ANA, the combined percentage of units rated as ``Effective with 
Advisors'' and ``Independent with Advisors'' increased from 33 percent 
in August 2011 to 53 percent in January 2012. In the ANP, the combined 
percentage of units rated as ``Effective with Advisors'' and 
``Independent with Advisors'' increased from 37 percent in August 2011 
to 50 percent in January 2012.
    To assess progress in the development of the Afghan National 
Security Forces, the International Security Assistance Force relies on 
a quarterly reporting tool known as the Commander's Unit Assessment 
Tool, which uses Rating Definition Levels to assess a unit's 
operational effectiveness. Resulting reports cover quantitative data, 
to include personnel, equipment, and training, as well as qualitative 
assessments in areas affecting the effectiveness of the unit. 
Quantitative data reported includes personnel, equipment, and training, 
while qualitative data reported includes communications, equipping, 
intelligence, logistics, leadership, maintenance, operations, 
personnel, partnering, and training and education. Reports include an 
overall assessment of a unit's operational effectiveness based on a 
scale (from highest to lowest possible rating): Independent with 
Advisors, Effective with Advisors, and Effective with Partners, 
Developing with Partners, Established, and Not Assessed.

    Senator Nelson. Secretary Miller, are you satisfied that 
progress and improvement, rather than talking about we're being 
successful or we're failing, but there's been progress and 
improvement in these areas of benchmarks that we've 
established? I know they've been worked on with the Secretary 
of State as well as the Secretary of Defense.
    Dr. Miller. Senator Nelson, yes, I am satisfied that we're 
making progress. I know that there will always be times when we 
slip back and have to regain progress that we've made before. 
But as General Allen said, what we've seen is very significant 
progress, and we will provide detailed numbers as you've 
requested, sir.
    Senator Nelson. Let me also deal with the issue of the 
numbers of personnel that are now in ANSF, both as to the 
present number and the future number, because we can't always 
evaluate everything simply on the basis of the cost, but I 
think we always have to know what the cost is.
    Can you tell me how much it costs U.S. taxpayers to support 
the current ANSF? I guess let me ask you, Secretary Miller.
    Dr. Miller. Sir, let me pull up the number. My recollection 
is that the request for fiscal year 2012 was a little over $11 
billion and that we've requested about $5.8 for fiscal year 
2013. So that if you look at that cost compared to the overall 
cost of the conflict, it is relatively small.
    Senator Nelson. I know, General, that you don't evaluate 
the needs simply based on what the cost is, but we can't ignore 
costs, and I appreciate that fact, that you're not saying we 
have to have the best Afghan national forces money can buy or 
the money that we can afford.
    But it is a factor for the American people to be aware of 
what the true financial cost and financial burden, given the 
fact that the debt continues to rise and we're trying to 
control a deficit, and at the same time right-size the budget 
to take care of our national security needs as well.
    Secretary Miller, do you agree with that?
    Dr. Miller. Senator Nelson, yes, I do.
    Senator Nelson. I always appreciate short, crisp answers 
when possible.
    In looking toward alternatives to violence, it's my 
understanding that insurgents may be looking toward 
alternatives to violence. At the same time, the Taliban seems 
to be threatening more violence and more sensational violence. 
Apart from the sensationalism right now of the threats 
following the Koran and the unfortunate slaying of civilians, 
is there truly a bona fide effort at trying to find 
alternatives to violence among the insurgency? General?
    General Allen. Senator Nelson, that's a really important 
question, because it gets at the ability to decompose the 
insurgency, and it is pursuing the process of reintegration. In 
any spectrum of peacemaking that would occur in a 
counterinsurgency, on the one end you would have the political 
agreement that would be called reconciliation and on the other 
end you would have the individual opportunity for the insurgent 
himself to come off the battlefield, for whatever reason we've 
been able to entice him to come off.
    That's a continuum. Where we have seen some pretty 
substantial success in the last year is in the area of 
reintegration. My own experience from Iraq and the Anbar 
Province was when we began to see the individuals reintegrate, 
to come off the battlefield because they had, for whatever 
reason, either their grievance had been resolved or they had 
elected finally to give up violence, that began a process of 
the decomposition from the bottom up of the insurgency. When 
enough of them begin to come over, the leadership has to listen 
very carefully.
    What's happened in the last year in Afghanistan, which I 
think is very important, is that the Karzai administration 
through a minister by the name of Stanekzai within the Afghan 
peace and reconciliation process and the peace committee, peace 
council--he is the current chief executive officer, if you 
will, of that organization after the assassination of President 
Rabbani, who headed the High Peace Council.
    We have created, assisting the Afghans--it's an Afghan 
process, the reintegration process throughout the country--a 
bureaucracy which has a provincial peace committee in each of 
the provinces and a joint secretariat to support it. On 1 
January 2011 there were about 600 insurgents who had 
reintegrated across the country. Today there are 3,800, and 
there's another several hundred that are in the process of 
reintegrating. There are a number of others that have gone home 
that we call informal reintegres, and we don't know that 
number, but there's even more.
    That's something that the enemy, the insurgency, has to 
account for. They've attempted to intimidate them, but very few 
have gone back into the fight. I think that's a very important 
advance, and your question, I think, addresses that very issue.
    Senator Nelson. It does, and I appreciate that response. I 
would hope that the reconciliation effort might be successful 
with the top leaders as well, but I suspect that's a much more 
difficult challenge.
    General Allen. It likely will take longer, sir.
    Senator Nelson. It will take longer. Thank you. Again, 
thanks.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Nelson.
    Senator Sessions.
    Senator Sessions. Chairman Levin and Ranking Member McCain 
have, I think, achieved a great deal of wisdom over the years 
in dealing with the issues that we face. I think Senator Levin 
has indicated his strength, I believe, and support, General 
Allen. He said our soldiers deserve our support and they have 
it, and the plan that I believe you're working on. Senator 
McCain has likewise said that.
    Dr. Miller, you said that Afghanistan will meet the 
challenge, I believe, in your opening statement, and expressed 
a confidence that we could be successful. You quoted again 
President Obama's statement: ``We will build an enduring 
relationship with Afghanistan.''
    Senator McCain talked about the vision that we had for the 
success in Afghanistan. We've had bipartisan support for that 
and we're having some difficulties now, at least certainly in 
the press, if not on the ground. We had the problem with the 
Koran. We've had the problems with the Afghan soldiers killing 
our own soldiers. We've had the problem of, it appears, one of 
our soldiers killed unjustifiably men, women, and children. 
President Karzai has been making a series of very odd 
statements, as far as I'm concerned, that reflect perhaps 
frustration, but also causes me concern about where he is.
    General Allen, you're the person on the ground. I asked 
this question of General Petraeus when he went to lead the 
surge in Iraq, and the question is: In your best judgment, 
working for the American people, and you're required to give 
this Congress your best opinion as a military leader concerning 
our effort there, is it an effort that if we move smartly ahead 
following the vision that we've had, that seems to be a 
bipartisan vision, can we be successful?
    If the circumstances reach a point where we cannot be 
successful, will you tell us?
    General Allen. I believe we can be successful, Senator 
Sessions, and I will tell you the moment I believe we cannot 
be.
    Senator Sessions. How would you describe these series of 
negative public events? How does it impact your efforts? It 
can't be good. But we are members of a great Congress, of a 
great Nation. We're engaged in policies that have ups and downs 
in them, and sometimes we have events that change our minds. Is 
this one of the situations in which you believe that the 
adverse events can be worked through and that this is not a 
fatal event in our relationship with Afghanistan?
    General Allen. Senator, I believe we can work through them 
all.
    Senator Sessions. How do you see President Karzai and his 
comments? When I was there with Senator Lindsay Graham and 
Senator McCain and several others, I was taken aback by some of 
the comments that were made. You were with us in that meeting 
just, what, 3 or 4 weeks ago. Senator McCain made clear his 
concerns, crystal-clear. It was an important, open, direct 
exchange, I thought was valuable.
    But I've noticed that President Karzai has made some 
additional comments of the same nature since then and that is a 
cause of concern to me. What can you tell us about where we 
stand with regard to the president of Afghanistan?
    General Allen. Senator, you have put your finger on the 
issue. There is frustration with these events. These events in 
many respects have struck a blow at the core of the 
relationship. President Karzai has to be able to speak to the 
Afghan people about putting our relationship in the context of 
the long-term relationship with Afghanistan.
    So I understand his frustration and I understand that if it 
were just one event he would have a particular view on it. But 
we've had several events of late--the urination video, the 
burning of religious material, to include the Koran, the 
shootings in Panjwai. In the aggregate, those are significant 
events.
    But I believe he is committed to a relationship with the 
United States. He was very clear in a strategic--in a video 
teleconference in which I was in attendance with Ambassador 
Crocker recently with the President. He was very clear in his 
commitment to a strategic partnership with the United States. 
But these incidents can't be ignored, and he has to explain 
those incidents to his own population.
    Now, some of the terms that he has used I reject. I reject 
the use of the word ``demon'' when it is applied to the 
130,000-plus troops that serve in ISAF and the U.S. forces 
among them. I reject the equivalence of our forces with the 
Taliban in the same sentence.
    I understand why in frustration and in anger those words 
can come out. But on behalf of our forces, on behalf of the 
American people and the populations of the 50 states of ISAF, I 
reject that term. Those magnificent troops are sacrificing 
every day. Many of them are sacrificing their lives. Just 
before I walked in here, I was given a report on one of our 
troops who when he saw a small child underneath one of our Mine 
Resistant Ambush Protected (MRAP) vehicles in Afghanistan, 
threw himself under the vehicle to pull that child out so it 
would not be harmed, and in the process, perished himself.
    Now, that's sacrifice and that's dedication to a cause, 
just as William Stacey, Sergeant Stacey, who was laid to rest 
recently, dedicated his life to this cause. I believe that 
President Karzai understands that, and I believe that President 
Karzai appreciates that as well. He has said that publicly.
    But it's difficult to get past some of these recent 
incidents and in the process words might be spoken that we all 
regret. I reject the term ``demon'' as it is applied to our 
forces, and ``satanic'' and ``inhuman.'' Those are terms that 
do not apply to us, but I can understand how in moments of 
stress and anger they might be uttered.
    Senator Sessions. Thank you very much, General Allen. I 
have to say that the people who observe your leadership in 
Afghanistan are universally extremely complimentary of what 
you're doing and the leadership you're providing. Your 
integrity is unquestioned, and I take great comfort in your 
honest analysis.
    Dr. Miller, if you wanted to comment on that, my time is 
up, but perhaps you'd like to also comment.
    Dr. Miller. Senator Sessions, I would simply like to 
associate myself completely with General Allen's remarks and to 
say that it's been an incredibly bouncy period of a few weeks 
to about a month, and that during that time, during that 
incredibly difficult time, we have also seen, in addition to 
conversations between President Obama and President Karzai, a 
videoteleconference, telephone call, the Secretary of Defense 
meeting with him. We've also seen General Allen conclude the 
MOU on one of the most sensitive issues that we have to deal 
with, detention operations, during this challenging time.
    To me that's a signal that there is resilience and it's 
also a signal of General Allen's terrific leadership, just as 
you've described. We need to move forward. We need to have an 
enduring relationship, and as General Allen said, we need to 
understand that tragic events will happen, that we will 
continue to have challenges, but that the strategy under which 
we are operating, the plan that we're implementing, is 
succeeding, and we need to have the courage and wherewithal to 
continue.
    Senator Sessions. Thank you.
    Mr. Chairman, I just would note that Senator Graham engaged 
President Karzai about that strategic agreement and when we 
left we were worried. We didn't know what would happen. So it 
is a very, very important agreement and I'm glad it's been 
worked out, it appears, because without it I think we'd have 
problems and with it I think we can develop an enduring 
relationship.
    Thank you.
    Senator Lieberman. Thanks, Senator Sessions. Well said.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    General, let me echo the comments of a lot of people up 
here. I appreciate your leadership. I've known you for a long 
time. It's a very, very tough situation that you're confronting 
and we're appreciative that you're there right now.
    Let me ask you to begin with, about 2 years ago, General 
Jim Jones, as the National Security Advisor, estimated that 
there were fewer than 100 al Qaeda in Afghanistan. How many al 
Qaeda would you estimate are in Afghanistan today?
    General Allen. I think it's about the same, sir.
    Senator Webb. About the same. I would say as a starter in 
terms of our mission of denying al Qaeda sanctuary in 
Afghanistan, we've been pretty successful.
    I would like to make another point. When we're talking 
about the frustration of the American people with how long this 
task has been taking, there is obviously a difference between 
toppling a government and developing long-term security 
practices inside a country that's gone through what Afghanistan 
has gone through.
    But it's rather frustrating, I think, for a lot of people 
in this country when we are defining success at this point as 
having an Afghanistan military and police force that would be 
capable of taking charge of its own security operations by late 
2014, which is about 13 years after September 11 and after this 
Taliban Government was toppled, and that we know the reality 
here that we're discussing is that that's not really the end of 
the war, as people are terming the war. It's a time when we're 
looking at a point where the Afghans will be able to fight 
their own war or take care of their own security measures.
    We know that this is a culture that does know how to fight. 
I think we're being presumptuous here when we keep talking 
about how we're trying to train up the Afghanistan military and 
the police forces. They've been fighting for hundreds of years, 
and in fact, we should remind ourselves that it was actually 
the Afghans who threw out the Taliban, with the assistance of 
some highly qualified, but a small number, of Americans. We 
didn't do it; they did it.
    I was very taken by one of the comments that you made, 
General, in your testimony when you were saying that they are 
actually better than we had expected them to be or you had 
expected them to be, the forces that are operating right now. 
In fact, from your comment, they're better than they thought 
they would be.
    So, let me ask you, if they're better than we thought they 
would be, would one of your considerations when you're making 
your recommendations be accelerating the pace of our military 
withdrawal? You could actually see that as a signal of success, 
of our strength, rather than a weakness.
    General Allen. As I said to the chairman, Senator Webb, I'm 
going to think in the recommendations that I make to the 
President through the chain of command a very important 
consideration will be the state of the ANSF. They are better 
than we thought they would be, because I believe as--and I know 
of your own personal experience. You have advised. You have 
seen forces that just required the opportunity to get into the 
fight to come into their own, and that's what's happening now.
    So we're going to watch this very closely. We're going to 
do all we can with advisors to accelerate that process. If part 
of the outcome of my evaluation is that there is a reduced 
requirement for U.S. or ISAF combat power, I'll make that part 
of my recommendation, sir.
    Senator Webb. Good. Thank you for that.
    Dr. Miller, you're in a little precarious situation here 
today--I think a lot of us understand that--in that your 
confirmation hearing is a week from now to officially occupy 
the position that you're now acting in.
    But I want to ask you a question about this strategic 
partnership, because from my perspective and from some others 
up here in the Senate the nature of the strategic framework 
agreement that took place with respect to Iraq should have been 
subject to much more vigorous participation by the U.S. 
Congress. When you're defining a security relationship with 
another country in which there has been this type of military 
involvement, it just seems to me that there should be some sort 
of congressional approval of the parameters that are eventually 
agreed upon.
    Do you see this strategic partnership, this agreement, as 
it is moving forward as an expression of executive power, or do 
you see this as something that is more in the lines of a 
traditional role of Congress?
    Dr. Miller. Senator Webb, let me first just say very 
explicitly, while I welcome the opportunity to come back and 
testify for confirmation, any contribution that I can make to 
help explain what we're doing in Afghanistan----
    Senator Webb. I understand.
    Mr. Miller.--to the Senate far outweighs whether I'm 
confirmed or not. That said, I look forward to being back on 
the 29th.
    With respect to the strategic partnership, this will be a 
critical milestone, but it won't be the last milestone. I would 
expect that there's a follow-on agreement that will address a 
number of issues, for example, including basing and so forth, 
that my guess would be will get more to the types of issues 
that you are concerned about and that you're raising.
    So at this point let me say that we will commit to consult 
with Congress as we move forward on the strategic partnership 
and that we will be prepared to explain how it relates to 
future steps, and understand that you will have a view about 
what role Congress should have, the Senate should have, in each 
of those steps.
    Senator Webb. Let me express my concern, because if you 
will recall what happened in the situation with our 
relationship with Iraq, there were two agreements. One was a 
strategic framework agreement, which really defined the nature 
of a longer-term relationship, and then the other was the 
Status of Forces Agreement (SOFA), which is more nuts and 
bolts. Everywhere that we have American troops, we have some 
kind of a SOFA.
    But neither of them were brought for the formal 
consideration of Congress. We actually with the previous 
administration had to go to a room, as if this document were 
classified, and it was not, and sign in in order to retrieve it 
in order to read it. So it was pretty much kept out of the 
public eye and away from formal congressional consideration.
    I attempted to bring it to a vote, quite frankly. I lost 
that attempt. But I believe when you're defining this type of 
far-reaching relationship between two countries that it should 
not be simply a matter of the executive branch. This 
conversation will be continued, but I wanted to raise it today.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Wicker.
    Senator Wicker. Thank you.
    General Allen, on January 31 of this year Lance Corporal 
Eddie Dycus, a marine from Greenville, MS, was shot in the head 
by an Afghan army liaison noncomissioned officer embedded with 
Lance Corporal Dycus's unit in the Helmand Province. Yesterday 
my staff and I received a briefing on the details of this case 
from the Marine Corps and the Naval Criminal Investigative 
Service (NCIS).
    The ongoing Marine Corps and NCIS investigation of this 
case has revealed that the Afghan soldier responsible for the 
shooting has a questionable personal history, previously 
unknown to the U.S. military. I was informed by the Marine 
Corps that this Afghan soldier would never have been allowed to 
embed with our forces had we known of his history. As such, I 
believe robust recruit screening by the Afghan security forces 
could have helped avoid the tragic death of this brave young 
man.
    General, will your team at ISAF headquarters work with the 
Marine Corps and NCIS to provide me with a detailed written 
report on the circumstances surrounding Lance Corporal Dycus's 
murder?
    General Allen. Yes, sir, we will.
    [The information referred to follows:]

    On the night of 31 January 2012, marines from Fox Company, 2d 
Battalion, 9th Marines, Regimental Combat Team 5, 2d Marine Division 
(Forward), II Marine Expeditionary Forces (Forward) were conducting 
partnered static security operations at Combat Outpost (COP) Coutu, 
Marjeh District, Helmand Province, when they heard gunshots from the 
vicinity of one of the posts. The operator of the surveillance system 
recorded an individual outside of the COP running away. An Afghan 
National Army (ANA) soldier from a nearby guard post began shooting at 
the individual, eventually pinning him down in a ditch close to the 
COP.
    While this was occurring, upon hearing the shot, a Marine in the 
Command Operations Center (COC) immediately began a radio check with 
all marines on post. Lance Corporal Edward J. Dycus failed to respond 
to the radio call. Once Lance Corporal Dycus failed to respond, two 
marines from the COC ran to the post manned by Lance Corporal Dycus. 
The two marines discovered Lance Corporal Dycus on his back with a 
gunshot wound to the head. The senior marine reported that a marine was 
down and placed the remaining marine in charge of the post. This 
response took less than 2 minutes from the gunshot to the discovery of 
Lance Corporal Dycus. Platoon sergeants arrived at the outpost and took 
control ordering a stretcher and movement of Lance Corporal Dycus while 
the medics prepared for a trauma patient. Unfortunately, upon Lance 
Corporal Dycus' arrival at the Aid Station, resuscitation was not 
possible.
    A team of marines was dispatched to detain the person in the ditch. 
When the marines detained the shooter, he immediately began shouting 
that he was drugged with hashish by another ANA soldier and that this 
other ANA soldier was a Taliban member. He further admitted to shooting 
Lance Corporal Dycus. The weapon used belonged to a third ANA soldier. 
All three were taken into custody.
    Naval Criminal Investigative Services is conducting a criminal 
investigation into the case and the Command initiated a JAGMAN 
investigation under the provisions of Judge Advocate General 
Instruction 5800.7E with Change 1-2. The JAGMAN was completed on 15 
March 2012, finding that Lance Corporal Dycus died in the line of duty; 
and that the shooter's behavior leading to the shooting was ``normal.'' 
There were no apparent indicators to predict his behavior and nothing 
unusual occurred with his interactions with the Marines.
    On 4 March 2012, the Chief of the General Staff, ANA, General 
Karimi, formally requested the transfer of the shooter and the two 
other ANA personnel for investigation and prosecution in the Afghan 
Military Courts. This request was granted and the shooter is currently 
in pre-trial confinement in a military prison.

    Senator Wicker. What is your current assessment of the 
insider threat facing troops in Afghanistan from rogue elements 
and individuals in the Afghan security forces? I understand 
this happens so frequently that it is known by the term 
``green-on-blue'' attacks, in other words Afghan on NATO or 
ISAF force attacks.
    How many ISAF and American personnel have died as a result 
of green-on-blue attacks and how many such attacks are still 
currently under investigation?
    General Allen. Senator, I'll have to get you the final 
number on the numbers under investigation. But we've had 52 
Americans who have been killed and another 60 or so, 68, who've 
been wounded since 2007 when we first started to track these 
events.
    We have taken significant steps to work closely with the 
Afghans. I'll talk about what the Afghan side is doing and then 
I'll talk about what we're doing on our side. On the Afghan 
side, we're trying to accelerate the counterintelligence 
capabilities of the ANA to ensure that they have the ability 
down to the battalion level to detect an insider threat that 
may develop. They have improved the vetting process of 
individuals who are coming into the ANA and police with an 
eight-step vetting process, which includes a requirement to 
have a valid ID card, letters of endorsement or recommendation 
from village elders, and other aspects, criminal background 
check and so on.
    There is an unprecedented level of cooperation between the 
National Directorate of Security (NDS), their intelligence 
directorate, and the ANA and the ANP to embed 
counterintelligence agents from the NDS in basic training, in 
the basic training schools, the follow-on schools, and 
ultimately to have counterintelligence operatives working 
closely with the ANA and ANP in their ranks as well.
    Senator Wicker. General, how long has this new eight-step 
process been in place?
    General Allen. Just months, sir.
    Senator Wicker. It strikes me that that is a very high 
number of green-on-blue attacks.
    General Allen. This is since 2007, sir. We've had six 
Americans who've been killed this calendar year.
    Senator Wicker. So do you think they've tapered off?
    General Allen. I don't think so at this point. I think that 
the measures that are being taken now, once they are in place, 
the measures that the ISAF and U.S. forces that are 
undertaking, those in combination I believe will begin the 
process of eliminating or reducing to the maximum extent 
possible the insider threat, as it is called. It's called 
``green-on-blue'' for the purposes of reporting.
    But those measures have really only gone into effect in 
this calendar year. So we're going to work very hard, both 
within ISAF and in partnership with the Afghans, to reduce this 
as much as possible.
    It's important also to note that the Afghans have suffered 
nearly as many casualties as we have from the same kind of 
threat. So it's in everyone's interests that we have a combined 
effort to be able to sense and to eliminate----
    Senator Wicker. Let me make that clear. You're speaking of 
green-on-green?
    General Allen. Yes, sir, correct.
    Senator Wicker. An Afghan soldier killing another Afghan 
soldier?
    General Allen. That is correct, sir. So it's in all our 
interests to be able to sense the presence of extremists in the 
ranks and be able to deal with them when we do. Now, there 
are--and we can provide this to you; we'd be very happy to, in 
fact; I'll take it as a due-out--to provide you accounts of 
successful investigations that have occurred in the last 
several months where we have, in fact, intercepted, arrested, 
and detained individuals whose intent it was to harm either 
Afghans or ISAF forces.
    [The information referred to follows:]

    There have been 52 cases of green-on-blue attacks since 2007, 
resulting in 86 International Security Assistance Force members killed 
in action (KIA). Of those 86 KIA, 54 were U.S. servicemembers. There 
are currently five attacks current under investigation; three are being 
investigated by the U.S. Army Criminal Investigations Command (CID), 
one by the Naval Criminal Investigative Services (NCIS), and two by 
Regional Command East.
    U.S. Army CID is currently investigating three green-on-blue 
investigations. The first case involves an Afghan National Army (ANA) 
soldier opening fire on U.S. soldiers, killing one and wounding three 
others. The ANA soldier was killed during the incident. The second case 
involves the shooting of two U.S. servicemembers at the Ministry of the 
Interior. The third case involved two ANA soldiers and one ANA teacher. 
The ANA members killed two U.S. soldiers, wounded one U.S. soldier and 
wounded one ANA soldier. Close Air Support killed one of the attacking 
ANA soldiers and the ANA teacher. There is one open NCIS case 
concerning Lance Corporal Dycus.
    Regional Command-East is currently investigating two green-on-blue 
incidents. One unit reported receiving small arms fire from Afghan 
local police (ALP) personnel while conducting a check on an ALP 
checkpoint. This incident resulted in one U.S. soldier KIA and two ALP 
wounded in action. One later died of wounds. The second investigation 
involves two U.S. medical evacuation helicopters observing tracer fire 
on them by Afghan National Police (ANP) as they attempted to exfiltrate 
an area after an operation. Two Air Weapons Teams returned fire. A 
battle damage assessment was not conducted, and there were no U.S. 
casualties. The local ANP Deputy Chief of Police reported that one ANP 
was killed and six wounded.

    Senator Wicker. It would be good to have the success 
stories. I'm afraid I'm asking you for a pretty detailed answer 
on the record, though, as far as the incidents since 2007, as 
far as when they occurred, because I'd like to review for 
myself and see if it's getting better or if it's getting worse.
    Let me just ask you this. I understand that Lance Corporal 
Dycus's killer is being held in custody by Afghan security 
forces. What steps will you take to ensure that the Afghans do 
not either intentionally or unintentionally release this 
individual, and will your team at ISAF headquarters keep me 
updated in writing on the latest developments on the Afghan 
soldier's case as it makes its way through the Afghan legal 
system?
    General Allen. We will certainly do that, Senator. I have 
been in personal contact with the Chief of the Army Staff, 
General Karimi, for whom I have great respect, and we have 
spoken on this individual person, and he has assured me that 
justice will be done, and they have him in the Afghan army 
detention facility within Pol-e Charki and they will prosecute 
him according to Afghan law. I have every reason to believe 
that he'll be held accountable.
    But in any case, we'll be watching that case and we'll keep 
you apprised, sir.
    Senator Wicker. Okay. I have a follow-up question. My time 
is up. It deals with some more particulars on the screening 
process and the way we are involved in helping screen the 
Afghan security forces. I'll submit that in writing.
    General Allen. We'll take it for the record.
    Senator Wicker. Thank you very much.
    General Allen. Thank you.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, gentlemen. General Allen, it's good to see 
you again.
    General Allen. It's good to see you, sir.
    Senator Udall. As always, thank you for your service and 
your dedication to this crucial mission. When Senator Jack Reed 
and I were in Afghanistan last fall in October, we talked at 
length about the plans for this year's campaign and about 
particularly the training plan for the ANSF. I want to make 
sure you have the resources to recruit, train, and equip a 
viable security force.
    Dr. Miller, good to see you as well. I want to make sure 
also that the administration and DOD are in the process of 
developing models and plans for after 2014, after the NATO 
combat troops have left Afghanistan.
    I have to tell you I believe that insufficient contingency 
planning for what might happen after the Taliban were routed in 
2001 and after Saddam Hussein's regime fell in 2003 led to 
these long irregular wars of the last decade. I want to be 
absolutely certain we're not going to make that same mistake by 
failing to plan and prepare for a post-NATO Afghanistan.
    So in that spirit, I know we've been justifiably focused on 
the counterinsurgency mission, training the ANSF, rooting out 
corruption in the Afghan Government, and working through a lot 
of other issues with an eye on the 2014 stepback. I'd like to 
talk about what happens after 2014, what capabilities will the 
Afghan army have, what missions will they be able to perform. 
In other words, do you envision the ANSF as a defensive force 
or one that's capable of going after the Taliban and actually 
disrupting their operations?
    General Allen. Sir, let me start with that. The ANSF that 
will ultimately be fielded, the 352,000-person force at the end 
of 2013, will continue in force for some period of time after 
2014. Again, as we discussed earlier, it'll be based on quality 
metrics, the assessment of the enemy situation, the operational 
environment, and so on. But we would expect to see the 352,000 
force continue for at least a full year after the 2014 force.
    The nature of the force that we envisage now will be a 
force that will be primarily capable of conducting 
counterinsurgency capabilities, to continue to deal with what 
we're calling operationally significant insurgent capabilities. 
So wherever we may find that there is still an insurgent 
threat, the capacity of that force will be focused on 
continuing to deal with it.
    As questions, as comments that have been made this morning 
imply, one of the challenges that we will continue to face will 
be the insurgent threat across the border in the safe havens. 
The nature of the force as it is currently envisaged to be 
disposed around the country based on the operational 
environment may require that more of that force ultimately be 
disposed to be deployed in the eastern and southern portions of 
the country than had been originally imagined. But I think 
that's fine, as we're talking through this now with Afghan 
leadership, and of course it'll ultimately be their decision.
    But we're actually having conversations out to the end of 
2014 now on our bilateral campaign plan and we're beginning to 
have discussions about the period from 1 January 2015 until the 
other end of 2017. The expectation would be that we would 
dispose the forces in Afghanistan in direct proportion and in 
direct response to the operational environment and the 
insurgent threat.
    The expected force will ultimately be a force that has 
sufficient policing capacity to provide protection to the 
population and an army and an air force that have the capacity 
to move sufficiently quickly to the point of requirement, 
either back up the police as necessary or to conduct additional 
counterinsurgency operations. So we're looking for a force that 
has those balanced capabilities.
    Senator Udall. Dr. Miller, would you like to add anything 
to that overview?
    Dr. Miller. Senator Udall, General Allen has pretty well 
covered it. I would say that we understand what the composition 
is to be of the 352,000, with 195,000 ANA and 157,000 ANP. The 
composition and the overall number when and as those numbers 
are reduced based on conditions is not yet determined, and that 
is--as we think about the post-2014 planning, we need and we 
are thinking about a range of different contingencies and a 
range of different situations, and understand that, while one 
has a plan, at the end of the day, that that plan will need to 
be adjusted over time.
    General Allen. Sir, may I come back to this very briefly?
    Senator Udall. Please.
    General Allen. I apologize. We will still see the force 
disposed almost certainly along the original plan. But elements 
of that force, as again based on the enemy situation, would be 
deployed in an expeditionary manner for periods of time and 
then go back to the basing. So the forces that would otherwise 
be deployed to the north will still be garrisoned in the north, 
but elements of it we would imagine, to be determined with 
detailed planning, would deploy to those areas where their 
specific skills or their additional combat power would be 
needed.
    But we would envision that those would be temporary 
deployments. So we'd still see the army based, as we have 
envisaged it, across the country, but the force would mass as 
necessary to deal with those operationally relevant insurgent 
hot spots.
    Senator Udall. So if we don't see a broad reconciliation 
process, peace talks, the Taliban included in the Afghan 
national government, these forces would be prepared to take the 
fight in a counterinsurgency construct to the Taliban, to the 
Haqqani network, and others who would have as a goal to 
undercut the stability and security of Afghanistan?
    General Allen. That's correct, and they are demonstrating 
those capabilities already.
    Senator Udall. On those capabilities, who's responsible for 
determining what those capabilities for the ANSF should be and 
then for measuring that progress toward meeting those 
requirements? Is that you, General? Is it the MOI? Who all are 
involved?
    General Allen. Clearly they are measuring them as well, and 
we compare those measurements. Within the ISAF forces, it is 
both an assessment that is done by the NATO Training Mission 
Afghanistan, but it's also an assessment that's done by the 
operational commanders.
    Senator Udall. Talk a little bit more about the ALP. You 
shared with us last fall your plans and hopes there and the ALP 
seemed to offer an opportunity, as well.
    General Allen. It is, I think, a substantial contribution, 
frankly, to the security of Afghanistan. The ALP does a number 
of things for the campaign. The first is that it provides the 
opportunity for Afghans to defend themselves. They're not 
militias. They're not individuals that are hired apart from a 
local population, then inserted into that population.
    Our special operators will go to a village or to a town. 
They'll spend some time living with that population. They'll 
ultimately in conversation with the leadership of that 
population, they'll determine that they seek to be basically 
mobilized as a community to defend themselves. It's their 
decision. When they make that decision, then we begin to 
recruit the ALP.
    The individuals of any particular garrison are vetted by 
the local elders. They're vetted, of course, for a police 
record. They are technically and officially associated with the 
Ministry of Interior through the local district chief of 
police. They're trained by our special operators, Green Berets, 
SEALs, or Marines, who then live amongst them and continue to 
mentor their capabilities.
    What has happened with the ALP is it has created 
opportunities for large amounts of the Afghan population to 
reject the Taliban. There have been signals intelligence cuts 
that we have gotten where Taliban commanders have said: ``If 
you can kill an ALP commander, so an Afghan local policeman who 
is leading his own tribesmen in that particular village, if you 
can kill an ALP commander, it's worth 10 coalition soldiers.''
    The Taliban are very threatened by the ALP because the 
significant terrain, the key terrain in a counterinsurgency, is 
the human terrain, and the ALP deny the human terrain to the 
Taliban.
    We're only about halfway through in the fielding of the 
force. We're at about 12,000 now. The force will grow to an 
envisioned strength of 30,000. Once we reach that point, then 
we'll need to make some hard decisions about whether we retain 
that force, continue it in its existence, or even expand that 
force. We would do that, obviously, with the Afghans in the 
lead on that decision.
    Senator Udall. My time has expired, but two final comments. 
The power of this concept, I think, is very significant. It 
works within the tribal structure in Afghanistan. It's not 
comparative in a sense to the Sunni Awakening in Iraq, but 
there are elements of this that engage the local population and 
fit again a tribal world view. So count me as somebody who 
wants to support this going forward.
    General Allen. Thank you, Senator.
    Senator Udall. Second, again I just want to underline the 
need for post-2014 contingency planning, so that we don't see 
ourselves involved in a long irregular war over the next 
decade. We're going to continue to have a presence in 
Afghanistan. There's much at stake. We don't want to be 
attacked again. But we can, I think, learn a lot from what's 
occurred over the last 10 years in Afghanistan and Iraq, so 
that we set this as the right kind of stage as we hand off the 
country to Afghanistan.
    Thanks again for your service, both of you.
    General Allen. Thank you.
    Senator Udall. Thank you.
    Chairman Levin. Thank you, Senator Udall.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    General Allen, thank you. Dr. Miller, thank you.
    General, I was honored to serve in Afghanistan this summer 
and to meet with you and discuss the challenges and appreciate 
all of your service and sacrifice and those of our men and 
women that are serving, first of all. It was my greatest honor 
that I've had to do that, especially meeting with you and all 
of the commanders under your command.
    A couple of things I noted from that trip was the fact that 
we were contracting with the enemy. By that trip, Senator 
Ayotte and I, with the blessing of the chairman and others, 
were able to address that in our recent defense authorization 
bill. So how is that? Is that helping?
    General Allen. Absolutely. The ability to terminate a 
contract on the spot for misconduct within that contract is 
very helpful.
    Senator Brown. Great. I was also able to, at a time, learn 
about some of the Base Allowance for Houses issues affecting 
our guardsmen and I was able to address that as well through 
the chairman's help and support in getting an amendment up to 
do that. So just those two issues alone made the trip 
worthwhile.
    The other thing I noted during that time period was the 
amazing amount of audits that you and your command are 
subjected to. Is that better than it was or what?
    General Allen. Importantly, I have to start by saying we 
have benefited from these audits.
    Senator Brown. I understand that.
    General Allen. But we've gotten important help within DOD 
and from other audit agencies in consolidating like or 
identical requirements so that we can get one audit that can 
provide universal return. So that has been very helpful.
    Senator Brown. Has that been done? Because I know it's 
something that I brought up to the chairman, and with his 
leadership and the ranking member's leadership we were able to 
put that message out as well, that if you're going to audit, 
hey, they're not avoiding the audits, but to take all the men 
and women who are serving and then put them in the office doing 
audits, it's just, it's counterproductive, especially with the 
drawdown. Is that now working a little better?
    General Allen. We think it is, sir. Thank you.
    Senator Brown. One of the things I wanted to note is, when 
we had to get that signoff for those night raids, I'm deeply 
concerned, probably as Senator Graham is, about the rule of law 
issues. Who is, in fact, signing off on these? Are these 
judges, Afghan judges? Can you just go through the process as 
to how that would work?
    General Allen. Senator, we're really just starting these 
negotiations and they're very sensitive.
    I'd be happy to give it to you as a classified addendum.
    [The information referred to follows:]

     General Allen's response is retained in committee files.

    Senator Brown. Absolutely. Let me just say, though, I am 
concerned about the rule of law issues, as is Senator Graham, 
as I remember, going and observing, not only at the detainment 
facility and participating in a review of release, but deeply 
concerned about that. So I know you're going to take that in 
consideration.
    The green-on-blue issues. How are those soldiers that have 
killed our soldiers, how are they actually treated? Are they 
arrested? Are they in jail? Where are they? What's the status 
of those folks?
    General Allen. Many of them were killed on the spot. The 
others that were apprehended are in the hands of the Afghan 
military. As I said, the one who killed Lance Corporal Dycus is 
in the military detention facility in Pol-e Charki, and I was, 
by General Karimi, who I believe you've met, assured that 
justice would be done in that regard. I'm confident that he 
will be true to his word, sir.
    Senator Brown. No doubt about that.
    I noted with Senator Udall--I was able to go up to Paktika 
and actually observe and meet the leadership on the ALP 
program. I too am a huge supporter. I am also deeply concerned 
that by getting that program up to 30,000, yet we're doing a 
dramatic drawdown--how does that all work out? Getting that 
program up and running is without a doubt the clearest 
deterrent for the Taliban to reestablish ties in that region 
and potentially reestablish camps and potentially export 
terrorism around the region and eventually potentially moving 
on other parts of that--other countries within that region.
    How do you think that's going to shake out?
    General Allen. I think it's going to continue to be an 
important mechanism for holding the ground in Afghanistan.
    Senator Brown. Quite a bit less cost and less manpower.
    General Allen. Much less cost. The special operators that 
we have dedicated to that, we're in the process, and I'm 
working very closely with our Special Operations Command, led 
by our great Green Beret, General Chris Haas, who I think 
you've met----
    Senator Brown. Yes.
    General Allen.--and I hold in very high esteem. We are 
working now the process, just as we're transitioning other 
aspects of the ANSF, transitioning the special operators in 
those units as well to Afghan special operators. That's a 
natural course of events that should occur. That now frees up 
our Green Berets, SEALs, and Marines to go elsewhere.
    If you watch the unfolding of the campaign plan, what 
happens ahead of the movement of our conventional forces is you 
will see VSO and ALP sites appearing ahead of us.
    Senator Brown. Oh, I know.
    General Allen. Holding the terrain and denying it to the 
enemy, so that when our conventional forces ultimately have to 
maneuver on the ground, our casualties are much less, the 
population is far more receptive to our presence, and the ANSF 
is able to accomplish its objectives far more quickly.
    Senator Brown. The thing I found fascinating also is just 
the simple thing of putting in a road that has connected these 
villages to one another that have not been connected for 
centuries----
    General Allen. Exactly.
    Senator Brown.--or ever. Now when the Taliban is trying to 
move on a village, we have other villages moving in to help, 
which has never been heard of. You have the ALPs out there and 
you see they are communicating, I forget if it was by bell or 
by light, depending on the situation, and letting them know 
that there's trouble.
    Are you finding that kind of a fascinating thing that's 
happening, that's never happened in, I think, the history of 
Afghanistan politics and tribal negotiations and involvement 
with each other?
    General Allen. We're seeing cooperation that, I think, is 
really helpful. We're also seeing the resilience of the ALP 
that we hadn't anticipated. They're taking casualties and 
they're staying on the checkpoints. They're taking casualties 
and they're still going out on patrol.
    Senator Brown. I remember being on that post where they 
were having battles and they fought many battles there, and 
finally the Taliban moved on.
    General Allen. That's exactly right.
    Senator Brown. I would encourage you, sir, to keep us in 
the loop on that program, and if you hear that it's being 
jeopardized in any way or being shortchanged, you need to let 
the chairman and the ranking member know, and all of us who are 
huge supporters of that program, to make sure that we can gvie 
you the tools and resources you need to complete the mission.
    Thank you very much, sir.
    General Allen. Thank you, Senator Brown.
    Chairman Levin. Thank you, Senator Brown.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    Again, thank you both for being here. Thank you for being 
patient as many members obviously have a lot of questions for 
you.
    General, I want to point out--and I don't do this that 
often, but I want to point out Colonel Pruitt. He did an 
incredible job for us when we went to Afghanistan. We had a lot 
of modifications in our schedule, let me just say that, and 
adjustments were made rapidly, which gave me even more security 
that what's going on there in the sense of our troops are doing 
a great job. So I just want to point that out. The Colonel 
didn't ask me to do this. Now he'll say why did I do it, 
because you did a great job, and you made our trip a lot easier 
in a very compressed time.
    General Allen. Senator, thank you, and I'll extend him 18 
months to make sure that he supports your next visit. 
[Laughter.]
    Senator Begich. I like it. Thank you very much. Sorry about 
that, Colonel.
    But let me also say that--and I know you know this, and 
that is, one-tenth of the force over there comes from Alaska 
right now, in the sense of their station capacity, about 9,000 
troops. I had a great opportunity to see the 125. I didn't have 
a chance to see the 425, but it was an incredible team. All the 
testimony that you've given is similar to what I heard and saw 
in the sense of the changes that occur, have been occurring 
since I was there in May 2009, my first trip there.
    There's a lot of changes with the security forces, which is 
encouraging and, I think, a critical piece. If I remember some 
of the conversations we had there on the ground, that as they 
become more adapted to their abilities and capacity that 
they're able to maintain and hold these areas and take the 
lead, which, I think, is an impressive piece of the equation 
here, where in 2009, to be very frank with you, in May 2009, I 
was not very secure in that view. Today I do see that.
    I want to say thanks to the teams, and I know it's not just 
the U.S. troops, but a big chunk of it is. But we have great 
allies over there helping train our folks. Next week I'll be 
over in Croatia and I know Croatia, they've been an incredible 
partner, as many others have, and I'll echo that to them and 
thanking them for their help.
    General Allen. Yes, sir. Thank you.
    Senator Begich. I just want to say that to me is important.
    I also saw some incredible technology, and I say that in a 
way that's not like advanced technology, in regards to the IEDs 
that are being produced and that we're having to manage and 
deal with. But some of those chemicals and material are coming 
from Pakistan. We know that. You know that. We all know that.
    Tell me what you think we need to be doing or where we are 
in this regard? I know you talked a little about Pakistan in 
the earlier discussion. Both of you did. This to me is one of 
my biggest concerns about--and I'll be very frank with you--the 
lack of focus in my view by Pakistan in helping us assist in 
this effort, when we know and we can also pinpoint where it's 
coming from, but we are not getting the full cooperation.
    Help me understand, because this is one big question I get 
from Alaskans in the frustration they have as we see 9,000 of 
our troops there and they're very frustrated with this fact of 
the lack of participation. I know some will correct me from 
DOS. I'm sure I'll get a call momentarily. But the fact is I 
didn't see it as much as they could be doing.
    Who wants to take that?
    Dr. Miller. Senator, let me first say that I had the 
opportunity when I was in country a couple of weeks ago to meet 
with the Arctic Wolves, who are doing a terrific job.
    Senator Begich. Thank you.
    Dr. Miller. Both as they operate themselves and in 
partnering with coalition and Afghan forces.
    I think an element to the challenge you describe is that we 
have, just as you indicated, gotten better at the counter-IED 
fight within Afghanistan. We've gotten substantially better 
over time. Unfortunately, because it's not just persisted, but 
because the enemy has continued to adapt, and our Joint IED 
Organization has done good work and obviously our team in 
country has continued to focus on that challenge, I can say 
that at multiple levels, multiple times, we have raised this, 
the challenge of this type of sanctuary for the development and 
for the movement of IEDs from Pakistan into Afghanistan. 
Pakistan has a very significant interest in stability in 
Afghanistan. They also have a significant interest in this 
problem because, as I noted, they are actually suffering 
significant casualties within Pakistan.
    We will continue to work with them. We will continue to do 
everything possible to address this and to reduce the threat 
that these IEDs pose to U.S., coalition, and Afghan forces.
    Senator Begich. I appreciate the comment. I recognize the 
delicacy of how to deal with this. But I also look at it from 
another perspective, for example on the capacity of 
Afghanistan--and this is around some of the stuff we're doing 
around governance and its economic capacity to survive. Here we 
know Afghanistan used to be an incredible producer of 
incredible products, vegetables, fruits, so forth. India has a 
market that's just ready to take it, but Pakistan is a problem 
here, to move those products at an aggressive rate, because of 
their issues with India.
    So I know it's a complicated process, but if we ever want 
to make that region more secure we have to figure these pieces 
out. Pakistan seems to be a critical piece from the national 
security perspective of Afghanistan, but also from the economic 
opportunities that are being denied to them.
    Do either one of you want to comment on that?
    Dr. Miller. Senator, I agree with what you said and the 
importance of developing both internal and external markets for 
Afghanistan as they begin to grow more capacity.
    If I could say, I want to thank you and the committee for 
the support of the DOD contribution in this, the Task Force on 
Business and Stability Operations. Part of what it does is 
looking for long-term significant moves on the Afghan economy, 
mineral extraction for example. But a key part of it is also to 
look at this bottom-up grassroots industry and to help develop 
that, and particularly in the areas where we've cleared and 
held and so now we're building, helping them develop that 
capacity.
    I noted I was in Afghanistan just a couple of weeks ago. I 
was in India less than a month ago and had an opportunity to 
speak also with a number of their senior officials. They have a 
longstanding interest in Afghanistan and they are also 
interested in and are committed to that economic relationship.
    Let me just conclude by saying that regional context is 
critically important. Over time the economic element is going 
to be vital. Sir, I understand that we have work to do, and 
we're committed to continue to work on it.
    Senator Begich. Very good.
    General Allen, I know you spoke earlier about where we are 
and the status of the withdrawal and what would happen over 
time and so forth. You had some areas of still concern as you 
monitor this and watch this. I know Senator Nelson was and I 
was a supporter of it. We have a benchmark list within the last 
authorization bill. Honestly, I would love if you would share 
not only with me--I'm sure other Members may want to see--where 
we are on those benchmarks, and then how those benchmarks--and 
this one, because my time is now out, but how those benchmarks 
could influence the timetable currently in place, but also can 
a positive movement on those benchmarks have any movement in 
accelerating any drawdown that may occur?
    So could you, you or whoever would be the appropriate 
person, look at those benchmarks we have and then see how their 
metrics or benchmarks compare to where we're at in our 2014 
target for combat troops out. But then, are there benchmarks 
that could accelerate, that may give you an opportunity to 
accelerate the combat troop withdrawal? Could you do that for 
the record and present that at some point?
    General Allen. We have your question, sir.
    Senator Begich. Great.
    General Allen. We'd be glad to do that, sir.
    [The information referred to follows:]

    The President has directed the recovery of U.S. surge troops that 
will bring U.S. troop levels to 68,000 by October 1, 2012. This 
recovery is fully underway, and we will meet our directed timelines.
    Security transition is also an important milestone in the campaign. 
The ability to transition a geographic area from coalition security 
lead to the Afghan National Security Force (ANSF) reflects the growing 
capability of the ANSF to assume responsibility for the security of 
their country, with international assistance. This summer, we will 
implement the third tranche of areas to transition to an Afghan 
security lead. Along with tranches 1 and 2, this tranche will bring 
approximately 75 percent of the Afghan population into transitioned 
areas.
    By late 2013, the final tranche, tranche 5, of the transition 
process will be implemented. At that point, the ANSF will assume lead 
security responsibility for all of Afghanistan. The implementation of 
this tranche will be a significant milestone in Afghan sovereignty. In 
support of this transition process, International Security Assistance 
Force (ISAF) has begun a rolling force conversion from conventional 
formations to Security Force Assistance, to advise and assist the ANSF. 
ISAF forces will be prepared to conduct combat, but our main focus will 
be on support to the ANSF.
    The legitimate and transparent conduct of elections as well as a 
peaceful transfer of power will be another significant milestone in 
this campaign. In mid-2014, Afghanistan will hold a presidential 
election and conduct the transfer of power from President Karzai to a 
democratically elected president--its first peaceful transfer of power 
in modern times.
    Finally, the last milestone for the ISAF campaign will be on 31 
December 2014 when transition is complete; Government of the Islamic 
Republic of Afghanistan and ANSF will have full security responsibility 
for Afghanistan.

    Senator Begich. Great. Thank you very much. Again, I can't 
say enough about the work and the troops on the ground there. 
They're incredible, they're motivated, they're excited, 
everyone from the Wounded Warrior Team that we saw to the folks 
doing the dock work to the folks sitting in the tower moving 
planes to the troops on the ground. It was impressive, and of 
course I was very proud to say that one-tenth of the force over 
there comes from the bases of Alaska. So I just want to say 
thank you all for the work you're doing every day.
    General Allen. Thank you for your support as well, sir.
    Senator Begich. Thank you.
    Chairman Levin. Thank you, Senator Begich.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank you, Dr. Miller and General Allen, for 
being before the committee today. In particular, General Allen, 
I want to thank you for your powerful testimony repudiating 
some of the arrant and outrageous rhetoric that sometimes comes 
from President Karzai about our troops. We share your 
sentiments about their integrity, their bravery, and their 
sacrifice. So thank you for your testimony in that regard.
    Let me share my opinion, that is the same as Senator 
Chambliss and Senator Lieberman, about the transfer of these 
five high-value detainees. These are the worst of the worst. 
These five have the blood of Americans and our allies on their 
hands. I want to commend Secretary Panetta for taking his 
certification responsibilities so seriously, because I just 
don't see how you could possibly certify that these five guys 
wouldn't return to the battlefield, given our history of 
recidivism from Guantanamo.
    So I just wanted to express that and commend the Secretary 
for what I understand to be his position right now on those 
five detainees.
    General Allen, we recently had General Mattis before the 
committee, and Senator McCain spoke with General Mattis about 
the report that al Qaeda is making a comeback in Iraq. General 
Mattis said that al Qaeda's comeback is particularly noteworthy 
in western Iraq and even said that al Qaeda's threat is 
extending into Baghdad.
    General Allen, you've served in Iraq with distinction. You 
understand not only your current responsibilities in 
Afghanistan, but the importance of what we've done in Iraq, and 
obviously the role that Iran can play in Iraq, not only in 
Iraq, but currently in Afghanistan.
    Can you help me? What was the perception of us not leaving 
a follow-on force in Iraq and Afghanistan, given your need to, 
of course, make sure that we execute a strategic partnership? 
Second, what lessons can we take from that as we go forward in 
making sure that we have that follow-on agreement in 
Afghanistan?
    General Allen. Back in November of last year, President 
Karzai, I think, wisely convened something called the loya 
jirga. The loya jirga, which in this case was over 2,000 Afghan 
notables from all walks of life, came together for several days 
to answer in essence two questions: should there be a strategic 
partnership with the United States; and should Afghanistan 
pursue peace with the Taliban, the first of the two being the 
preeminent outcome of the loya jirga.
    The Afghan constitution states that the voice of the people 
as expressed through the loya jirga is the highest expression 
of the Afghan people. There was no question as the committees 
of the loya jirga reported out one after another that it was 
the desire of that representative body of the Afghan people, 
that they desired a long-term relationship with the United 
States, the individual contours of which remained to be 
negotiated, but they desired a long-term relationship with the 
United States.
    I don't believe that there was ever in Iraq a similar 
expression or a similar grouping of the Iraqis to express 
themselves about that long-term U.S. presence. Thankfully, 
because of the loya jirga and the articles ultimately that 
accompanied its expression, we have a feel for what that 
relationship should be.
    I think that the voice of the people as expressed in the 
loya jirga was quite a blow to the Taliban, and when it 
supported a strategic partnership, which will ultimately come 
into effect, I think, within probably weeks, another blow to 
the Taliban, that will set up the conference, the summit of the 
heads of state of the 50 nations of ISAF in Chicago in May. 
When they register their unequivocal support for Afghanistan, 
not just to 2014 but in the years that follow, that will be 
another blow to the Taliban and a signal that the international 
community desires peace and stability in Afghanistan, which is 
not just good for the Afghan people, not just supportive of the 
Afghan Government, but ultimately good for the region as well, 
for Pakistan, and even for Iran.
    So I think the ground is just different in Afghanistan now. 
These tragedies recently notwithstanding, which have, in fact, 
complicated the issue, I believe that President Karzai and his 
government still remain committed to a strategic partnership 
and we will pursue that.
    I hope I got to your question. I apologize.
    Senator Ayotte. Let me ask you. You testified that Iran is 
playing a role in the counterinsurgency. What role is Iran 
playing and how important is entering this strategic 
partnership in terms of not only the interests in not having 
Afghanistan become a safe haven for al Qaeda again, but also as 
a blow to Iran and their influence in the region?
    General Allen. Great question. Just as nature abhors a 
vacuum, so do geopolitics. Should the United States leave 
Afghanistan, should ISAF, should NATO leave Afghanistan, that 
would create in my mind for all intents and purposes a 
geopolitical vacuum, ahead, however, of the ANSF being ready to 
take full security.
    What the strategic partnership does is it puts the region 
on notice that the presence of the United States and the 
international community in Afghanistan is a presence that is 
reassuring to the Afghan people, it is a presence that is 
reassuring to the Afghan Government. It buys the time necessary 
for the Afghan Government to go through the process of reform 
necessary for, as President Karzai has said, to get at this 
culture of impunity with respect to corruption. It buys time 
for the ANSF to continue their professionalization.
    A stable Afghanistan is in the interests of the region and, 
while the Iranians may not be happy about an American presence 
there, or a western presence, nonetheless the Afghan people 
desire it, and that presence ultimately works to Iran's benefit 
as well because it will affect the cross-border flow of 
narcotics, the cross-border flow of weapons and human 
trafficking. There are over 1.5 million Afghan refugees in 
Iran. They might be able to go home in a stable Afghanistan. 
It's in their interests as well.
    Senator Ayotte. Just to be clear, we have great concerns 
about the Iranian regime, and it is in our interest that we 
form this strategic partnership in terms of thwarting their 
interests in that area. We do not want them to fill that power 
vacuum. Isn't that true?
    General Allen. That's correct, and the Strategic 
Partnership Agreement would do that.
    Senator Ayotte. That's important to the security of the 
United States of America and our allies.
    General Allen. Absolutely, ma'am.
    Senator Ayotte. Thank you both and thank you for your 
service to our country.
    General Allen. Thank you.
    Dr. Miller. Senator, if I could just add very quickly: 
first to reiterate the importance of the strategic partnership 
and our enduring commitment and how that is not only essential 
for security within the country, but affects perceptions of the 
Taliban and others, including Iran; and second, to say that we 
have seen Iran playing, in a sense, both sides of the fence. 
They have provided some support to the Afghan Government and 
they've provided some support to the Taliban. If they see it in 
their interest to stir the pot and so forth, I think that the 
strategic partnership, the advancement of the ANSF, and the 
clear expression of commitment by the United States and the 
coalition is going to have to cause them to recalculate, and 
that's essential.
    Senator Ayotte. We all want Iran to have to recalculate. So 
thank you both.
    Chairman Levin. Thank you very much, Senator Ayotte.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Thank you, Dr. Miller. General Allen, I thank you for your 
service and for the support I know you get from your wife and 
your daughter. I know it's a family affair.
    Dr. Miller, if I may. I have serious reservations about the 
sustainability of the Afghan security forces. The Afghan people 
know war and have had their military built by multiple foreign 
powers. According to the recent RAND report sponsored by the 
Army, the Soviet goal was 315,000, to build their Afghan troops 
to 315,000. They never got there because the Afghan military 
was plagued with corruption, illiteracy, and desertion. Those 
are the very same problems that I understand that we're facing 
now.
    Our goal has been stated as to build the Afghan security 
forces to 352,000 by October of this year. Yet General Burgess 
recently testified that they still rely on us for logistics, 
intelligence, and transport. So my question would be, Dr. 
Miller, as the Afghan army built in the 1980s did not last, 
what is your assessment of how long our Afghan army will endure 
that were trying to build now and will they be able to secure 
their country without our help once we leave?
    Dr. Miller. Senator, I was searching for the precise 
figures. I'm sure that General Allen has them in his head, and 
so I'll just say that to date our experience is that for the 
ANA, that their monthly attrition rates are coming down. 
They're not quite to the targets that we'd like to have, but 
they're coming down and they're very close. For the ANP, they 
have a period of at least several months where they have been 
below that attrition rate. That's just one indicator of their 
sustainability.
    There is no question that sustaining, growing this force, 
and then sustaining it as a quality force is going to be a 
continued challenge. But as General Allen said, it is not just 
the path to transition; a competent and capable ANSF is the 
path to success. So as we continue to provide resources, as we 
continue to have our units partner with them and as we 
transition to mentor them and then over time as we move to 
strategic overwatch, this is going to continue to be an 
essential mission. It's one that I know that this committee and 
Congress has watched closely.
    Metrics don't capture all of what's going on, but they 
capture some elements, and we are committed to continuing to 
provide the best information we can on those metrics. But we've 
seen very substantial growth in quantity and we've seen--and 
General Allen is better able to speak to it, but by the 
indicators that I've seen, we've seen also improvements in 
quality, and as that force grows up to the 352,000 level some 
time before October of this year, that focus on quality and 
that focus on training is going to need to be sustained, not 
just for the rest of this year, but for many years to come.
    Senator Manchin. That's what I was afraid of, yes. That's 
what I've been hearing. The problem that I have with this--and 
if I may, I should ask General Allen--I just have a respectful 
disagreement on our mission there. So with that being said, I 
respect the job that you do in very adverse conditions, I 
really do. But I just, I have some concerns.
    What I will say is that--and, General Allen, I've always 
said that we should really be rebuilding America. We have so 
many needs in our country, rather than the money that we're 
spending in Afghanistan.
    I've been there. I've had the honor of going twice, once as 
a governor to thank our Guards--people for the job they do; and 
then to go back as a Senator to see. Sir, I did not see an 
improvement over the 5-year lapse that I had been, 2006 to 
2011. I saw deterioration. So that I came to some of the 
conclusions because of what I experienced.
    But I would say this: I did not see things getting better, 
despite the best efforts that we put forward. President Karzai 
just endorsed the code of conduct that allows husbands to beat 
wives, encourages segregation of the sexes, reduces the rights 
of women in divorce cases. There have been more U.S. troops 
killed by our Afghan allies than by al Qaeda or the Taliban 
last month.
    The Wartime Commission on Contracting in Iraq and 
Afghanistan estimates that waste and fraud averaged about $12 
million every day for the past 10 years. That's about $4.4 
billion per year for the past 10 years. That would go a long 
way in West Virginia, I can assure you.
    We've given $85 billion to rebuild Afghanistan. Many of 
these projects are not sustainable. We could have built nearly 
six new elementary schools in this country. This just goes on 
and on.
    So my question would be, sir, why do we continue to give 
this country more money for nation-building? I know there's the 
group of people that make this decision and I'm sure that they 
don't want me to refer to that as ``nation-building,'' but I 
don't see it any other way than nation-building.
    What effects are the large infrastructure projects having 
on the insurgency? I was there at the time General Petraeus was 
just prepared to rotate out and I had asked the same question 
there. So I guess I would put that same question forth.
    General Allen. I think the large infrastructure programs do 
carry a risk, as you point out, of a long-term operations and 
maintenance tail, that I think we're only now beginning to 
understand. But the infrastructure programs that have been 
supported by the Afghan Infrastructure Fund, for example, which 
ultimately will connect the northeast power system and the 
southeast power system, will work to raise the level of the 
Dahla Dam, will repair the hydro rotors of the Kajaki Dam and 
install the third turbine, while they are heavy infrastructure 
programs, it has the capacity of delivering capacity to the 
population from Kabul along Route 1 to Kandahar and the Pashtun 
population in the south that would otherwise not have been 
available to them, and it has been, I think, an important 
contribution to our ability to eject the Taliban from the 
population in the south. The bridging strategy which has been 
underway for electricity in Kandahar for some period of time 
has provided us the ability to electrify businesses and provide 
electricity to the population that the Taliban couldn't have 
hoped, couldn't have even imagined providing to that 
population, which has given them opportunities. It has given 
them the ability to support a government and to pursue economic 
opportunity that would otherwise not have been possible.
    Senator Manchin. My time is running out, the other thing 
that really, which took me over the top, was that the only 
country that was successful or is trying to be successful in 
extracting any of the minerals that they have, such as copper, 
is China. China doesn't have a boot on the ground, hasn't 
invested a dollar there, and I know they're expecting us to 
give them the protection that they're needing and the 
infrastructure for them to extract that mineral that their 
country will profit by.
    That's just beyond my comprehension, that we could be doing 
that there when we should be taking care of America.
    Dr. Miller. Senator, if I could just answer that, that last 
piece. It is very much in our interest, vital interest, to 
ensure that al Qaeda doesn't find sanctuary in Afghanistan 
again, and in order to do that that the Taliban not----
    Senator Manchin. Sir, if I may, al Qaeda has presence 
everywhere else. You said yourself that there's very little 
presence of al Qaeda. But you're going to go everywhere in the 
world? Now we're going to police the whole world and set up 
shop?
    Dr. Miller. No, sir. But that is a sign that this campaign 
has been successful. Afghanistan was the source of the attack 
on the United States on September 11. So it is different, and 
because of our history there and our commitment there it is 
different.
    What I wanted to say is, with respect to the economic 
development of Afghanistan, we are making, in addition to the 
Afghan Infrastructure Fund, making other relatively modest 
investments compared to the stakes that we have. What we should 
insist upon is that we have a level playing field, not that 
it's tilted in our favor, but that for the economic development 
of Afghanistan that we have the opportunity to compete and our 
businesses have the opportunity to compete. While they may not 
win every one, I believe that they will win their share.
    Senator Manchin. Thank you so much.
    My time is up, and I truly just appreciate your service. I 
really do.
    General Allen. Thank you, sir.
    Chairman Levin. Thank you, Senator Manchin.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Dr. Miller, you testified earlier this week on the House 
side that it would cost between $4 and $5 billion a year to 
sustain the Afghan security force at approximately the current 
end strength of 352,000. The Afghan Government has total 
revenue of under $2 billion. So even if the Afghan Government 
were to devote every dime that it has to the Afghan security 
forces, which obviously would not be feasible, it doesn't cover 
even half of the cost.
    Since the Afghan security forces are the linchpin of the 
administration's strategy, this is a key issue because the 
Afghan Government cannot afford to sustain its own forces. Now, 
I know that the administration is trying to get commitments for 
long-term funding from other governments, but when I look at 
most of the European countries they have budget problems that 
are worse than our own and they haven't met even the NATO-
established targets for defense spending, much less the 
contributions for the ANSF.
    So that leads me to the question of how long do you project 
that we Americans are going to have to bear most of the cost of 
paying for the Afghan security forces? Are we talking about 10 
years or 20 years? Can we realistically expect that the Afghan 
Government is ever going to be able to sustain the cost of its 
own security forces?
    Dr. Miller. Senator Collins, the Afghan Government, I 
believe, can, will, and should pay a share of the cost of the 
ANSF, and I believe that we'll see a commitment from them to do 
so. But you are correct that it will not be for the near-term, 
perhaps for the mid-term, it will not be a majority of those 
costs.
    You are also correct that this administration is working 
hard to ask other countries, other ISAF countries, contributing 
countries, to make a commitment to the long-term sustainment of 
the ANSF. We are in a sense at the front end of that process, 
but we're looking to get all the commitments that we can and be 
able to have a conversation about that at the Chicago NATO 
summit, and then to be able to follow on that with more of a 
focus on economic development at the Tokyo summit.
    Understand that before I would come back up to the Senate 
or to Congress and ask for resources from the American people, 
ask you for that, we'll do everything possible to make sure 
that Afghanistan contributes the amount that it can, that we've 
done everything possible to get contributions from others, and 
then ask for the amount that we believe is necessary to sustain 
the ANSF at a level that will provide for stability in the 
country and will provide for reduced risk to the United States.
    Senator Collins. Just when I look at the numbers and look 
at how poor Afghanistan is, it just seems to me that we're 
looking at a never-ending commitment. I'm not saying that the 
Afghans won't contribute, but when their entire budget is less 
than half the cost of sustaining the troops right today, that's 
troubling.
    I want to turn to another broader issue. General Allen, 
your opening statement was so eloquent and moving, and the 
story you told of the incredible sacrifice of our troops is 
inspiring. It's inspiring to all of us who are aware of those 
sacrifices and how patriotic our troops are and how much we ask 
of them.
    It also gives me some hope when I hear you say: ``I'm 
confident that we will prevail in this endeavor. I believe we 
will be successful.'' But then I step back and I recall that 
I've heard very similar assessments from our commanders for 10 
years now, that we're making progress, that they're hopeful 
that we'll be successful in the end, but that the gains are 
fragile and reversible.
    I also read press reports of a new assessment by our 
Intelligence Community, and I realize this is a classified 
assessment and that you cannot address it publicly in detail. 
But if the press reports are correct, they're very 
discouraging, they're very pessimistic about what the new 
National Intelligence Estimate says.
    One report in the Los Angeles Times quotes an official as 
saying that last year's surge may be unsustainable. It goes on 
to say that the National Intelligence Estimate also casts doubt 
about the sustainability of the broader objectives of improving 
governance, developing a competent ANSF, reducing corruption, 
reaching conciliation, and eliminating the safe havens in 
Pakistan.
    An official goes on to report that the Afghan Government in 
Kabul may not be able to survive as the United States steadily 
pulls out its troops and reduces military and civilian 
assistance.
    Again, General, I know that you cannot discuss the 
classified assessment, even though so much of it appears to 
have made its way into the press. But tell me why those 
concerns are wrong in your judgment? Why are you optimistic 
that ultimately we will be successful and prevail, which would 
seem to contradict these reports? I know our troops are 
terrific and that they will do anything they're asked and even 
more. I know your own leadership is brilliant. I just wonder if 
this is doable.
    General Allen. Ma'am, if I didn't think it was doable I 
would tell you, and I'd tell you very quickly, because I 
wouldn't want to spend another life in this fight if it wasn't 
doable. We did disagree, and I'd be very happy to provide you a 
classified response as to why we did. It wasn't just the 
Commander of ISAF who disagreed. It was the U.S. Ambassador, 
the Commander of Central Command, and the Supreme Allied 
Commander Europe.
    The issue is more in the assessment about the future than 
it is about the present. I evaluate our success in the future 
by the success I'm seeing in the present, and I'm confident 
that if we continue on this trajectory, with the kinds of 
capabilities that we have, with the kinds of successes that 
ANSF are achieving, that we can prevail in this.
    I can't, unfortunately, go into the details here, but I 
believe we can illustrate why we differ in that particular 
assessment. I have to be quick to point out that I know a 
number of those analysts, and every single day as the commander 
I benefit from the magnificent work they do in producing 
intelligence necessary for me to make decisions. So I 
appreciate that.
    But there were--and you touched on a number of them and, 
unfortunately, it did get into the media--there were a number 
of areas that we believe that we see right now that gives us 
hope that in the long-term assessment which begins in 2014, the 
start point for that assessment is just different than we see 
it now. I'm very happy to give you our view on that, ma'am.
    Senator Collins. Thank you. I would very much welcome that 
classified rebuttal. That would be very helpful.
    Again, thank you so much for your leadership and your 
personal sacrifices.
    General Allen. Thank you.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Levin. Senator Collins, the request is for an 
updated classified rebuttal--is that correct?
    Senator Collins. Yes.
    Chairman Levin. Is that something then you'll give us for 
the record?
    General Allen. Yes, sir, we will. We'd be glad to, Mr. 
Chairman.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. Thank you very much.
    Senator Blumenthal is next.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to join in thanking you for your service, General 
Allen, and for the eloquence and the power of your responses 
today. My wish is that more Americans could hear them 
firsthand. They contain some very powerful information that you 
shared with us during my last visit, information about the 
success of our special operations, our night raids, 
particularly the very low rate of civilian casualties, the high 
rate of successfully seeking targets and degrading the 
leadership of the insurgents, Taliban, al Qaeda.
    You've noted in the materials that you've provided that the 
IED rate of interdiction and success, at least on our part, is 
declining, at least over the last month. But I think that it's 
fair to say, is it not, that the insurgents seek to rely more 
on the IEDs as they find themselves less successful in engaging 
us in direct attacks; is that correct?
    General Allen. That is correct, sir.
    Senator Blumenthal. We've heard testimony from others, 
including Director Clapper, that Pakistan has made--and I'm 
quoting, I think, from him and from the legislation that I 
sponsored that requires Pakistan to make a more significant 
effort, that he has seen no significant effort, and others have 
testified to the same effect. Would you disagree with them? 
Have you seen a significant effort?
    General Allen. At a classified level, I can tell you that 
Pakistan has taken steps on a couple of important areas. But on 
the whole, with respect to the reduction of the flow of calcium 
ammonium nitrate, which is the principal precursor, if you 
will, to the home-made explosive that inflicts so many 
casualties, we have not seen the level of cooperation or action 
that we have requested or desired.
    Senator Blumenthal. I think you've answered my question 
very well, and any other information you can provide on a 
classified basis certainly I would welcome as well.
    I gather that we are also making progress, I've heard, from 
General Barbero and the officials at JIEDDO, in providing more 
of the equipment that protects our troops, both dismounted--
well, principally dismounted, in terms of gear, and, in fact, 
may have new iterations of that gear?
    General Allen. There's really been terrific work that has 
been done in that regard, Senator. Of course, your leadership 
and the leadership of the committee has done an awful lot, 
everything from the undergarment, which is saving lives and 
troops' futures, to improvements in the armor applications, the 
armor kits for the MRAPs, to the hyper-spectral imagery 
capabilities of some of our ISR assets, to improvements in 
intelligence to permit us to attack the network.
    All of these have contributed to reducing the vulnerability 
of our troops and reducing the casualties. But the casualties 
are still too high.
    Senator Blumenthal. Still too high and having seen, as you 
have done far more than I, the results of these absolutely 
insidious bombs, the effects on our warfighters----
    General Allen. Absolutely.
    Senator Blumenthal.--when they come back, absolutely 
unacceptable. So I thank you and commend you for the tremendous 
leadership that you and others in our Marine Corps and Army and 
other branches have done in combating it.
    I want to turn for a moment to some of the problem areas 
that you've identified and others in this effort. Going beyond 
the military terrain, so to speak, you've identified the human 
terrain, which includes the problems of corruption in the 
Karzai administration. That's a challenge that has to be 
addressed, in my view and, I think, perhaps others, perhaps 
yours as well.
    I wonder if you could tell us whether you believe there's 
progress in that area?
    General Allen. Senator Blumenthal, we have a line of 
operation within the campaign plan which seeks to diminish and 
reduce the influence of corruption on those aspects of our 
relationship with Afghanistan that could compromise our 
mission. To that end, we have leveraged Task Force Shafafiyat, 
which is transparency, Task Force Transparency, working closely 
with Task Force 2010 with respect to contracting, to reduce our 
vulnerabilities to money flowing directly into the pockets of 
the insurgents themselves.
    Task Force Shafafiyat is working very closely with our own 
embassy, with the interagency back here in the United States, 
with the Intelligence Community, on a series of initiatives 
which ultimately can provide support to reducing corruption.
    We have recommended an illicit activities for Afghanistan 
initiative, which I believe it did receive favorable 
consideration by DOD and I believe it's being considered for a 
full-blown interagency approach. We think that the Afghan 
threat finance cell which we--it's an interagency cell in 
Afghanistan in partnership with Task Force Shafafiyat, the U.S. 
embassy, the British embassy, and others, to include 
partnership with the Drug Enforcement Administration, Federal 
Bureau of Investigation, and the Department of Justice. It's 
helping us to create a synergy to get after corruption.
    Specifically to your question, sir, President Karzai, who 
has publicly spoken frequently about this culture of impunity 
which must be addressed in order for Afghanistan to shrug off 
the corrosive effects of corruption and ultimately become a 
functioning democracy, has created a presidential executive 
council, commission, to work in partnership with us to attempt 
to defeat the organized criminal penetration and seizure of the 
borders, airports, and inland customs depots, which robs the 
Afghans daily of millions and millions annually of resources.
    As well, the Ministry of Defense has recently undertaken 
and completed a transparency and accountability working group, 
which is a complete survey of the Ministry of Defense, led by 
Minister Wardak. Everything from patronage associated with 
recruiting and assignment to procurement of systems and weapons 
and pay, facilities. It's a very comprehensive assessment, 
which has been built into a work plan to begin to address those 
specific issues.
    The Ministry of Interior is undertaking very shortly a 
similar assessment, which will really lay bear the corruption 
issues in the two security ministries which are our principal 
partners both in terms of building a credible ANSF, but also 
ultimately being the shield for stability for the state.
    Those are important outcomes. Now, the proof of the 
pudding, of course, is in the eating. What we are seeking to do 
is, having now designed effective work plans, now we have to 
start checking off the items. That's really where we'll see how 
serious everyone is in their commitment to do this.
    Senator Blumenthal. On a related note, before my time 
expires, I have observed some of the reports relating to human 
trafficking among contractors. There are about 70,000 out-of-
country employees from the Philippines, from other countries, 
employed by contractors and subcontractors there. I'm going to 
be introducing a measure, along with at least one other member 
of this committee, to seek to prevent and remedy that problem. 
It has been identified by the Commission on Contracting as a 
problem as well. I don't know whether you have any observations 
on that issue.
    Chairman Levin. If you could make those brief, because we 
have two more Senators and our vote has started.
    Senator Blumenthal. You can respond in writing, as Senator 
Levin has observed.
    [The information referred to follows:]

    In order to focus our available military effort on critical tasks, 
U.S. and coalition forces rely on civilian contracts for the 
performance of essential support services. In order to meet these 
requirements, service providers employ a wide variety of people to 
include U.S. citizens, local Afghans, and third country nationals 
(TCNs). As of April 2012, prime vendors employ approximately 33,000 
non-United States, non-Afghan TCNs under Department of Defense (DOD) 
contracts in Afghanistan. The following initiatives are in place to 
mitigate the risk of illegal trafficking in persons associated with DOD 
contracts in Afghanistan:

    (1)  Coalition forces and contractors are required to prioritize 
hiring local Afghan workers as part of the Afghans First Initiative. By 
providing effective management and oversight of contracts, DOD elements 
ensure that contract verbiage includes Combating Trafficking in Persons 
(CTIP) language as well as the requirement for service vendors to 
submit primary and subcontractor information for validation. Efforts 
are also ongoing to help increase the percentage of Afghans employed by 
U.S. contracts vice the percentage of TCNs.
    (2)  From January to February 2012, the DOD Inspector General (IG) 
Office of Special Plans and Operations visited nine coalition 
installations across Afghanistan to assess CTIP measures. This is part 
of a series of DOD IG CTIP audits that began in August 2009. So far the 
assessment has:

        <bullet> Conducted 110 interviews involving 78 personnel from 
        contracting officers
        <bullet> Interviewed 145 local and TCN contract employees
        <bullet> Reviewed DOD Criminal Investigation Division and IG 
        investigative case data related to CTIP
        <bullet> Assessed 240 DOD contracts for appropriate Federal 
        Acquisition Regulations on CTIP

    Below are a few results from the assessment:

        <bullet> 93 percent of 240 contracts contained current Foreign 
        Acquisition Regulation CTIP language (laws changed in 2003, 
        2006, and 2008) and 96 percent included some CTIP clauses. This 
        was a dramatic improvement from an earlier assessment where 
        only 50 percent of contracts included CTIP.
        <bullet> 85 percent of contracts included a local supplement 
        explaining worker rights--especially with respect to passports 
        and living conditions.
        <bullet> The Contingency Contracting and Acquisition Policy 
        Office of the Under Secretary of Defense for Acquisition, 
        Technology, and Logistics developed CTIP worker's rights 
        awareness materials that were written and distributed in 
        several languages appropriate for both local workers and TCNs 
        in Afghanistan.
        <bullet> U.S. Government personnel were trained on CTIP 
        statutes and how to identify related issues.

    General Allen. I'm glad to.
    Chairman Levin. Thank you very much, Senator Blumenthal.
    Senator Blumenthal. Thank you.
    Chairman Levin. Thank you.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Gentlemen, we have a lot of ground to cover and a short 
time to get there, so let's just start with the big themes 
here. General Allen, is this a defining period in the war in 
Afghanistan?
    General Allen. I believe it is, sir.
    Senator Graham. Would you agree with me, we really haven't 
had it right over 10 years? Really since General McChrystal 
have we had the right strategy with the right resources?
    General Allen. I believe we have the right strategy now 
with the right resources.
    Senator Graham. So it's really not 10 years. Unfortunately, 
we just had it right for the last several years.
    Do you agree with me, Dr. Miller and General Allen, that 
Afghanistan is the center of gravity for the moment in the war 
on terror?
    General Allen. I believe it is, sir.
    Dr. Miller. Senator, I do. Given our history there, it's 
also essential for our credibility in conducting operations 
elsewhere.
    Senator Graham. Here's a comment: No one can guarantee 
success in war or politics. You can do your best. I have a 
great deal of confidence in your plan. I ask my colleagues to 
listen closely. You have asked good, hard questions, but I have 
come to conclude that you and your plan represent the last best 
chance for success in Afghanistan.
    Do you both agree with that?
    General Allen. I concur with that, sir.
    Dr. Miller. Senator Graham, this is an essential moment in 
Afghanistan----
    Senator Graham. I got you. That's good.
    Dr. Miller. Senator, I want to say that there will be bumps 
on the road, and you know that, sir.
    Senator Graham. This is the last best chance, no 
guarantees?
    Dr. Miller. No guarantees.
    Senator Graham. Okay.
    Dr. Miller. This can be done.
    Senator Graham. Here's my comment to my colleagues: I 
understand it is difficult back home, but I believe that this 
is our last best chance, and the only way we will really fail 
at the end of the day is for our political system not to 
support the General at a time of his greatest need. I know it's 
costly, I know it's gone on a long time, but we have to keep it 
in perspective.
    Dr. Miller, I urge the administration to stand by this plan 
to make sure he has the resources he needs, and I will promise 
the President of the United States and the members of this 
committee I will do everything on the Republican side to give 
you the support you need to execute this plan.
    Now, in terms of the cost. Would you agree with me, General 
Allen, in the history of warfare the attack on this country of 
September 11 that cost probably $1 million to plan and execute, 
was the best return on investment in the history of warfare in 
terms of the cost it inflicted upon the intended target?
    General Allen. A great asymmetric advantage.
    Senator Graham. So here's what you need to understand: It 
took $1 million to knock down the 2 towers and kill over 3,000 
Americans, and the place that attack came from is Afghanistan. 
So please think about what it would be like for our future 
safety if the place we went to, to secure, we failed. I think 
we would be buying in terms of costs a lot more than the cost 
of staying and getting it right.
    Now as to the army. General, Senator Levin and I have the 
same absolute opinion on this. What's the difference in cost 
between 230,000 and 330,000 a year to maintain Afghan soldiers, 
an army of 330,000 versus 230,000? Is it $1 billion, $2 
billion, $3 billion? Do we know the difference?
    General Allen. It's between $2 and $3 billion, sir.
    Senator Graham. Okay. What I would suggest to this 
committee, after all we've done, that we should take a view 
that that $2 or $3 billion of annual cost for a period of time 
is the best investment we could ever make to make sure we don't 
have to go out again.
    General Allen, is it your goal to leave Afghanistan, 
withdraw with security and honor for the United States?
    General Allen. Of course it is, sir.
    Senator Graham. Now, do you agree with me that the 
strategic partnership agreement, if entered into and executed 
properly, is the turning point in the war?
    General Allen. I believe it is, sir.
    Senator Graham. Do you agree with me that if we maintain 
the night raids as a military tactic the enemy will suffer 
greatly?
    General Allen. He will.
    Senator Graham. Do you agree with me that you will never 
allow that program to be terminated; you will always strive for 
Afghan sovereignty in terms of its implementation?
    General Allen. I will, yes, sir.
    Senator Graham. To the detention agreement: Will you please 
tell Captain Meyer, the man who's been doing this along with 
his team, that he extended and took a year away from his family 
that he didn't have to do, and it bore great fruit. To you and 
your Afghan partners, congratulations on the agreement.
    General Allen. Thank you, sir.
    Senator Graham. Now, do you agree with me that if we have a 
follow-on force not of just trainers, but of a counterterrorism 
force, strategically located in Afghanistan, air bases with 
American air power and special forces units, that's the end of 
the Taliban's dreams of ever taking over Afghanistan?
    General Allen. I do believe that, sir.
    Senator Graham. That is part of the strategic partnership 
agreement; is that correct?
    General Allen. It hopefully will be, sir.
    Senator Graham. That is the insurance policy for this 
nation that never again will Afghanistan go into terrorist 
hands; do you agree?
    General Allen. I agree with that.
    Senator Graham. That Pakistan needs to quit betting on the 
Taliban because they're losers?
    General Allen. It will stabilize Afghanistan, which is good 
for Pakistan.
    Senator Graham. Now, tell me how the people of Afghanistan 
view the Taliban as a whole? Do they miss them?
    General Allen. There is no love lost there, sir.
    Senator Graham. They hate them, don't they?
    General Allen. They consider that period what they call 
``the darkness.''
    Senator Graham. What is the feeling on the ground in 
Afghanistan of the 85 percent of the people who want to live 
free of the Taliban about what we may or may not do? How do 
they feel right now?
    General Allen. I think they are deeply concerned that we 
may not conclude a strategic partnership agreement.
    Senator Graham. I am telling everybody in this committee 
that if we get this right not only will they feel better, but I 
will feel better and we will win this thing.
    Killing bin Laden. Congratulations to the administration 
and to our military. Did the killing of bin Laden affect the 
Taliban much at all?
    General Allen. I believe it affected al Qaeda as a network. 
The Taliban, there's no registry of that.
    Senator Graham. So to those who believe that you can kill a 
few terrorists and we'll be safe and come home, do you agree 
with that, General Allen? Is that the way to maintain perpetual 
security?
    General Allen. No. No, the stability comes from a long-term 
presence.
    Senator Graham. Doesn't the stability come helping the many 
where they live fight and defeat these bastards in their 
backyards, so we don't have to send 100,000 troops?
    General Allen. Not just help them to be able to fight, but 
also to give the population confidence that it's the right 
force for them, too.
    Chairman Levin. Senator Graham, I hate to do this----
    Senator Graham. I'm done.
    Thank you for your service.
    Chairman Levin. In order to give Senator McCaskill just a 
few minutes, because the vote has started. I really appreciate 
it. I hate doing that.
    Senator McCaskill.
    Senator McCaskill. Thank you.
    Thank you both. I think only our military could be 
accomplishing what we're accomplishing in the most difficult 
circumstances. Every day that passes, I stand in awe of the 
leadership of our military and the sacrifices that you all 
make.
    Some of my colleagues have touched on some of this, so I 
won't feel the need to go into it. But I've spent an awful lot 
of times looking at contracting. I know those auditors are 
pesky, but you are aware, I know----
    General Allen. Thank you for that.
    Senator McCaskill--that we have $20 billion of 
reconstruction money in Iraq that can't be accounted for. SIGIR 
can't find $20 billion that we spent on reconstruction. We 
know, and I can cite in this question, a number of projects 
that we built in Iraq, prisons that are sitting empty, health 
care facilities that never opened, water parks that stand 
crumbling.
    Some of this was AID projects, some of this was Commanders' 
Emergency Response Program (CERP), and what I affectionately 
call Afghanistan Infrustructure Fund (AIF) now, the Son of 
CERP, which is this new thing we're doing that the military is 
engaging in major infrastructure construction, as opposed to 
what we've traditionally done in this country and had all of 
that come under the aegis of DOS. This is new territory.
    Now, what I want to really drill down on in just the couple 
of minutes I have, I am aware of the projects that we are 
funding with the AIF money currently. I'm aware of the three 
power projects. I'm aware of the two transportation projects, 
and I'm aware of the three water projects. I know that the 2012 
money is going to complete these projects, even though many of 
them will not be completed until 2014 and beyond.
    What worries me most is what is this new $400 million for 
in AIF? In other words, if we are completing these projects now 
what this envisions is that we're going to start brand-new 
major infrastructure projects where, regardless of what Senator 
Brown says, we all know that some of the security we have to 
buy works its way into the hands of the bad guys. We know that 
they have no capability of sustaining many of these because of 
their Gross Domestic Product, the Afghanistan people, and the 
government. They don't even have a national highway system with 
any kind of revenue that can even fix highways after we build 
them.
    So I am confused. The studies that have been done, while I 
think CERP--as I began on this committee way down on that end, 
I had heart-to-hearts with General Petraeus about fixing broken 
windows and storefronts. We have morphed far beyond fixing 
broken windows and storefronts. We are now doing major, major 
multi-million dollar infrastructure projects.
    I just don't think we've seen the studies that show, other 
than just intuitively knowing the country likes it that we're 
putting a lot of money into their economic development, that it 
actually is helping with the counterinsurgency.
    So I need to know, why are we just reflexively asking for 
the almost billion dollars in CERP and AIF for this next year? 
Or are there specific plans?
    General Allen. We will give you the specific plan for the 
AIF. Let me take that for the record, and we will give that to 
you to the level of detail that you're satisfied, Senator.
    [The information referred to follows:]

Fiscal Year 2013 Afghanistan Infrastructure Fund:
    The President's fiscal year 2013 budget requested $400 million for 
the Afghanistan Infrastructure Fund (AIF). These funds will be used 
predominantly in the power sector and applied to ensure the delivery of 
sustainable electricity to the Kandahar region and throughout the 
country. Previous projects have increased the electricity available in 
Kandahar, improved the quality of life for the city's residents, and 
have had a positive counterinsurgency (COIN) effect. In fiscal year 
2013, we will continue to fund the Kandahar Power Bridging Solution, as 
a decrease in electricity in this key area would be interpreted as a 
failure of the Afghan Government, creating a negative COIN effect.
    Completion of other AIF projects in water and road sectors will 
have an immediate COIN effect by improving the quality of daily life 
and by providing opportunities for economic growth. Prior to making a 
final selection on fiscal year 2013 projects, we will continue to 
collaborate with the Department of State, U.S. Agency for International 
Development, and nongovernment agencies to ensure that any 
infrastructure work is accompanied by efforts to build the technical 
capability and capacity of Afghans and the Government of Afghanistan to 
provide for the long-term sustainment of infrastructure projects. In 
addition, we will prioritize projects and make the final selection 
after evaluating the contributions from our partners and international 
organizations such as the World Bank and the Asian Development Bank. We 
will seek to leverage resources from international partners wherever 
possible.
    Following the Chicago conference in May and the Tokyo conference in 
July, we will refine the AIF fiscal year 2013 project list, and submit 
it to Congress as part of the annual notification process.
Fiscal Year 2013 CERP:
    The Commander's Emergency Response Program (CERP) is the only 
program designed to enable U.S. commanders to respond to urgent 
humanitarian relief and reconstruction requirements within their area 
of responsibility. CERP provides immediate assistance to the indigenous 
population and projects selected remain within the intent of the 
program. To date in fiscal year 2012, over 4,500 projects have been 
executed that are below the $50,000 threshold. Only two projects in 
fiscal year 2012 exceed $500,000 in value. The bulk of these projects 
support local, immediate requirements and are based on commander's 
assessments. Commanders are equipped with improved decisionmaking tools 
when considering projects. Fiscal year 2012 approval processes apply 
increased scrutiny when evaluating effects and risk associated with 
CERP to include the risk of facilitating corruption or funding the 
insurgency.
    As we work towards transition in fiscal year 2013, it is imperative 
that we continue to assist the Government of Afghanistan to build the 
capacity required to ensure delivery of essential services. Without 
CERP, the reduction in spending associated with reduced U.S. and 
coalition presence will impact the Afghan local economy and derail 
gains achieved over the past decade. Carefully planned and executed 
CERP projects designed to build capacity and mitigate the economic 
impact of retrograde will help ensure that hard-won COIN achievements 
are durable.

    General Allen. When I took command, one of the most 
important admonitions that I gave my commanders was fiscal 
responsibility. I told them that we have to ensure that every 
dollar that we spend in Afghanistan is a dollar that ultimately 
contributes to Afghanistan's security, not robs it of economic 
security over the long term.
    That is why we are moving--first of all, if you look at our 
obligation rate for CERP, it isn't that high this year because 
we're going for the right kinds of projects. The vast majority 
of the projects are $50,000 and below, and they're community 
projects. They're projects which ultimately the community had a 
say in, that will help the community. We're going to continue 
to focus in that regard, so that when we spend money it doesn't 
create additional dependency, it doesn't ultimately create some 
form of economic disadvantage. We seek to have that money 
really do what the commanders need CERP to do, which is to 
provide on-the-ground immediate assistance that can be of an 
urgent nature, ultimately to accomplish the mission.
    Senator McCaskill. I know the unobligated money and I 
really hope you seriously consider this. I want you to look at 
what we're building and that we're going to finish it. I want 
you to look at the unobligated CERP moneys, because it's 
significant.
    General Allen. Yes, ma'am.
    Senator McCaskill. We've appropriated over $3 billion and 
we have $1.5 billion that has not even been obligated. Maybe it 
would be time to say we could do without that $800 million for 
the next fiscal year.
    General Allen. We won't spend a dollar that we don't need 
to spend, ma'am. That's my obligation to you and the American 
people.
    Senator McCaskill. I think it----
    Dr. Miller. Senator, could I add?
    Senator McCaskill.--might be something that would help 
reassure the American people that, if we have unobligated money 
that we've already appropriated, then maybe not asking for more 
would be a show of good faith with the American people that 
we're not going to be building things in Afghanistan that we 
really need to be building here that might not be sustained, in 
light of the challenges that Afghanistan faces.
    General Allen. Very fair comment, Senator. I have 
identified money that I will not spend. I have done scrubs of 
military construction. We recognize we're not going to obligate 
all of CERP, and we're going to make sure that we return that 
money if we don't need it.
    Senator McCaskill. That sounds good.
    Dr. Miller. Senator, could I----
    Senator McCaskill. I'm sorry, I can't. I think we have to 
go vote--we are? Oh, okay. Go ahead.
    Dr. Miller. Senator, I just wanted to add my commitment to 
bring to you our plan for fiscal year 2013 and to agree that we 
need to make the case on an item-by-item basis for the AIF for 
how they're going to fit, how they're going to be sustainable; 
and to say that I sit on the Afghan Resources Oversight Council 
for DOD. I spend time on this. I agree we need to do better. 
We're working at it, and we appreciate your support and we 
appreciate it. But for DOD and in the field, we have to do 
better on auditing, we have to do better on contracting. We 
will continue to work hard on it.
    Senator McCaskill. I worry that if we go down the path of 
new major reconstruction projects, that as we draw down a 
consideration that you will have is not just the transition as 
it relates to the safety and security of our troops, but what 
will we have to leave on the ground for the contractors? 
Because I think we're going to end up with a situation like we 
did in Iraq, that we found ourselves pulling out and all of a 
sudden we looked and we still had tens upon thousands of 
contractors on the ground.
    I just want to make sure that those two pieces are getting 
wedded together and we are just not going down the path with 
blinders on, AIF, more reconstruction, not realizing that we 
could be in 2018 still building a dam with minimal troops on 
the ground in terms of any kind of security protection.
    General Allen. Thank you, Senator.
    Senator McCaskill. Thank you both very much.
    Chairman Levin. Thank you.
    The good news is that Senator Lieberman has come back in 
time for his questions. The better news is we're going to take 
a 5-minute break before his questions.
    We thank you both very much. Your testimony has been very 
strong, very clear, very powerful, and very moving. So we will 
take a 5-minute break and that will leave Senator Lieberman 
enough time to get his questions in and enough time for you to 
have a few moments.
    Thanks. [Recess from 12:47 p.m. to 12:52 p.m.]
    Senator Lieberman [presiding]. Seeing our two witnesses 
here, I'll be happy to gavel the hearing back to order.
    I've been as impressed as everybody has said they have been 
before by your testimony. Thank you very much for it. As I 
reentered the room, I was going to say I was impressed by your 
physical stamina as well. But I'm glad that mercy got the best 
of us and we weren't testing any of you, both of you, any 
further.
    Thank you very much. I think this has been a really 
important day of testimony, combined with the testimony before 
the House. Though there are some questions that have been 
expressed here about various aspects of our policy, I think the 
reaction that I hear from the committee members is generally 
one of support, that we're doing well militarily, this is a 
situation that we've invested a lot of life and treasure into 
over a period of time, and it is winnable if we continue on the 
course.
    So the reaction you've drawn, I think, is a tribute to both 
the strength of your testimony and what you've referred to in 
very moving terms, which is the strength of our troops there, 
our forces there. So I thank you for that.
    I came back because I wanted to go to two statements you 
made in your prepared testimony, General Allen. I want to draw 
you out a little bit on it. You mentioned the counterproductive 
role played in different ways by two of the neighbors, Pakistan 
and Iran, noting that the Taliban operates ``with impunity'' in 
Pakistan and that ``Iran continues to support the insurgency 
and fan the flames of violence.''
    Let me ask you about Pakistan first and about the 
significance to the fight in Afghanistan of the continued 
sanctuaries or safe havens for our enemies that exist in 
Pakistan. Bottom line, can we win this fight if those 
sanctuaries continue to be protected in Pakistan?
    General Allen. Senator, I think we can. I believe it's 
going to require some pretty hard decisions with the Afghans 
eventually with respect to how they'll dispose of their forces 
on the ground. The east clearly, the eastern corridor from 
North Waziristan eastward towards--up Route 7 to Kabul, that 
whole area and the security zone around Kabul is under threat 
from the Taliban operating out of the safe havens in Pakistan.
    I believe that, with continued operations in the east and 
ultimately disposing enough of the Afghan forces in the east, 
we can build a sufficient defense in depth ultimately to be 
able to protect both the population in the east, but Kabul as 
well. But it's going to require probably more Afghan forces 
than we had anticipated. I'm not talking about a larger number 
of the army; I'm talking about more of the standing force than 
we would have anticipated to be disposed and deployed in the 
east, in order to defend Kabul over time, sir. But it remains a 
threat.
    Senator Lieberman. It remains a threat. So that the 
continued existence of these safe havens for our enemy forces 
in Pakistan obviously makes the fight that we have to fight 
more difficult.
    General Allen. It does, sir.
    Senator Lieberman. Can you conceive of any way we could 
convince the Pakistanis to take more aggressive action to close 
down those safe havens or to give us the opportunity to do so 
with them?
    General Allen. I actually think there's significant 
opportunity, frankly, to work with Pakistan in this effort. It 
is often overlooked, the amount of military activity that the 
Pakistanis are dedicating to fighting, not the same necessarily 
insurgents that we are, but insurgents nonetheless in Pakistan. 
They've suffered over 3,000 dead in the last 2 years, some tens 
of thousands of wounded amongst the civilian population and 
their own military. So they have a heck of a fight going on in 
the Federally Administered Tribal Areas as well.
    There have been occasions in the past where General Kayani, 
where the Pakistani military, in cooperation with our forces 
across the border, have conducted complementary operations that 
have been valuable to both countries. Indeed, we seek in the 
aftermath, obviously, of the 26 November cross-border tragedy, 
the opportunity to begin those, to have those conversations 
again.
    I think there is real common ground, where we can conduct 
complementary operations ultimately to the benefit of both 
countries, Afghanistan and Pakistan, and of course to 
accomplish our mission. So it will be my intent ultimately as 
COM-ISAF in meetings that I hope to have in the near future 
with General Kayani to seek opportunity for us to partner 
together across the border, not just for border coordination--
that's a military necessity and I think we're well on the way 
to restoring that relationship--but to seek opportunity, where 
his military and the forces of Afghanistan and ISAF can partner 
in complementary operations to start to get at and to squeeze 
some of these organizations, sir.
    Senator Lieberman. Dr. Miller, do you want to add? I wanted 
to say before I do that, though, obviously I wish you well in 
those discussions with General Kayani. I think that movement 
there would be very important. Of course I hope, and I know you 
do, I presume you do, that the agreement on a strategic 
partnership with Afghanistan may be an encouragement to 
Pakistan to help us close down those sanctuaries.
    Dr. Miller?
    Dr. Miller. Senator Lieberman, I just wanted to, in fact, 
say something along the lines of what you just noted. That is, 
while, as General Allen said, we've seen Pakistan taking on 
significant fight within their own borders, we've asked them to 
do more and we'll continue to do so.
    We see hedging behavior in the region, and we see it 
because some people at this point are not 100 percent sure of 
the U.S. and coalition commitment to support the ANSF and to 
support Afghanistan beyond 2014.
    The strategic partnership, the enduring commitment that 
President Obama has talked about----
    Senator Lieberman. Right.
    Mr. Miller.--and the instantiation of that in plans, 
including at the Chicago NATO summit, are going to be important 
markers. Let me just say, the support of this committee and of 
Congress for this mission is an important indicator as well, 
because it will help send the message both to the American 
people, but internationally, that the United States is not 
going to make the same mistake that we made in 1989.
    Senator Lieberman. Thank you. I couldn't agree more.
    How about a quick word about Iran? You say they continue to 
support the insurgency and fan the flames of violence, General 
Allen?
    General Allen. We've watched very closely the support that 
it has provided to the insurgents. It is relatively low level 
and measurable at this particular moment. We would gauge their 
presence and their commitment to supporting the insurgency by 
the appearance in the battle space of certain signature 
weapons: the Iranian-manufactured 122-millimeter rocket or the 
Iranian-manufactured explosively formed projectives, both of 
which we saw in large numbers in the battlefield in Iraq. We're 
not seeing those now. We are seeing some support to the 
Taliban. We are seeing some, not just training, but also 
logistics support to them as well.
    So we're going to keep a very close eye on those signature 
weapons because we think that that will be an indicator of 
Iran's desire to up the ante, in which case we'll have to take 
other actions.
    Senator Lieberman. I appreciate that.
    Let me just ask you a few more questions, a couple of 
really factual questions about the ANSF, because there's been a 
lot of discussion about the policy judgments. I don't know that 
anybody's asked you to compare the cost per troop in the ANSF 
and in U.S. or ISAF. Is that a number you have?
    General Allen. I don't have it off the top of my head. I do 
have it. I can get it for you, Senator.
    [The information referred to follows:]

    The annual cost to support an Afghan National Police member is 
nearly $30,000 and the annual cost to support an Afghan National Army 
troop is about $45,000, whereas the cost of an International Security 
Assistance Force or a U.S. troop is approximately $1,000,000.

    Senator Lieberman. Good.
    General Allen. It is significantly different.
    Senator Lieberman. Right, much less expensive.
    General Allen. Much less expensive, yes, sir, by factors.
    Senator Lieberman. Then the second is, I know you know 
this, but just for the record: The ANSF are not just what we 
would call the army or the marines. They're also the police and 
other specialized units. So how does that break down, roughly 
speaking?
    General Allen. Ultimately the army will be 195,000 at 
352,000, and then the air force will be about 8,000. The 
remainder will be MOI forces in various forms.
    Senator Lieberman. Right.
    General Allen. There will still be 30,000 ALP in addition 
to the 352,000. The newly formed Afghan Public Protection Force 
will have some numbers of tens of thousands of forces as well, 
but they'll be largely in support of the development of 
Afghanistan.
    Within the Afghan military, the army, it's X numbers of 
brigades. We can get you the specific numbers, but the special 
operators come in the army in the form of nine kandaks, or 
battalions, of commandos, ultimately 72 special forces teams. 
Within the MOI, the SWAT-type, high-end police units are very 
capable. Those are in the General Directorate of Police Special 
Units, GDPSU.
    So there's significant special forces capabilities and 
there is a growing ground force capability within the ANSF. But 
we are still not recruited to 352,000. We will be by October, 
we think within the next couple months. But we'll still be 
building the 352,000 force out through December 2013. So much 
work still remains to be done, not just in recruiting but 
equipping and fielding support.
    Senator Lieberman. Okay. The last question is this. I 
appreciate very much what you testified to the House and again 
here this morning, that you're not really going to be in a 
position to make a recommendation to the President about 
whether the United States should draw down beneath the 68,000 
troops that will be there, our troops, after the surge troops 
are removed, until later in the year.
    General Allen. Yes, sir.
    Senator Lieberman. I appreciate that, because it seems so 
logical to me. The only calendar that matters to the fight in 
Afghanistan and to you, of course, is the calendar on the 
ground there. So it seems to me that what you've said is very 
compelling. You have to wait until this fighting season is 
over----
    General Allen. That's right.
    Senator Lieberman.--see what the impact of the drawdown of 
the surge troops has been, and then make a recommendation.
    But let me ask you generally, what are the kinds of factors 
you'll be considering in reaching your judgment on the pace of 
the drawdown in 2013, if any?
    General Allen. Senator, the steady pace construct is a 
decision that's made elsewhere. I'll just make the 
recommendation on the amount of force, the combat power, that I 
will need.
    Senator Lieberman. Right.
    General Allen. There are a number of things that will be 
occurring in 2013 that will, I believe, dictate both the tempo 
of the battle, the progress of transition, and the amount of 
combat power that's going to be necessary. For example, we will 
have in 2012 inserted our advisors into the ANSF. So most of 
the advisory teams will have been in place by the end of 2012.
    We're going to need some conventional forces to be able to 
provide cover for them in the short term until we really begin 
to see their effects start to take hold within the ANSF. We 
will also see, I think very importantly, the progress of 
transition in the Lisbon summit context. We'll probably see the 
fourth tranche of transition occurring the latter part of 2012, 
early part of 2013, to be determined at this point. President 
Karzai, of course, will make the final call. But we're going to 
see the fifth tranche occur, probably be announced the mid to 
latter part of the summer of 2013, to be implemented in the 
latter part of the summer or early fall.
    Those are going to be almost certainly the most challenging 
of the provinces, the provinces that are up against the 
Pakistani border. The ANSF technically goes into the lead for 
security of the populations in those areas with the progress of 
each tranche. But that doesn't mean the ANSF isn't going to 
need help. I anticipate that in those areas the ANSF is still 
going to need some help and we'll need to support them in their 
counterinsurgency operations, and we're going to need some 
combat power to be able to do that.
    So those are factors that weigh in my thinking with respect 
to how much combat power I would recommend to the President 
ultimately and the drawdown conceivably that we could undertake 
to support that. Of course, we'll have the almost certain 
continued presence of the safe havens, which will have a 
regenerative effect for the insurgency.
    Senator Lieberman. Yes, exactly. That says it. That's why 
they trouble me and I know they trouble you as well. We can 
hurt the enemy, we can convince Taliban to reintegrate and yet 
they can regenerate right next door in Pakistan.
    I appreciate what you said. I think in that answer you 
clarified something, and I hope there's no misunderstanding 
generally about this, which is that, though the Afghan security 
forces will be taking the lead in combat in Afghanistan, that 
doesn't necessarily mean that we can precipitously cut our 
troop presence. This is one factor, correct? Because, just as 
you said, we're going to have a backup role. We still may well 
need to be involved in combat behind their lead.
    General Allen. That's correct, sir.
    Senator Lieberman. Dr. Miller, do you want to add anything 
on that, particularly with regard to the impact of our drawdown 
on our allies in ISAF and their commitment to stay there?
    Dr. Miller. Senator, let me say three things. The first is 
that there have been speculation and reporting in the press 
that there are options being developed for reductions lower 
than the levels, lower than the 68,000. That is not the case.
    Second, President Obama is going to make a decision about 
the size and the scope of the drawdown following getting the 
force to the 68,000 at the appropriate time, and right now it 
looks like that appropriate time is going to be in the fall 
after these reductions are taken, after General Allen makes an 
assessment. If he were to come earlier and say he's ready, he's 
seen something that makes him want to make adjustments, 
frankly, it could be in principle in either direction. I would 
want to ensure that that got up the chain of command and that 
was considered.
    Then third, it is very much the case that our coalition 
partners look to what we're doing and look to our sustained 
commitment as they think about what they're going to do and as 
they, frankly, consider how they make the case to their publics 
for sustaining their presence in Afghanistan to the end of 2014 
and then an enduring commitment beyond that.
    When I was in Afghanistan, I came back through Brussels. I 
had a chance to talk to the 13 largest contributors of forces, 
and this was a message that they gave very clearly: They want 
to not just have the conversation with us in general; they want 
to understand where we are in terms of our plans. That is a 
critically important conversation for the Chicago summit, the 
Chicago NATO summit.
    Senator Lieberman. Thank you very much. I thank you for 
your testimony, which has really been extraordinary and I think 
convincing. You two know better than I the lesson that history 
teaches us, that a military in a democracy can be winning a war 
on the battlefield and lose it on the political battlefield at 
home. I think your testimony today and the earlier testimony 
before the House has given me confidence anyway that that's not 
going to be the case here, that the political decisionmakers 
are going to be guided by what's happening on the battlefield.
    Thanks to your leadership, General, and the extraordinary 
effort being made by the men and women in our military, we're 
winning on the battlefield and I think the political leadership 
is going to give you the support to carry that to the finish.
    So God bless you in your work. Thank you very much. The 
hearing is adjourned.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Roger F. Wicker

               SCREENING APPLICANTS FOR TRAINING PROGRAMS

    1. Senator Wicker. Dr. Miller and General Allen, regarding the 
issue of the screening and training of the Afghan Security Forces 
(ASF), in fiscal year 2011 Congress provided $11.6 billion to the ASF 
fund which funds the manning, training, equipping, operations, and 
sustainment of the ASF. Building the capacity of the ASF is a key 
element of our Afghanistan policy. I believe a successful Afghan 
security infrastructure will rely in part on two critical pillars: (1) 
the trustworthiness and loyalty of personnel; and (2) their capacity to 
adequately execute their job functions. I fear that if left 
unaddressed, the intake of rogue and incompetent personnel into the 
Afghan military and security services could have a catastrophic impact 
on Afghanistan's viability as a secure and stable state. How are we 
screening applicants for our training programs?
    Dr. Miller. The International Security Assistance Force (ISAF), in 
coordination with the Afghan National Security Forces (ANSF), has 
implemented the use of our eight-step vetting process to mitigate 
potential insider threats within the ANSF. The eight-step process is 
consistent with cultural practices and, to reduce infiltration, 
enhanced with modern technology. The eight-step process consists of:

    (1)  Valid Tazkera (Afghan identity card);
    (2)  Two letters from village elders or other guarantors;
    (3)  Personal information, including name, father's name, village, 
and two photos;
    (4)  Criminal records check through the Ministry of Interior, 
supplemented with an Army G2-record check by the Ministry of Defense;
    (5)  Application with validation stamp from recruiting authority;
    (6)  Drug screening;
    (7)  Medical screening; and
    (8)  Biometric collection.

    Biometric collection was initiated for all ANSF recruits in 
September 2009. Once collected, the data is downloaded into the Afghan 
Automated Biometric Identification System (ABIS) to vet against all 
criminal records.
    The ANSF vetting process is also supported by information-sharing. 
ISAF and ANSF biometrics data is shared to help identify potential 
threats. Coalition mentors also provide oversight to the vetting 
process. The eight-step process is applied to new ANSF recruits at the 
point of entry. As a result of the comprehensive vetting process, the 
ANSF typically denies approximately 12 percent of all recruits entry 
into the ANSF every month.
    General Allen. Applicants are screened using an eight-step vetting 
process. This process is Afghan-owned, designed to ensure the quality 
and protection of the force and to be compatible with existing Afghan 
cultural practices. Recruiters work closely with village elders and 
mullahs to validate the authenticity of each candidate's application, 
which includes personal identifying information, photos, Tazkera 
(Afghan ID card provided by the regional Population Registration 
Department), and two recommendation letters from village elders or 
guarantors. ANSF recruits are then interviewed at local recruiting 
centers and undergo criminal background investigations. Following these 
initial steps, the recruits are transported to their respective 
training center for medical/drug screening and biometric enrollment/
collection. The biometric data is used as an extension of a recruit's 
criminal background investigation, which prevents disqualified 
candidates from returning or AWOL personnel from joining another branch 
of the ANSF.
    In addition, the Personnel Asset Inventory (PAI) that was initiated 
in March 2011 continues to enroll current ANSF members into the 
biometric database. As of January 2012, 132,553 out of 171,078 ANA (78 
percent of the total force) were biometrically enrolled. 88,940 out of 
135,029 Afghan National Police (ANP) (65 percent of the total force) 
were biometrically enrolled.
    Increased biometrics capabilities and expansion of ANA counter-
intelligence capabilities are helping to ensure the quality of the 
force and assist in the exposure of individuals who may pose a 
potential threat to ANSF and ISAF. The ANA currently maintains 
counterintelligence personnel at the National Afghan Volunteer Centers 
throughout the country. In addition, the Ministries of Defense and 
Interior have increased their counterintelligence tashkils, and 
National Directorate for Security (NDS) counterintelligence personnel 
are increasing their coordination with the Ministries for the purpose 
of countering inside the wire and insider threats.

    2. Senator Wicker. Dr. Miller and General Allen, what tools do you 
utilize to ensure that prospective applicants are not members of the 
Taliban?
    Dr. Miller. As mentioned in the previous response, ISAF and the 
ANSF have implemented an eight-step vetting process for all incoming 
personnel. These steps include:

    (1)  Valid Tazkera (Afghan identity card);
    (2)  Two letters from village elders or other guarantors;
    (3)  Personal information, including name, father's name, village, 
and two photos;
    (4)  Criminal records check through the Ministry of Interior, 
supplemented with an Army G2-record check by the Ministry of Defense;
    (5)  Application with a validation stamp from a recruiting 
authority;
    (6)  Drug screening;
    (7)  Medical screening; and
    (8)  Biometric collection.

    Several of these steps are put in place specifically to try to 
ensure that ANSF recruits are not members of the Taliban. These include 
the need for recommendations from elders, criminal records check, and a 
biometric collection, which is compared with a national database to 
match with potential insurgents.
    Additionally, the ANSF has taken unprecedented action to counter 
the insider threat and to deny the insurgency the ability to infiltrate 
their units including embedding counterintelligence officers across the 
Services to reduce the insider threat.
    General Allen. Applicants are screened using an eight-step vetting 
process. This process is Afghan-owned, designed to ensure the quality 
and protection of the force, and to be compatible with existing Afghan 
cultural practices. Recruiters work closely with village elders and 
mullahs to validate the authenticity of each candidate's application, 
which includes personal identifying information, photos, Tazkera 
(Afghan ID card provided by the regional Population Registration 
Department), and two recommendation letters from village elders or 
guarantors. ANSF recruits are then interviewed at local recruiting 
centers and undergo criminal background investigations. Following these 
initial steps, the recruits are transported to their respective 
training center for medical/drug screening and biometric enrollment/
collection. The biometric data is used as an extension of a recruit's 
criminal background investigation, which prevents disqualified 
candidates from returning or AWOL personnel from joining another branch 
of the ANSF.
    In addition, the PAI that was initiated in March 2011 continues to 
enroll current ANSF members into the biometric database. As of January 
2012, 132,553 out of 171,078 ANA (78 percent of the total force) were 
biometrically enrolled. 88,940 out of 135,029 ANP (65 percent of the 
total force) were biometrically enrolled.
    Increased biometrics capabilities and expansion of ANA counter-
intelligence capabilities are helping to ensure the quality of the 
force and assist in the exposure of individuals who may pose a 
potential threat to ANSF and ISAF. The ANA currently maintains 
counterintelligence personnel at the National Afghan Volunteer Centers 
throughout the country. In addition, the Ministries of Defense and 
Interior have increased their counterintelligence tashkils, and NDS 
counterintelligence personnel are increasing their coordination with 
the Ministries for the purpose of countering inside the wire and 
insider threats.

    3. Senator Wicker. Dr. Miller and General Allen, are applicants 
literate and willing to learn?
    Dr. Miller. Afghanistan has an estimated literacy rate of 
approximately 28 percent, which is higher than the estimated literacy 
rate of the ANSF recruiting age population. NATO Training Mission-
Afghanistan instituted literacy training programs throughout the Afghan 
National Army (ANA) and ANP. Literacy training is one of the greatest 
enablers to the development of the ANSF. Many new recruits join the 
ANSF in part because of literacy and training programs. They realize 
that training programs provide a great opportunity and are eager to 
learn. As a result, the ANSF are becoming one of the most educated and 
capable groups within the Afghan population. Fifty-eight percent of 
ANSF personnel have graduated from basic literacy programs and 20 
percent have graduated from higher level literacy training.
    General Allen. The exact literacy rate in Afghanistan is difficult 
to pinpoint, although data extracted from other sources (United Nations 
Educational, Scientific, and Culture Organization) puts the literacy 
rate of the ANSF at approximately 14 percent. Currently, the literacy 
program has more than 118,000 personnel in training. To date, more than 
26,000 ANSF personnel have graduated from the program and achieved a 
level of functional literacy that will enable them to meaningfully 
contribute to the ANA/ANP.
    On average, 9 out of 10 recruits are illiterate and innumerate. All 
recruits who cannot prove they are literate upon enlistment take a 
placement test to check competency and placement at the appropriate 
level of training. Of these recruits, only 5 percent demonstrate 
functional literacy. Recruits are enrolled into literacy classes as 
part of Basic Warrior or Basic Patrolman Training and receive 64 hours 
of literacy training as part of this initial entry training. The 
training provides the fundamentals of literacy and numeracy to the 
first level of achievement; this is only a very elementary grasp of 
literacy, including numbers, letters, and some simple words. This is 
not a point of functional literacy and the remaining training (248 
hours) is delivered in the fielded force or within branch training for 
specific career groups.
    Qualitative evidence from the program demonstrates a high level of 
motivation among recruits. The importance of literacy is reiterated to 
recruits by the ANA/ANP chain of command, and the recruits' achievement 
rate (almost 100 percent) in the basic literacy program reflects this 
motivation. The program not only builds military and policing 
capability, but is the largest adult literacy program in the country 
and is having a positive impact on the overall rate of literacy in 
Afghanistan.

    4. Senator Wicker. Dr. Miller and General Allen, how capable are 
current graduates of our training programs in Afghanistan?
    Dr. Miller. The greatest indicator of the capability of our 
graduates from ANSF training programs is the increased operational 
capacity of the ANSF. Over the last few months, 13 ANA units and 39 ANP 
units were assessed as ``independent with advisors.'' The ANSF continue 
to move to the forefront of all operations and currently lead 40 
percent of all operations. In transition areas, the ANSF continue to 
provide security for their population. Additionally, ANSF commanders 
conduct direct action missions across their country and have eliminated 
numerous insurgent threats.
    Literacy training continues to be one of the greatest enablers 
within the ANSF. Afghanistan has one of the lowest literacy rates in 
the world, with only about 28 percent of the population literate; and 
the estimated literacy rate of the ANSF recruiting age population is 
likely lower. The ANSF are becoming one of the most educated and 
capable groups within the Afghan population. Fifty-eight percent of the 
ANSF have graduated from basic literacy programs and 20 percent have 
graduated from higher level literacy training.
    The ANSF's ability to assume a greater role in its nation's defense 
is a direct result of ANSF training programs supported by the United 
States and our partner nations.
    General Allen. In Afghanistan, capability is relative to the 
maturity of our programs. Some, such as the National Military Academy 
of Afghanistan (NMAA) graduates, are perhaps some of the most capable 
of graduates from any training/education program in Afghanistan, 
producing graduates who meet required standards and those graduates 
with previous military experience tend to be well above the standard. 
They are all literate, educated, and have been exposed to military, 
physical, and ethical education programs. The investment in these young 
leaders will ensure the ANSF has the high quality leadership that it 
requires to meet the challenges of the future.
    Measuring the capacity and effectiveness of the ANP is difficult. 
There is only anecdotal data to date. NATO Training Mission-Afghanistan 
(NTM-A) is developing the Training Development process within the ANP-
Training General Command, a process that includes validation and 
assessment of training. This validation will extend to the field once 
it has matured. NTM-A is also embarking upon a training needs analysis 
that will help to scope what the ANP career model should look like; 
this work is essential to building an enduring professional ANP 
institution.
    ANA Special Operations Command (ANASOC) Commando and Special Forces 
soldiers must meet minimum qualifications for entry into the force, 
which far exceed that of the average ANA recruit. Most ANASOC soldiers 
are minimally literate; with Special Forces soldiers having at a 
minimum a seventh-grade-level ability. Additional courses taught by the 
ANASOC School of Excellence (SOE) further propel their already advanced 
soldiers to a higher level. Also, SOE's Programs of Instruction (POIs) 
have been adjusted to support Special Operations requirements, and 
incorporate values-based instruction with the ultimate goal of 
producing a professional force.
    While measuring capability of the ANSF may be difficult, what can 
be measured is their performance in times of crisis. During the events 
of 13 September 2011 and the riots after the burning of the Qur'an, the 
ANP performed well and deservedly earned praise for their actions. 
During the Loya Jirga in 2011, the opening of Ghazi Stadium, and the 
recent Nowruz holiday celebrations, the security was planned by, and 
enforced through, the ANSF. At the Loya Jirga, the overall superb 
efforts and results of these security plans were commented on by many 
Mullahs and senior Afghan leaders who have, since the Jirga, advocated 
for their own family members to be part of the ANSF due to the positive 
image resulting from this event.

    5. Senator Wicker. Dr. Miller and General Allen, are graduates of 
our training programs able to comprehend American military values of 
respect for civilian authority, rule of law, et cetera?
    Dr. Miller. Graduates from ANSF training programs are instructed on 
values consistent with the Afghan Constitution, such as respect for 
civilian authority and the rule of law. Training programs provide 
students with technical skills associated with their respective 
military profession, as well as literacy skills and classes focused on 
respect for Afghan civilian authority and the rule of law. Also, every 
recruit receives at least 32 hours of human rights training. In 
addition to these programs, our continued partnership with the ANSF 
provides additional support to ANSF development. Although we are trying 
to help build an ANSF that is committed to transparency, 
accountability, and human rights, we are not trying to build it to 
mirror the American military.
    General Allen. NTM-A continues to increase its focus on 
professionalization of the ANSF as it reaches its growth targets. The 
ANA Company Commander's Legal Course focuses on the ANA's military 
justice system and the law of armed conflict. ANP training includes 
Afghan Law, Constitution of Afghanistan, Afghan Statutory Law, Sharia 
Law, Code of Conduct, and the Inherent Law of Officers and 
noncomissioned officers (NCO). Human rights are woven into all ANP 
training. While there is comprehension of these ideals, NTM-A has not 
quantitatively tracked their acceptance and application by graduates 
across the various Army and Police elements.
    The Ministries of Defense and Interior have continued to improve 
and increase leadership development by focusing on increasing both the 
quality and the capacity of officer and NCO training. Both ministries 
have approved a respective Core Values Statement, a one-page document 
that identifies their core values under ``God, Country, and Duty.''
    Planning and initial steps to incorporate the six values 
(Integrity, Honor, Service, Respect, Courage, and Loyalty) into all ANA 
training curricula is ongoing. Moreover, all National Military Academy 
in Afghanistan (NMAA) graduates are able to comprehend American 
military values and have been exposed to respect for civil authorities, 
rule of law, and ethics classes. However, though graduates might be 
well-versed in such values, their practical and intellectual 
application is questionable, especially if it conflicts with cultural 
norms.
    The ANASOC has its own comprehensive values campaign aimed 
precisely at professionalizing its force. Many of the topics covered in 
the Law of Land, Warfare, and Humans Rights already exist as core 
values within its campaign. Values such as respect, integrity, and duty 
are principal components of it. ANASOC fully embraced the ANA's six 
core values and also expanded upon them to address the challenge of 
developing a professionalized Special Operations Force. ANA leadership 
fully embraces ANASOC's values campaign and may institute it force-
wide.

    6. Senator Wicker. Dr. Miller and General Allen, are these 
graduates able to effectively lead their own forces and pass on 
knowledge obtained from American trainers?
    Dr. Miller. ANSF leadership programs are developing officers and 
noncommissioned officers (NCO) capable of leading and training their 
forces. Our continued partnership with the ANSF provides additional 
support to ANSF leadership development. This is evident in the 
performance of ANSF forces in transition areas. During recent attacks 
in Kabul, the ANSF responded quickly and repelled insurgents at 
multiple locations within the city. The Commander, ISAF, has stated 
that ANSF were well-led and well-coordinated in their operations.
    The ANSF currently conduct basic training programs, are increasing 
their training capacity every day, and are becoming more capable of 
passing on to new recruits the knowledge obtained from U.S. and 
coalition trainers. The ANSF are on track to assume full responsibility 
for ANSF training by the end of 2013.
    General Allen. One of NTM-A's top priorities and focal areas is the 
development of effective leaders and trainers. There are very capable 
senior leaders within the ANA, and together we are focused on improving 
the officer and NCO corps for the future through the NMAA, the 
Sergeants Major Academy, NCO professional development courses, and 
other institutional training programs. Graduates of these programs are 
then able to help train future ANA leaders. Some of the NMAA graduates 
stay at the Academy to serve as tactical officers. Additionally, the 
School of Excellence for the ANASOC is 95 percent run by Afghans with 
ANASOC force generation being wholly Afghan-run by mid-2013.
    The overall effectiveness and efficiency of training the force and 
future leaders in the ANP continues to improve as well as the leader 
development process matures. Recruitment campaigns targeting NCOs are 
already paying significant dividends to close the leadership gap 
quickly, which is expected to be completely resolved by early 2013. 
These NCOs are better educated, more capable, and ready to assume 
leadership roles sooner due to their literacy levels and motivation to 
serve. Leadership programs such as the inaugural Future Leaders Program 
have been instituted within the Ministry of the Interior to ensure 
longevity of the force. The ANP have a robust train-the-trainer program 
that has resulted in over 95 percent of training in the field being 
done by Afghans, for Afghans.

                        GREEN-ON-BLUE INCIDENTS

    7. Senator Wicker. General Allen, during today's hearing you stated 
that there have been 52 green-on-blue incidents since 2007. What is 
your current assessment of the insider threat facing our troops in 
Afghanistan from rogue elements and individuals within the ASF?
    General Allen. Any loss of coalition troops is a significant loss 
to our forces; however, I assess the green-on-blue threat to be a 
relatively small fraction of coalition casualties. The insider threat 
casualties are relatively small given the overall numbers of ANSF that 
are partnered with coalition forces (95 percent of the ANA and 53 
percent of the ANP). Although they are generally tactical events 
involving an individual attacker, due to their strategic impact, a 
single green-on-blue incident or casualty has the potential to create 
disproportionately more publicity than other types of attacks on 
coalition forces. We are taking concrete steps to prevent such attacks, 
including training coalition forces to be aware of potential warning 
indicators. For example, there is a comprehensive eight-step vetting 
process to include running criminal checks, having to receive two 
letters of recommendation from village elders, drug and medical 
screening, and biometric collection. We are also taking measures with 
our GIRoA partners to aggressively identify personnel who may pose a 
green-on-blue threat in order to help prevent attacks in the future.

    8. Senator Wicker. General Allen, how many such attacks are still 
currently under investigation?
    General Allen. There are currently five attacks under 
investigation; three are being investigated by the U.S. Army Criminal 
Investigations Command (CID), one by the Naval Criminal Investigative 
Services (NCIS), and two by Regional Command-East.
    U.S. Army CID is currently investigating three green-on-blue 
investigations. The first case involves an ANA soldier opening fire on 
U.S. soldiers, killing one and wounding three others. The ANA soldier 
was killed during the incident. The second case involves the shooting 
of two U.S. servicemembers at the Ministry of the Interior. The third 
involved two ANA soldiers and one ANA teacher. The ANA members killed 
two U.S. soldiers, wounded one U.S. soldier, and wounded one ANA 
soldier. Close air support killed one of the attacking ANA soldiers and 
the ANA teacher. There is one open NCIS case concerning Lance Corporal 
Dycus.
    Regional Command-East is currently investigating two green-on-blue 
incidents. One unit reported receiving small arms fire from Afghan 
Local Police (ALP) personnel while conducting a check on an ALP 
checkpoint. This incident resulted in one U.S. soldier killed in action 
and two ALP wounded in action. One later died of wounds. The second 
investigation involves two U.S. MEDEVAC helicopters observing tracer 
fire on them by ANP as they attempted to ex-filtrate an area after an 
operation. Two Air Weapons Teams returned fire. A battle damage 
assessment was not conducted, and there were no U.S. casualties. The 
local ANP Deputy Chief of Police reported that one ANP was killed and 
six wounded.

    9. Senator Wicker. General Allen, what steps will you take to 
ensure that the Afghans do not intentionally or unintentionally release 
individuals accused of green-on-blue incidents?
    General Allen. We continue to work closely with our Afghan partners 
to ensure justice and adherence to the rule of law. The ANA has 
successfully prosecuted cases of green-on-blue and green-on-green 
events in the past. Specifically, the ANA prosecuted an ANA soldier who 
shot a squad mate. The soldier was sentenced to 18 years in prison. 
Another ANA soldier who killed three ANA soldiers and five U.S. 
soldiers was sentenced to the death penalty. Finally, an ANA soldier 
that killed his senior officer was sentenced to 20 years.
    Key to this process is the Government of Afghanistan continues 
development of its justice system and adherence to the rule of law. Our 
battle space owners continue to use key leader engagements and rule of 
law teams to encourage accountability, investigations, detention, and 
prosecutions.

    10. Senator Wicker. General Allen, will your team at ISAF 
Headquarters keep me updated in writing on the latest developments on 
the Afghan soldier's case as it makes its way through the Afghan legal 
system?
    General Allen. I will continue to provide you updates as 
significant developments in the case arise. Currently, the shooter is 
being held in pre-trial confinement at Pol e Charki military prison. 
The lead U.S. legal mentor to the ANA Judge Advocate Generals' Corps 
has been monitoring this case. The lead Afghan prosecutor has developed 
his prosecution plan and is currently waiting on the NCIS to turn over 
the remaining forensic evidence to include the ballistics, clothing, 
the weapon, blood tests, and video footage.
    The ANA has successfully prosecuted cases such as this in the past. 
Specifically, the ANA prosecuted an ANA soldier who shot a squad mate. 
The soldier was sentenced to 18 years in prison. Another ANA soldier 
who killed three ANA soldiers and five U.S. soldiers was sentenced to 
the death penalty. Finally, an ANA soldier that killed his senior 
officer was sentenced to 20 years.

    11. Senator Wicker. General Allen, you stated that ISAF started 
``the vetting process of individuals who are coming into the ANA and 
ANP with an eight-step vetting process which includes the requirement 
to have valid identification cards, letters of endorsement or 
recommendation from village elders and other aspects, criminal 
background checks, and so on'' only months ago. If green-on-blue 
incidents go back to 2007, why did we wait 5 years before implementing 
this vetting process?
    General Allen. In September 2009, the ANSF began actively 
collecting biometric data on all ANA and ANP recruits to vet them 
against criminal databases and thereby establishing what we know as the 
eight-step vetting process. While green-on-blue incidents go back to 
2007, incident levels prior to biometric enrollment were minimal: there 
were two in 2007 and two in 2008. As the threat of green-on-blue 
attacks has increased, so have ANSF vetting procedures.
    In March 2011, the Afghans initiated a 100 percent biometric 
enrollment as part of their PAI to ensure every member of the ANSF who 
had not previously been enrolled was included. The current eight-step 
vetting process is Afghan-owned, designed to ensure the quality and 
protection of the force, while taking advantage of existing Afghan 
cultural practices. Both the Ministry of Interior and the Ministry of 
Defense continue to enhance vetting procedures and have issued multiple 
directives to improve the security posture, reduce vulnerabilities, and 
raise awareness of infiltration threats. Recently, both Ministries of 
Interior and Defense have increased their counterintelligence tashkils 
and the NDS counterintelligence personnel are increasing their 
coordination with the ANA and ANP for the purpose of countering insider 
threats.

    [Whereupon, at 1:10 p.m., the committee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
